<html>
<title> - IMPLEMENTATION OF POSITIVE TRAIN CONTROL</title>
<body><pre>[Senate Hearing 115-763]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-763

                IMPLEMENTATION OF POSITIVE TRAIN CONTROL

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2018

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]













                Available online: http://www.govinfo.gov
                
                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
39-878 PDF                  WASHINGTON : 2020 
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                 
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER WICKER, Mississippi            BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               GARY PETERS, Michigan
MIKE LEE, Utah                       TAMMY BALDWIN, Wisconsin
RON JOHNSON, Wisconsin               TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  MAGGIE HASSAN, New Hampshire
CORY GARDNER, Colorado               CATHERINE CORTEZ MASTO, Nevada
TODD YOUNG, Indiana                  JON TESTER, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel 
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 1, 2018....................................     1
Statement of Senator Thune.......................................     1
    Prepared statement of Edward R. Hamberger, President and 
      Chief Executive Officer, Association of American Railroads.    67
Statement of Senator Nelson......................................     3
    Prepared statement...........................................     4
Statement of Senator Cantwell....................................    47
Statement of Senator Hassan......................................    49
Statement of Senator Klobuchar...................................    51
Statement of Senator Udall.......................................    53
Statement of Senator Blunt.......................................    54
Statement of Senator Peters......................................    56
    Letter dated February 28, 2018 from Gilda Z. Jacobs..........    56
Statement of Senator Blumenthal..................................    59
Statement of Senator Fischer.....................................    61
Statement of Senator Wicker......................................    62
Statement of Senator Cortez Masto................................    64

                               Witnesses

Susan Fleming, Director, Physical Infrastructure, Government 
  Accountability Office..........................................     6
    Prepared statement...........................................     7
Hon. Barry J. DeWeese, Assistant Inspector General, Surface 
  Transportation Audits, U.S. Department of Transportation.......    25
    Prepared statement...........................................    26
David L. Mayer, Chief Safety Officer, New York Metropolitan 
  Transportation Authority.......................................    33
    Prepared statement...........................................    34
Richard Anderson, President and Chief Executive Officer, Amtrak..    37
    Prepared statement...........................................    39

                                Appendix

Response to written questions submitted to Susan Fleming by:
    Hon. John Thune..............................................    73
    Hon. Bill Nelson.............................................    74
Response to written questions submitted to Hon. Barry J. DeWeese 
  by:
    Hon. John Thune..............................................    76
    Hon. Bill Nelson.............................................    76
    Hon. Maria Cantwell..........................................    76
Response to written questions submitted to Richard Anderson by:
    Hon. John Thune..............................................    77
    Hon. Roger F. Wicker.........................................    78
    Hon. Bill Nelson.............................................    80
    Hon. Maria Cantwell..........................................    81
    Hon. Richard Blumenthal......................................    81

 
                           IMPLEMENTATION OF 
                         POSITIVE TRAIN CONTROL

                              ----------                              


                        THURSDAY, MARCH 1, 2018

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:18 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Blunt, Heller, 
Fischer, Gardner, Nelson, Cantwell, Klobuchar, Tester, Udall, 
Blumenthal, Baldwin, Markey, Peters, Hassan, and Cortez Masto.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. We convene today's hearing at a 
critical time for positive train control, or PTC, 
implementation. The victims, families, and all those affected 
by the overspeed derailment of Amtrak 501 in Washington and the 
collision of Amtrak 91 in South Carolina remain in our thoughts 
and our prayers. These accidents underscore the importance of 
implementing PTC quickly, safely, and successfully.
    And while tragic grade crossing collisions like the one 
involving Amtrak Special Train 923 are not generally prevented 
by PTC, reducing the number of such incidents remains another 
important priority.
    We are now about 10 months away from the December 31, 2018, 
statutory deadline for PTC, and recent reports suggest many 
railroads will not fully implement this safety technology by 
the end of the year. More alarmingly, a new report from the 
GAO, which I requested and which will be presented today, finds 
7 to 19 commuter railroads are at risk for not even qualifying 
for a limited extension to work out software, testing, and 
interoperability issues.
    The Positive Train Control Enforcement Implementation Act 
passed by Congress and signed into law by President Obama in 
October 2015 extended the original deadline of December 31, 
2015, amid reports that no railroad could meet the deadline, 
and many railroads were contemplating halting passenger rail 
service or shipments of essential supplies for agricultural 
production and water purification.
    This Committee, on a bipartisan basis, took action to avert 
a rail shutdown and set a realistic framework for 
implementation. With this realistic framework in place, 
railroads should be able to get the job done.
    The law requires railroads to implement PTC by December 31, 
2018, and allows a railroad to apply for an extension of up to 
24 months to ensure that PTC works as intended if, and only if, 
that railroad meets important milestones like full PTC hardware 
installation, spectrum acquisition, and employee training, and 
meets other milestones, such as implementing PTC on a specific 
territory or initiating revenue service demonstration. For 
Class 1 freight railroads and Amtrak, the bar is higher: PTC 
must be implemented or in revenue service demonstration on a 
majority of the required territories or route miles.
    The law is clear: for each railroad, passenger or freight, 
all PTC hardware must be on board or in the ground by December 
31, 2018. The law also required revised PTC implementation 
plans to include transparent annual metrics and provide a new 
authority for the FRA to enforce those plans.
    To date, FRA has initiated cases against 14 railroads that 
failed to meet hardware installation milestones or adequately 
report progress in a timely manner. If railroads do not comply 
with the law by the year's end, I expect the FRA to take the 
enforcement action needed to bring railroads into compliance. 
Railroads should not count on any extensions to the statutory 
framework that Congress passed in 2015.
    To be sure, PTC installation is an enormously complex 
undertaking. To implement PTC, railroads must develop, acquire, 
and install new hardware components and complex software 
systems that are able to communicate with other railroads.
    There are different PTC systems, and each system has 
different configurations, and yet they all must work seamlessly 
across our Nation's interwoven rail network. There are a 
limited number of PTC hardware suppliers, and there are a 
limited number of individuals who have the technical expertise 
to program that hardware. Simply put, PTC is not an off-the-
shelf technology, and a railroad can't simply flip a switch.
    Understanding these challenges, the Federal Government has 
provided substantial funding and financing to support for 
implementation. A new report from the Department of 
Transportation Office of Inspector General, which I requested, 
which will be also released today, shows DOT has awarded nearly 
$3 billion in grant and loan assistance with $2.3 billion 
provided to date and another $600 million on the way. This 
includes much of the $199 million that this Committee worked to 
include in the FAST Act. For instance, this financial support 
includes a $960 million loan and a nearly $100 million grant to 
support the Metropolitan Transportation Authority, one of our 
witnesses today.
    While not all financial assistance should come from the 
Federal Government with a significant amount of Federal support 
not yet expended, it is critical that grant and loan recipients 
deploy resources in a timely and efficient manner in advance of 
the deadline.
    I want to conclude my remarks by emphasizing what is at 
stake here. Failing to comply with the law is not an option. If 
commuter railroads do not meet the requirements of the law, 
there is a real risk of halting or reducing service. If so, 
millions of people who depend on commuter rail to get to work 
each day or to visit a doctor or see a family member could see 
their lives disrupted. Those entities that aren't on track need 
to look at successful examples and recommit their organizations 
to getting the job done.
    I will now turn to Ranking Member Senator Nelson for any 
opening remarks he might have.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    And before I address the topic at hand, I want to wonder, 
what in the world is going on at the FRA? Because it was just 
reported yesterday allegations by Politico that the acting head 
safety regulator, Heath Hall, Heath Hall, of the Federal 
Railroad Administration, is in a huge conflict because, 
according to the report, throughout his tenure and even at the 
time of the Washington State railroad crash, the Acting 
Administrator was doing outside work as a public relations 
consultant. This was a violation of his ethics agreement, and 
it's very alarming for the safety of our railroads, 
particularly as the agency is tasked with the oversight of the 
positive train control implementation and its task with 
responding to these tragic series of crashes that we've had.
    Now to the issue at hand, I certainly appreciate the 
Chairman for calling this hearing on positive train control. I 
wish I could say that this technology was in place and working 
so that we wouldn't have to keep having these deadly accidents, 
but it's not the case. Instead, we're here again after another 
tragic crash that has killed several people and injured dozens, 
which could have been prevented with positive train control 
technology.
    In Washington State, an Amtrak train was speeding as it 
rounded into a curve, and it derailed onto the highway below, 
killing three people and injuring more than 60. The facts of 
the case are eerily similar to the 2015 crash in Philadelphia, 
where a speeding Amtrak derailed while traveling into a curve, 
killing eight and injuring hundreds. And just last month, an 
Amtrak train traveling in Florida was in a head-on collision 
with a CSX freight train. The engineer and the train conductor 
from Florida were killed in the collision, and more than 100 
people were injured.
    So these tragedies can be prevented, they should be 
prevented, and that's why the industry must do a better job of 
implementing positive train control and get it done quickly, 
and that's why the U.S. Government ought to crack down. We've 
heard for far too long from some in the industry that 
implementing positive train control is a complex and expensive 
process and that railroads have faced a series of challenges. 
We've heard this over and over and over. But more and more 
these arguments are becoming tiresome, especially in light of 
the fact that the railroads have had 10 years to get this done.
    Now, I know that railroads have had to overcome challenges, 
but railroads like BNSF, SETPA commuter rail, and others have 
made significant progress toward implementation, and they 
should be applauded. But some railroads are way behind the 
curve, and, shockingly, according to the DOT, a few have made 
zero progress, and, unfortunately, that includes many railroads 
in my state. Now, that's just simply unacceptable.
    In 2015, none of the railroads were near completion. So the 
railroads, the commuter rails, the states, the countless 
others, requested an extension of positive train control, as 
did the administration at the time in 2015. So reluctantly, we, 
sitting at this dais, discussed it, we granted additional time, 
but demanded real action, including completion of equipping the 
locomotives and the tracks, significant testing and evidence 
that their systems work, and new penalties for the Department 
to ensure that the railroads are meeting their deadlines.
    We provided $200 million in grant funding in addition to 
the more than $2 billion in Federal support that had previously 
been provided, and the effort was suppose to ensure that PTC 
was going to be done this year. We heard repeatedly that given 
a limited amount of time, railroads would be able to get the 
PTC in place, yet here we go again, just what the Chairman has 
said. And now it's become crystal clear that many of the 
railroads simply have not lived up to their agreement.
    And so I'm very--well, let me just say it this way, I'm not 
inclined to give any more additional time because, do we want 
more crashes that PTC could avoid? So it means that railroads 
need to make sure that they're doing everything possible to 
meet the 2018 deadline. States and the Department of 
Transportation have got to come together to ensure all 
available resources are being directed to this task. And, 
finally, the Department must use its authority to hold 
railroads' feet to the fire.
    Madam Secretary, the Department of Transportation ought to 
be cracking down. We have a responsibility to the traveling 
public to learn from these tragic crashes. We've got a 
responsibility to make sure that there is safety on the lines.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    I want to thank Chairman Thune for calling today's hearing on 
positive train control.
    We have met several times on this topic previously.
    I wish I could say that this technology was in place and working, 
so that we wouldn't have to keep having these deadly accidents.
    Unfortunately, that is not the case.
    Instead, we are here again after another tragic crash that killed 
several people and injured dozens, and which could have been prevented 
with positive train control technology.
    In Washington State, an Amtrak train was speeding as it rounded 
into a curve and derailed onto the highway below, killing three people 
and injuring more than sixty.
    The facts of this case are eerily similar to the 2015 crash in 
Philadelphia, where a speeding Amtrak train derailed while traveling 
into a curve, killing eight and injuring hundreds.
    Just last month, an Amtrak train traveling to Florida was in a 
head-on collision with a CSX freight train.
    The engineer and a train conductor from Florida were killed in this 
collision and more than a hundred people were injured.
    These tragedies can be prevented.
    And they should be prevented.
    That's why the industry as a whole must do a better job of 
implementing positive train control and get it done quickly.
    We've heard for far too long from some in the industry that 
implementing positive train control is a complex and expensive process 
and that railroads have faced serious challenges during implementation.
    But more and more these arguments are becoming tiresome, especially 
in light of the fact that the railroads have had ten years already to 
get this done.
    I also know that many railroads have overcome these challenges.
    Railroads like BNSF, Septa commuter rail, and others have made 
significant progress toward implementation and I applaud them for their 
work.
    But some railroads are way behind the curve and, shockingly, 
according to the Department of Transportation, a few have made almost 
zero progress.
    This includes railroads in my state of Florida.
    This is unacceptable.
    In many instances, it feels like deja vu.
    In 2015, none of the railroads were near completion.
    The railroads, commuter rails, states, and countless others, 
including the Obama administration, requested an extension of the 
positive train control deadline.
    Reluctantly, Congress granted additional time, but demanded real 
action from the railroads, including:

  <bullet> Completion of equipping the locomotives and tracks

  <bullet> Significant testing and evidence that their systems work, 
        and

  <bullet> New penalties for the department to ensure that railroads 
        are meeting their deadlines.

    We also provided nearly 200 million dollars in grant funding, in 
addition to the more than two billion dollars in Federal support that 
had previously been provided.
    That effort was supposed to ensure that PTC would be quickly 
implemented.
    We heard repeatedly that, given a limited amount of time, railroads 
would be able to get positive train control in place.
    Yet, here we are again.
    And it's now become crystal clear that many railroads have not 
lived up to their end of the bargain.
    That's why I'm not inclined to give anyone additional time.
    We simply must get this done.
    That means railroads need to make sure that they are doing 
everything possible to meet the 2018 deadline.
    States and the Department of Transportation must come together to 
ensure that all available resources are being directed to this task.
    And finally, the department must use its authority to hold 
railroads' feet to the fire.
    We have a responsibility to the traveling public to learn from 
these tragic crashes and to improve safety on our rail lines.
    I look forward to hearing from our witnesses today on how we can 
meet that challenge.

    The Chairman. Thank you, Senator Nelson.
    I want to welcome our panel of witnesses this morning and 
thank them for their testimony in advance, and ask them to give 
their opening statements.
    We first have Ms. Susan Fleming, who is the Director of 
Physical Infrastructure Issues at the Government Accountability 
Office; Mr. Barry DeWeese, who is Assistant Inspector General, 
Department of Transportation Office of the Inspector General; 
Mr. David L. Mayer, who is the Chief Safety Officer for 
Metropolitan Transportation Authority; and Mr. Richard 
Anderson, who is President and CEO of Amtrak.
    We'll start on my left, and your right, with Ms. Fleming. 
And I would ask, if you can, to confine your oral remarks as 
close to 5 minutes as possible. We'll make sure that your 
entire statement is included in the record, and that will 
maximize the opportunity for members to ask questions.
    Ms. Fleming, welcome, and please proceed.

STATEMENT OF SUSAN FLEMING, DIRECTOR, PHYSICAL INFRASTRUCTURE, 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Fleming. Thank you.
    Mr. Chairman, Ranking Member Nelson, and members of the 
Committee, thank you for the opportunity to discuss commuter 
railroads' implementation of positive train control, or PTC, 
and FRA's oversight of that effort. Despite rail safety 
improvements in recent years, additional accidents, including 
multiple fatal accidents in the past 3 months, show that more 
needs to be done.
    PTC is not designed to and cannot prevent all rail 
accidents. Nonetheless, successful implementation of PTC holds 
significant promise in helping avoid certain types of 
accidents, such as potentially catastrophic train-to-train 
collisions or high-speed derailments. However, our broader 
five-year body of work on PTC has found that implementation is 
costly and complex, has been fraught with challenges, and 
progress has been slow.
    While the implementation of PTC involves numerous 
stakeholders, my testimony today focuses on the 29 commuter 
railroads that transport approximately 500 million passengers 
each year, and FRA, which is charged with overseeing 
implementation.
    Turning to commuter railroads' implementation progress, we 
found, based on third quarter 2017 data, that most of the 
railroads reported progress in initial implementation 
activities, such as installing equipment on trains alongside 
tracks, acquiring radio spectrum, and employee training. 
However, progress varied widely across individual railroads, in 
part, because of their varying size and unique set of 
circumstances. For example, equipping locomotives was one of 
the areas of greatest variance. Thirteen had completed 
equipment installation, while six had not yet started. The 
remaining eight fell somewhere in between.
    Significant work also remains for the majority of commuter 
railroads to complete more technically complex and time-
consuming implementation activities, such as field testing 
software and components, and revenue service demonstration, 
which tests trains operating PTC as part of regular operations. 
As of September, FRA had approved conditional certification for 
two railroads and was reviewing two other safety plans.
    Digging deeper, to estimate how many commuter railroads may 
have insufficient time to meet the December deadline or to 
qualify for an RSD-based extension, we analyzed commuter 
railroad scheduled milestones for installing the back office 
server and conducting field testing, which must be completed 
before entering RSD. Based on railroads' experience to date, 
and FRA's estimate of the amount of time it can take to 
complete these steps, over half of commuter railroads may be at 
risk of not meeting the December deadline or qualifying for an 
RSD-based extension.
    However, many factors could affect how many railroads are 
ultimately at risk. For example, some schedules may slip while 
others may benefit from applying lessons learned. FRA's 
resources and capacity will also affect how quickly it can 
review the increasing flow of submitted test plans, RSD 
applications, and safety plans.
    Speaking of FRA, I now want to turn to its role in helping 
ensure PTC is successfully implemented. FRA has provided 
substantial information to individual and groups of commuter 
railroads as well as highly praised individual assistance. 
However, we found two shortcomings with its approach. First, 
FRA has used a largely informal and often reactive 
communications approach. Second, many commuter railroads did 
not fully understand the agency's planned approach for 
reviewing and granting extensions or the criteria for applying 
for an extension. The statutory provision allowing for other 
alternative criteria approved by FRA instead of the RSD 
criteria generated the most questions.
    For the long term, we found that although FRA collects 
individual railroads' progress information, it has not used 
this information to prioritize resources using a risk-based 
approach. This will be essential given the year-end deadline 
approaching and anticipated significant increase in workload 
and oversight responsibilities that will clearly stretch beyond 
2020 and the yet to be tackled issue of interoperability.
    In conclusion, there is no ignoring the fact that the clock 
is ticking. Ten months and considerable work remains to either 
complete implementation or apply for an extension. Even with 
sustained commitment from all 25 commuter railroads that have 
yet to file a safety plan, it is highly unlikely that all will 
meet the extension or implementation deadline. Therefore, it is 
critical that FRA implement our two recommendations: first, to 
systematically communicate deadline extension criteria 
information and its planned approach, including how it will 
handle railroads that do not meet the deadline or extension 
criteria; and, second, to use a risk-based approach to 
prioritize its recommendations and workload. FRA agreed with 
our recommendations.
    Mr. Chairman, this concludes my statement, and I would be 
pleased to answer questions that you or other members of the 
Committee may have.
    [The prepared statement of Ms. Fleming follows:]

Prepared Statement of Susan Fleming, Director, Physical Infrastructure, 
             United States Government Accountability Office
       Many Commuter Railroads Still Have Significant Additional
             Implementation Work and Opportunities Exist to
                       Provide Federal Assistance
What GAO Found
    The Federal Railroad Administration (FRA) is responsible for 
overseeing railroads' (including commuter railroads') implementation of 
positive train control (PTC) by December 31, 2018. PTC is a 
communications-based train control system designed to prevent certain 
types of accidents and involves the installation, integration, and 
testing of hardware and software components. For example, railroads 
must install equipment on locomotives and along the track, and complete 
field testing, including revenue service demonstration (RSD)--an 
advanced form of testing that occurs while trains operate in regular 
service.
    GAO's analysis of commuter railroads' PTC scheduled milestones for 
two key activities necessary to meet the 2018 deadline or qualify for 
an RSD-based extension (one of the statutory options) found that as 
many as two-thirds of the 29 commuter railroads may not have allocated 
sufficient time to complete these milestones. Specifically, in 
comparing the commuter railroads' schedules to FRA's estimates of the 
time required to complete these milestones and the experiences of 
railroads that have already completed them, GAO's analysis found that 
from 7 to 19 commuter railroads may not complete the milestones before 
the 2018 implementation deadline or qualify for an RSD-based extension. 
For example, FRA estimates that field testing (one of the milestones) 
takes at least one year, but GAO found that 14 commuter railroads plan 
to start this testing less than a year before the 2018 deadline, 
increasing the potential risk that this milestone will not be 
completed. However, FRA has the authority to establish alternative 
criteria for an extension not based on RSD, and several other factors 
can affect commuter railroads' planned and future progress. As a 
result, the number of commuter railroads at risk of not meeting the 
deadline or qualifying for an extension could increase or decrease in 
the coming year.
    FRA's PTC management and oversight includes monitoring commuter 
railroads' progress, reviewing documentation, and sharing information 
with them, but the agency has not systematically communicated 
information or used a risk-based approach to help these railroads 
prepare for the 2018 deadline or qualify for an extension. GAO found 
that FRA has primarily used informal assistance, meetings with 
individual railroads, and participation in industry-convened groups to 
share information with commuter railroads, and in some cases the 
information conveyed has been inconsistent according to industry 
representatives. Some commuter railroads also told GAO that 
clarification about the agency's planned process for reviewing and 
approving extension requests would be helpful. Federal internal control 
standards state that management should externally communicate the 
necessary quality information to achieve its objectives. While FRA 
officials have said they are working to identify additional ways to 
convey extension-related information, they have not yet done so. 
Moreover, although FRA receives information from commuter railroads on 
their progress in implementing PTC, it has not used this information to 
prioritize resources using a risk-based approach. With the year-end 
2018 deadline approaching, and an anticipated significant increase in 
FRA's workload, targeting resources to the greatest risk can help 
better ensure that FRA effectively fulfills its oversight 
responsibilities and provides commuter railroads the information they 
need to prepare for the 2018 deadline or seek an extension.
                                 ______
                                 
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee:

    I am pleased to be here today to discuss our review of commuter 
railroads' implementation of positive train control (PTC).
    In the wake of rail accidents such as the 2008 Los Angeles, 
California, collision between a commuter train and a freight train, 
resulting in 25 deaths and over 100 injuries, legislation was enacted 
requiring certain freight, intercity passenger, and commuter railroads 
\1\ to implement PTC--a communications-based train control system 
designed to help control train movements, including braking--by 
December 31, 2015.\2\ While the safety of the rail industry has 
improved in recent years, additional accidents, including the recent 
Amtrak derailment in Washington state in late 2017, have demonstrated 
the continued need for technological improvements that could help slow 
or stop a train to reduce the risk of certain types of accidents such 
as train-to-train collisions and derailments caused by exceeding safe 
speeds.\3\ In total, 41 railroads, including 29 commuter railroads, are 
currently required to implement PTC. Commuter railroads provide 
approximately 490-million annual passenger trips over 8,440 miles of 
track. Their size varies significantly, from rail lines providing 
approximately one-million passenger trips a year to those providing 
over 80 million.
---------------------------------------------------------------------------
    \1\ ``Commuter rail passenger transportation'' means short-haul 
rail passenger transportation in metropolitan and suburban areas 
usually having reduced fare, multiple-ride, and commuter tickets and 
morning and evening peak period operations. 49 U.S.C. Sec. 24102(3).
    \2\ The Rail Safety Improvement Act of 2008, Pub. L. No. 110-432, 
div. A, 122 Stat. 4848 (2008).
    \3\ While the cause of the December 18, 2017, Amtrak derailment 
near DuPont, Washington, is currently under investigation, the National 
Transportation Safety Board's (NTSB) initial review indicated that 
speed may have been a factor. NTSB's preliminary report indicates the 
final recorded speed was 78 miles per hour, while the authorized speed 
heading into the curve where the derailment occurred was 30 mph.
---------------------------------------------------------------------------
    Our prior work on PTC implementation has found that it is a complex 
and lengthy process.\4\ It requires the integration of various 
components--including communication systems, hardware on locomotives 
and along the side of the track, and software in centralized office 
locations as well as onboard the train and along the track. In order to 
implement PTC, railroads must design, produce, and install more than 20 
major components that will ultimately communicate trains' locations, 
movements, and speed, and then slow or stop a train that is not being 
operated safely. Many of these components are new technologies being 
designed and developed for PTC, and railroads must integrate them with 
their existing systems. Full implementation of PTC involves a number of 
steps, including but not limited to: equipment installation, testing, 
certification, and achieving interoperability. Interoperability will 
enable trains to move seamlessly across track owned by different 
railroads with potentially different PTC systems. U.S. railroads often 
operate their cars as ``tenants'' on the track of another railroad, 
known as the ``host.'' The Federal Railroad Administration (FRA) is 
responsible for overseeing railroads' implementation of PTC.
---------------------------------------------------------------------------
    \4\ GAO, Positive Train Control: Additional Oversight Needed As 
Most Railroads Do Not Expect to Meet 2015 Implementation Deadline, GAO-
15-739 (Washington, D.C., Sept. 4, 2015) and GAO, Positive Train 
Control: Additional Authorities Could Benefit Implementation, GAO-13-
720 (Washington D.C., Aug. 16, 2013).
---------------------------------------------------------------------------
    As part of our body of work examining railroads' progress in 
implementing PTC, we found in September 2015 that nearly all railroads 
did not expect to meet the originally mandated deadline of December 31, 
2015.\5\ In October 2015, Congress extended the deadline to December 
31, 2018, and established criteria that would enable FRA to grant 
railroads meeting certain requirements a further extension up to 
2020.\6\
---------------------------------------------------------------------------
    \5\ GAO-15-739.
    \6\ The Positive Train Control Enforcement and Implementation Act 
of 2015, Pub. L. No. 114-73, Sec. 1302, 129 Stat. 568, 576-582 (2015), 
codified at 49 U.S.C. Sec. 20157.
---------------------------------------------------------------------------
    You requested that we examine commuter railroads' implementation of 
PTC. This statement describes the results of our review and focuses on:

  <bullet> commuter railroads' progress in implementing PTC;

  <bullet> how many, if any, commuter railroads may be at risk of not 
        meeting the mandated PTC deadline or certain extension 
        criteria, and what factors may be affecting implementation 
        progress; and

  <bullet> the extent to which FRA's management and oversight approach 
        has helped ensure that commuter railroads either meet the 
        deadline or qualify for an extension.

    To address these objectives, we reviewed applicable laws as well as 
applicable FRA and PTC regulations, reports, and guidance. We also 
interviewed FRA officials involved in PTC monitoring, enforcement, and 
technical assistance. To describe commuter railroads' progress 
implementing PTC, we reviewed the most recent available railroad 
quarterly data that the 29 commuter railroads submitted to FRA that 
outlines installation and implementation progress in selected areas as 
of September 30, 2017. We assessed the reliability of the data in these 
reports by reviewing them for anomalies, outliers, or missing 
information, among other things. Based on these steps, we determined 
that these data were sufficiently reliable for our purposes of 
describing progress in PTC implementation. To identify railroads that 
may be at risk of not meeting the PTC deadline or qualifying for 
certain extension criteria, we collected additional information from 
all 29 commuter railroads related to their planned schedules for key 
implementation milestones. We then compared this information against 
FRA estimates for how long these milestones may take and to the 
experiences of commuter railroads that have already completed these 
milestones. To obtain perspectives on factors that may affect 
implementation progress and FRA's oversight approach, we interviewed 
representatives from 19 commuter railroads. These selected railroads 
include: (1) 14 railroads that according to FRA were identified in May 
2017 as at risk of not meeting the 2018 full implementation deadline 
and not completing statutory requirements necessary to receive a 
deadline extension and (2) 5 other railroads that were further ahead 
with implementation and that varied in geographic location and size of 
rail system, among other factors. We also interviewed representatives 
from all 7 of the Class I freight railroads,\7\ which are also required 
to implement PTC; 5 major PTC equipment suppliers and contractors 
identified by FRA; and 2 railroad industry associations. Information 
from these interviews is not generalizable to all commuter railroads or 
all PTC stakeholders but provide valuable insights into implementation 
issues. Finally, we compared FRA's management and oversight approach to 
Federal internal control standards related to communications and risk 
assessment. Appendix I describes our scope and methodology in greater 
detail.
---------------------------------------------------------------------------
    \7\ Freight railroads are classified by operating revenues. Class I 
railroads are those carriers having annual carrier operating revenues 
of $467 million or more.
---------------------------------------------------------------------------
    We conducted this performance audit from July 2017 to February 2018 
in accordance with generally accepted government auditing standards. 
Those standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
Background
    Under the Rail Safety Improvement Act of 2008, a PTC system must be 
designed to prevent train-to-train collisions, derailments due to 
excessive speed, incursions into work zone limits, and the movement of 
a train through a switch left in the wrong position. Railroads may 
implement any PTC system that meets these requirements, and the 
majority of the 29 commuter railroads are implementing one of three 
primary types of systems: the Interoperable Electronic Train Management 
System (I-ETMS), the Advanced Civil Speed Enforcement System, or 
Enhanced Automated Train Control (E-ATC).\8\ PTC's intended safety 
benefits can only be achieved when all required hardware has been 
installed and tested, and a train is able to communicate continually 
and in real time with the software and equipment of its own railroad 
and also with that of other railroads operating on the same tracks. 
Real-time communication is needed to account for changing track 
conditions, which may, for example, include temporary speed 
restrictions where railroad employees are conducting track maintenance. 
Figure 1 illustrates how one system is intended to operate.
---------------------------------------------------------------------------
    \8\ Fifteen commuter railroads are implementing I-ETMS--the main 
system used by freight railroads. Six commuter railroads--located 
throughout the United States--are implementing E-ATC, and 5--on the 
Northeast Corridor between Boston and Washington, D.C.--are 
implementing forms of the Advanced Civil Speed Enforcement System. Two 
of the remaining commuter railroads are implementing different types of 
PTC systems, and one has yet to determine what PTC system it will 
implement.
---------------------------------------------------------------------------
Figure 1: Basic Operation of the Interoperable Electronic Train 
        Management System (I-ETMS)
        
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Source: GAO./GAO-18-367T

    PTC's multi-step implementation process can be grouped into three 
primary phases (see fig.2). Each phase involves key activities for 
railroads to complete--such as installing PTC equipment--as well as the 
submission of key documents for FRA review and approval--such as test 
plans. Based on railroad data reported to FRA, most commuter railroads 
are currently in the second phase, which involves system design, 
installation, and testing. According to a recent FRA presentation, 
completing key activities within this phase is the near-term focus for 
many commuter railroads.
Figure 2: Key Activities Railroads Must Complete to Implement Positive 
        Train Control (PTC)

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Source: GAO analysis of Federal Railroad Administration 
information./GAO-18-367T.

    According to FRA officials, railroads must complete certain 
implementation steps sequentially, while other activities can be worked 
on simultaneously; for example, railroads may work to finish installing 
locomotive and wayside equipment while also beginning testing on an 
initial track segment.\9\ Furthermore, based on railroads' PTC 
implementation plans, the scale of implementation activities can vary 
by railroad, based on the size of the railroad and the number of 
components to be installed. For example, one relatively large commuter 
railroad must install computer hardware on 528 locomotives and 789 
wayside units along 218 route miles, while one relatively small 
commuter railroad's installation is limited to 17 locomotives and 35 
wayside units along 32 route miles.
---------------------------------------------------------------------------
    \9\ In this statement, we use the term locomotive generally to 
refer to any of the variety of vehicles, such as cab cars and electric 
multiple unit trains, that commuter railroads may need to equip. 
Wayside units, located along the side of the track, include equipment 
such as communication towers or poles, switch position monitors, 
wayside radios, wayside interface units, and base station radios.
---------------------------------------------------------------------------
    According to FRA, full implementation of PTC is achieved when a 
railroad's system is FRA-certified and interoperable, and all hardware, 
software, and other components have been fully installed and in 
operation on all route miles required to use PTC. The PTC system is 
required to be interoperable, meaning the locomotives of any host 
railroad and tenant railroad operating on the same track segment will 
communicate with and respond to the PTC system, including uninterrupted 
movements over property boundaries.\10\
---------------------------------------------------------------------------
    \10\ See 49 U.S.C. Sec. 20157. With certain exceptions, full 
implementation requires all controlling locomotives to be equipped with 
a fully operative and functioning onboard PTC apparatus, including the 
controlling locomotives of each host railroad and each tenant railroad 
operating on a PTC-equipped track segment. 49 C.F.R. Sec. 236.1006.
---------------------------------------------------------------------------
    In early 2016, railroads required to install PTC had to submit 
revised implementation plans to FRA that included a schedule and 
milestones for specific activities, such as installing locomotive and 
wayside hardware, acquiring radio spectrum (if necessary), and training 
employees who will have to use and operate PTC systems.\11\ Railroads 
are required to report annually to FRA certain information on their 
implementation progress.\12\ As part of overseeing railroads' PTC 
implementation, FRA established a PTC Task Force in May 2015 to track 
and monitor individual railroads' progress. Railroads are also required 
to report quarterly to FRA on the status of PTC implementation in 
several areas such as: locomotives equipped, employees trained, 
territories where revenue service demonstration (RSD) has been 
initiated, and route miles in PTC operation.\13\
---------------------------------------------------------------------------
    \11\ The Rail Safety Improvement Act of 2008 required that 
railroads submit an implementation plan for installing PTC by April 16, 
2010. When the PTC implementation deadline was extended to 2018 under 
the PTC Enforcement and Implementation Act of 2015, railroads were 
required to submit a revised implementation plan by January 27, 2016, 
to outline how and when each railroad plans to achieve full PTC 
implementation.
    \12\ Each railroad is required to annually report to FRA on PTC 
implementation progress in areas such as spectrum acquisition, 
installation progress, and the total number of route miles where 
revenue service demonstration has been initiated or PTC is in 
operation. See 49 U.S.C. Sec. 20157(c)(1); 49 C.F.R. 
Sec. 236.1009(a)(5).
    \13\ To effectively monitor each railroad's progress implementing 
PTC, FRA requires the submission of quarterly progress reports under 
its investigative authorities. See, e.g., 49 U.S.C. Sec. Sec. 20107, 
20902, 20157(c)(2); 49 C.F.R. Sec. 236.1009(h).
---------------------------------------------------------------------------
    FRA's oversight tools include assessing civil penalties if a 
railroad fails to comply with legal requirements, including a 
railroad's failure to comply with its implementation plan.\14\ FRA has 
a national PTC director, designated PTC specialists in the 8 FRA 
regions, and a few additional engineers and test monitors responsible 
for overseeing technical and engineering aspects of implementation and 
reviewing railroad submissions of documents and test requests. FRA 
officials told us they conduct various types of PTC-related work 
simultaneously, such as providing technical assistance to railroads, 
addressing questions, and reviewing documentation submitted by 
railroads. As railroads progress with testing and before completing 
implementation, FRA must review and approve a safety plan for each 
railroad and certify the PTC system.\15\
---------------------------------------------------------------------------
    \14\ 49 U.S.C. Sec. 20157(e).
    \15\ 49 C.F.R. Sec. 236.1015.
---------------------------------------------------------------------------
    Commuter railroads that will not be able to implement a PTC system 
by December 31, 2018, may receive a maximum 2-year extension if they 
meet six criteria set forth in statute. Specifically, commuter 
railroads must demonstrate, to the satisfaction of the Secretary of 
Transportation, that they have: (1) installed all PTC system hardware; 
(2) acquired all necessary spectrum;\16\ (3) completed required 
employee training; (4) included in a revised implementation plan an 
alternative schedule and sequence for implementing their PTC system as 
soon as practicable; (5) certified to FRA that they will be in full 
compliance with PTC requirements by the date provided in the 
alternative schedule and sequence; and (6) either initiated RSD on at 
least one territory \17\ required to have operations governed by a PTC 
system or ``met any other criteria established by the Secretary.'' \18\
---------------------------------------------------------------------------
    \16\ Radio frequency spectrum is the medium for wireless 
communications and supports a vast array of commercial and governmental 
services. Commercial entities use radio frequency spectrum to provide a 
variety of wireless services, including mobile voice and data, paging, 
broadcast television and radio, and satellite services.
    \17\ FRA defines a territory as an entire installation/track 
segment as identified in a railroad's PTC implementation plan (e.g., a 
track segment, territory, subdivision, district, etc.). See, e.g., 49 
U.S.C. Sec. 20157(a)(3)(B)(vi); 49 C.F.R. Sec. Sec. 236.1003, 
236.1011(a)(5).
    \18\ These criteria are contained in 49 U.S.C. 
Sec. 20157(a)(3)(B)(i)-(v), (vii).
---------------------------------------------------------------------------
Progress Reported in Some Implementation Areas, but Significant Work 
        Remains
    Most of the 29 commuter railroads have reported progress in some of 
the key areas of PTC implementation that FRA monitors, such as 
locomotive and wayside equipment installation, but the amount of 
progress reported varies across individual railroads (see fig. 3 
below).
Figure 3: Status of Commuter Railroads' Installation of Locomotive and 
        Wayside Equipment and Training of Employees Reported as of 
        September 30, 2017

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Source: GAO analysis of commuter railroad data submitted to the 
Federal Railroad Administration./GAO-18-367T

    <SUP>a</SUP> Two railroads reported over 100 percent of wayside 
equipment installed, and three railroads reported over 100 percent of 
employees trained. We included these railroads in the 91-100 percent 
complete bin.

    <SUP>b</SUP> Some commuter railroads reported that wayside 
installation was not applicable because they operate as a tenant 
railroad and that their host railroad is responsible for installing 
wayside equipment.

    Over half of the commuter railroads reported that they have made 
substantial progress in some initial implementation activities, while 
other railroads reported that they have made much more limited progress 
or have yet to begin equipment installation or employee training. For 
example, as of the end of September 2017:\19\
---------------------------------------------------------------------------
    \19\ Railroads submitted quarterly implementation progress 
information to FRA for the period ending September 30, 2017. At the 
time of our review, this was the most recent information available.

  <bullet> Locomotive Equipment Installation: 18 commuter railroads 
        reported 50 percent or more of their locomotive PTC equipment 
        was installed, and of these, 13 had completed installation. In 
        contrast, 6 railroads reported that they had not started 
---------------------------------------------------------------------------
        installation of locomotive equipment.

  <bullet> Wayside Equipment Installation: 16 commuter railroads 
        reported 50 percent or more of their wayside PTC equipment was 
        installed, and half of them reported that they had completed 
        installation. In contrast, 7 reported that less than 20 percent 
        of this equipment was installed.

  <bullet> Employee Training: 11 commuter railroads reported completing 
        PTC training for 50 percent or more of their employees 
        requiring training. Of these, four reported that they had 
        completed employee training. Thirteen commuter railroads had 
        completed 10 percent or less of their employee training, and of 
        these, 11 reported that they had not started training their 
        employees. However, some commuter railroad representatives we 
        spoke with stated that they are waiting to conduct training 
        until their PTC system is closer to deployment. For example, 
        representatives from one railroad told us they are waiting to 
        conduct training so employees will be recently trained and 
        familiar with PTC as the system is rolled out.

    Notably, commuter railroads reported that they have made the most 
progress in obtaining spectrum, which allows PTC components to transmit 
information about a train's movements and location. Specifically, 15 of 
the 17 railroads that require spectrum reported that they have obtained 
it.\20\ The two other railroads reported that they are in discussions 
to obtain leased spectrum.\21\
---------------------------------------------------------------------------
    \20\ Twelve of the 29 commuter railroads do not require spectrum 
because, for example, they are implementing a PTC system that does not 
use spectrum or because they operate as a tenant-only railroad.
    \21\ The 7 Class I railroads created a consortium--PTC 220 LLC--to 
purchase radio frequency spectrum licenses that would address their 
needs, and in some cases, the consortium can lease radio frequency 
spectrum to non-Class I railroads for a fee. Most commuter railroads 
installing the I-ETMS system have opted to lease spectrum from PTC 220 
LLC.
---------------------------------------------------------------------------
    Beyond the initial implementation activities, much work remains for 
the majority of commuter railroads to complete other key PTC activities 
that will enable them to complete implementation. PTC implementation 
requires many additional steps to integrate equipment and software 
systems that go beyond installing equipment and training employees, and 
the majority of commuter railroads reported that they continue to work 
to complete these steps, which are technically complex and time 
consuming. For example, as of the end of September 2017:

  <bullet> Locomotives Fully Equipped and PTC-Operable: Fifteen 
        commuter railroads reported that half or more of their 
        locomotives were fully equipped and PTC-operable, meaning that 
        all necessary onboard hardware and software is installed and 
        commissioned, and is capable of operating over a PTC-equipped 
        territory. Eight commuter railroads reported that none of their 
        locomotives were fully equipped and operable.

  <bullet> Field Testing: Thirteen railroads reported that they had 
        begun field testing--a key implementation milestone that 
        precedes RSD and allows railroads to assess how PTC components 
        and software function together.\22\ FRA officials said that the 
        testing phase can be a long and difficult process, as data 
        obtained during field testing must prove the functionality of 
        the system and be included as part of a railroad's application 
        to enter RSD.
---------------------------------------------------------------------------
    \22\ During the American Public Transportation Association's 
Commuter Rail Summit in summer 2017, FRA noted that railroads should, 
at that time, have been installing their systems as well as beginning 
testing, based on the agency's anticipated time frames necessary to 
complete the milestones necessary for an extension.

  <bullet> RSD: Following successful field testing, FRA may grant a 
        railroad approval to enter the next level of testing, RSD. In 
        RSD, testing is performed on trains operating PTC as part of 
        regular operations. According to FRA, RSD is the final phase of 
        testing that a railroad completes in order to validate and 
        verify its PTC system, and the results from RSD, along with 
        earlier testing, are to be included in the safety plan a 
        railroad submits to FRA. While six commuter railroads reported 
        that they have begun RSD,\23\ most had not yet reached this key 
        milestone--including some of the largest commuter railroads.
---------------------------------------------------------------------------
    \23\ As of the end of September 2017, six commuter railroads 
reported that they had begun RSD on at least one track segment. Five of 
these railroads reported that all of their track segments were in RSD, 
while the other railroad reported that it had initiated RSD on 90 
percent of its track segments.

  <bullet> Conditional Certification: Once FRA approves a railroad's 
        safety plan, the railroad receives a PTC system 
        certification.\24\ According to FRA officials, as of September 
        30, 2017, only two commuter railroads were conditionally 
        certified--meaning FRA has reviewed their safety plans and 
        granted conditional approval for PTC operations, and the 
        railroads are providing regular service in PTC operations--and 
        two additional commuter railroads had submitted a safety plan 
        for FRA review.\25\
---------------------------------------------------------------------------
    \24\ 49 C.F.R. Sec. Sec. 236.1009(d), 236.1015. A PTC safety plan 
may include, among other things, a risk assessment, a hazard mitigation 
analysis, and a complete description of the railroad's training plan 
for employees and supervisors.
    \25\ One of the two commuter railroads submitted its safety plan 
jointly with the Class III railroad that provides freight service on 
the line.
---------------------------------------------------------------------------
    Given the variation in commuter railroads' progress, especially 
related to completing later-stage PTC activities such as testing and 
developing safety plans, 13 of 29 commuter railroads told us they 
planned to seek a deadline extension, and the remaining 16 told us they 
do not intend to seek an extension. However, the number of commuter 
railroads planning to seek an extension is subject to change before the 
end of 2018.
Over Half of Commuter Railroads May Be at Risk of Not Meeting the 2018 
        Deadline or Criteria for RSD-based Extension, Though Numerous 
        Factors Create Uncertainty
    Based on our analysis of the PTC schedules of the 29 commuter 
railroads, over half may not have sufficient time to complete 
activities needed to implement PTC by the end of 2018 or to qualify for 
an extension of that deadline by meeting criteria based on initiating 
RSD--for the purposes of this statement, referred to as an RSD-based 
extension. In particular, our analysis focused on the time likely 
needed for railroads to conduct RSD activities, because RSD is both the 
final step of field testing required by the 2018 deadline as well as 
one of the statutory options railroads have in seeking a deadline 
extension. For our analysis, we compared the amount of time railroads 
plan for completing two key milestones--installing the back office 
server and conducting field testing--to the amount of time FRA 
officials estimate is required for each milestone and to the 
experiences of railroads that have already completed RSD. However, it 
is important to recognize that numerous factors could affect railroads' 
planned and future progress. For example, commuter railroads could face 
delays due to unexpected issues with PTC components or FRA reviews of 
documents submitted by the railroads.
Over Half of Commuter Railroads May Be at Risk
    In May 2017, FRA sent letters to 14 commuter railroads and their 
respective state departments of transportation and governors informing 
the recipients that they had not installed at least 50 percent of their 
required locomotive and wayside equipment. In these letters FRA raised 
concerns that these railroads were at risk of not meeting the 2018 
deadline and not completing requirements for a deadline extension.\26\ 
Subsequently, in January 2018, FRA applied a more stringent benchmark--
whether a railroad had installed at least 65 percent of all equipment--
and determined that 13 commuter railroads remained at risk.\27\ Using 
this more stringent criterion, only one railroad had made enough 
progress installing equipment to no longer be classified as at risk by 
FRA.
---------------------------------------------------------------------------
    \26\ FRA used railroads' equipment installation data as of the end 
of calendar year 2016 to make its determinations.
    \27\ FRA used railroads' data as of the end of September 2017 to 
make determinations, and our analysis confirmed this finding.
---------------------------------------------------------------------------
    In addition to FRA's benchmarks for equipment installation, for our 
analysis we evaluated more broadly railroads' progress in completing 
other implementation activities that follow equipment installation and 
that FRA and stakeholders said are more difficult to achieve. 
Specifically, we analyzed commuter railroads' planned schedules for two 
key milestones to determine whether these railroads appear to have 
built sufficient time into their implementation plans to complete these 
and other activities by the 2018 deadline or to qualify for an RSD-
based extension.\28\ The two key milestones we examined, both of which 
need to be completed before a railroad enters RSD, were:
---------------------------------------------------------------------------
    \28\ We assessed all commuter railroads against these milestones, 
regardless of whether a railroad planned to seek an extension. As noted 
above, railroads that do not plan to seek an extension have said that 
they will conduct RSD as the final step of required field testing, and 
railroads that do plan to seek an extension must by statute either 
initiate RSD on at least one territory or meet any other alternative 
criteria established by FRA. While these alternative criteria are not 
required to be based on RSD, we used RSD as a benchmark for our 
analysis based on FRA's three ``alternative criteria'' approvals to 
date; all of which have used RSD-based criteria (RSD testing on a 
segment of track versus RSD testing on an entire territory). According 
to an FRA official, it approved these three requests for alternative 
criteria because they were based on specific and quantifiable measures 
that happened to be RSD but could have been other specific, 
quantifiable measures.

  <bullet> installing the back office server (BOS) and associated 
        software necessary to connect and interface with wayside, 
        locomotive, and dispatch equipment (the BOS transmits and 
        receives data among this equipment that enables PTC to work); 
---------------------------------------------------------------------------
        and

  <bullet> conducting field testing, in particular testing of installed 
        infrastructure and initial assessments of the PTC system's 
        overall functionality on trains that are not transporting 
        passengers or operating during regular passenger service.

    Our analysis found that at least one quarter, and potentially up to 
approximately two thirds, of commuter railroads may not have sufficient 
time to enter RSD and, thus, may not meet the 2018 PTC implementation 
deadline or qualify for an RSD-based extension. These railroads vary by 
size and type of PTC system and by whether they plan to apply for a 
deadline extension. Specifically, our analysis found the following:

  <bullet> Projection based on BOS status: Between 9 and 19 commuter 
        railroads appear to be at potential risk of not meeting the 
        2018 deadline or qualifying for an RSD-based extension based on 
        our analysis. Our analysis found that the 6 commuter railroads 
        already in RSD took an average of 10 months from installing the 
        BOS to starting RSD.\29\ However, the schedules of 9 railroads 
        indicate that they plan to install a BOS less than 10 months 
        before the 2018 deadline. We believe that given past experience 
        of other railroads, this places these 9 railroads at potential 
        risk. Moreover, FRA officials estimate that it can take 2 to 3 
        years for a railroad to install and prepare the BOS and 
        associated software to support testing and RSD. Using FRA's 2-
        year installation estimate (which would require BOS 
        installation before January 1, 2017) further exacerbates the 
        potential risk of not meeting the deadline or of not qualifying 
        for any RSD-based extension for up to 19 railroads.
---------------------------------------------------------------------------
    \29\ The 6 railroads in RSD, on which we based one of our 
comparisons, vary in system size and PTC implementation system, but 
many of these railroads are relatively small based on the number of 
track segments each operates. Specifically, 3 railroads have a single 
track segment; 1 railroad has 3 track segments, and 2 railroads have 10 
or more track segments. In addition, one of these railroads is a tenant 
railroad and did not have to install wayside PTC equipment.

  <bullet> Projection based on time allowed to conduct field testing: 
        Based on our review of the planned schedules, between 7 and 14 
        railroads may not have built sufficient time into their plans 
        either to complete field testing ahead of the 2018 deadline or 
        to qualify for an RSD-based extension. Commuter railroads and 
        FRA officials told us that field testing is challenging and can 
        take a substantial amount of time due to, for example, 
        unanticipated issues and limited available track for testing 
        given regular passenger operations. On average, our analysis 
        found that the 6 commuter railroads already in RSD took 7 
        months to move from starting field testing to starting RSD. 
        However, 7 commuter railroads plan to start their field testing 
        less than 7 months before the 2018 deadline. This situation 
        raises concerns about their ability to conduct field testing 
        before the 2018 deadline. Moreover, FRA officials told us that 
        moving from the start of field testing to the start of RSD can 
        take between 1 and 3 years, averaging about 2 years, and that 
        most railroads under-estimate the amount of time needed for 
        testing. When we applied the lower end of FRA's estimate, we 
        found that it further increases the potential risk for 14 
        railroads that plan to start field testing less than a year 
        prior to the 2018 deadline. As a result, they could be at risk 
        of not meeting the 2018 deadline or qualifying for an RSD-based 
---------------------------------------------------------------------------
        extension.

    We used RSD as a benchmark for our analysis of key milestones based 
on the importance of this benchmark in implementing PTC and on the 
three RSD-based alternative criteria that FRA has approved to date. 
While the three approved alternative criteria all include RSD, FRA has 
broad authority to approve ``any other'' alternative criteria even if 
not based on RSD, as noted above. One FRA official told us the agency 
approved these three alternative criteria requests because they were 
all based on specific, quantifiable measures, rather than because they 
included RSD in particular. FRA officials stated that they have not 
issued guidance on uniform alternative criteria because they will 
strive for railroads to meet the criteria for a deadline extension that 
are listed in statute and want the discretion to make determinations on 
a case-by-case basis. In addition, FRA officials said they want to 
ensure that each railroad's criteria are consistent with the statutory 
requirements for final implementation by December 31, 2020. Because it 
is unknown what alternative criteria FRA may establish in the coming 
months, which may not include RSD, it is difficult to determine at this 
time whether the railroads we found to be potentially at risk of not 
qualifying for an RSD-based extension might be more or less likely to 
qualify for an extension based on other, non-RSD criteria.
Many Factors May Affect Commuter Railroads' Ability to Meet the 
        Deadline or 
        Qualify for an Extension
    Much uncertainty exists regarding railroads' ultimate 
implementation progress and their ability to meet the 2018 deadline or 
qualify for an extension. This uncertainty is due, in part, to the fact 
that PTC is a new way of operating and involves technologies that are 
more complex to implement than many other railroad capital projects. 
Furthermore, a number of factors can affect commuter railroads' planned 
and future progress, including unexpected setbacks installing PTC 
components and resources and capacity issues. Below we highlight some 
of the factors that that could affect implementation progress.
Limited Industry Expertise and Resources

    Three out of five PTC contractors and suppliers and about half of 
the commuter railroads we spoke with acknowledged that industrywide, 
there are a limited number of individuals with PTC technical expertise 
available to successfully implement the technology. This can affect the 
ability of railroads and contractors to meet planned schedules. For 
example, one large commuter railroad said it took a year and a half to 
hire an internal expert to continue work on its PTC project. In 
addition, five commuter railroads told us that they faced other issues 
with their prime contractors missing their milestones; such issues, 
going forward, could impact railroads' progress during the coming year. 
Also, though most railroads we spoke to are relying on contractors, 
some commuter railroads may lack the in-house resources and expertise 
to plan and oversee a project as large and complex as PTC. 
Representatives from three commuter railroads we interviewed noted that 
PTC is not a traditional capital or construction project for a 
railroad; therefore, it requires additional expertise. FRA officials 
also stated that small commuter railroads may not have technical 
capacity or expertise with large contracts for such complex projects, 
especially given limited industry resources.
    In addition to limited expertise and resources, some commuter 
railroads told us they faced unexpected delays in obtaining PTC 
equipment, such as radios, from the supplier. Some PTC equipment is 
only available from a single provider, which can lead to delays 
executing contracts and obtaining equipment. Three commuter railroads 
we spoke with said they encountered issues executing contracts for PTC 
radios, in particular negotiating unique liability requirements sought 
by the only supplier of this equipment, which resulted in delays or 
higher overall costs to the railroads. One railroad noted that 
executing sole-source contracts for such circumstances is particularly 
problematic for state and public agencies.
Interoperability and Host and Tenant Coordination

    As noted above, PTC is being implemented by different types of 
railroads using different systems, and achieving interoperability among 
PTC systems can complicate implementation. For example, Northeast 
Corridor railroads that are implementing versions of the Advanced Civil 
Speed Enforcement System need interoperability with freight railroads 
using I-ETMS. Even railroads that are installing the same PTC system 
have to take significant steps to ensure that systems will communicate 
and interoperate properly. In one case, a railroad told us that it is 
equipping its locomotives with equipment for multiple PTC systems to 
ensure that it can operate on various host railroads' tracks.
    Some commuter railroads that only operate as tenants on other 
railroads' tracks may be able to complete some PTC implementation work 
more quickly, as these railroads may benefit from work the host 
railroads already completed as they coordinate to implement PTC. For 
example, representatives from one commuter railroad we spoke with said 
they have to acquire and install PTC equipment on their locomotives but 
rely on the host railroads to install the remainder of the necessary 
PTC infrastructure. These tenant-only commuter railroads, however, have 
to coordinate field testing and RSD with the host railroads.
Schedule Changes

    Unexpected issues with components or technology can also require 
additional time to complete certain activities, causing schedules to 
slip. Such issues could affect railroads currently on schedule as well 
as railroads pursuing aggressive schedules in an effort to overcome 
late starts or early setbacks. For example, representatives from 10 
railroads we spoke with said that installing the BOS and associated 
software, and ensuring it functions properly, can pose a challenge. One 
contractor told us that once the BOS is delivered to a railroad, a lot 
of testing work remains, and unexpected issues inevitably arise during 
testing, even if the BOS works according to all specifications. 
Representatives from one railroad said that despite strong 
organizational commitment to implementation and setting internal 
targets for progress, their PTC project schedule slipped many times 
over the course of implementation due to a variety of issues, including 
on-going software updates that caused delays while also straining the 
budget and burdening staff. Representatives from that commuter railroad 
also noted that equipping vehicles with PTC components took three times 
longer than originally expected (3 years instead of 1 year). However, 
some railroads are looking for ways to accelerate implementation. For 
example, representatives from one railroad said they made the difficult 
decision to cut some weekend passenger service to accelerate wayside 
equipment installation. Therefore, as representatives from one railroad 
articulated, given the schedule slippage experienced by railroads 
further along in implementation, railroads with aggressive schedules 
would have a limited ability to accommodate any additional delays.
FRA's Resources and Capacity

    As the 2018 deadline approaches and railroads progress with 
implementation activities, the amount of documentation railroads will 
submit to FRA for review and approval is likely to increase 
significantly. For example, FRA reported in summer 2017 that it had 
taken between 10 and 100 days to review each of the test requests it 
received from railroads. As the 2018 deadline approaches, FRA will have 
to review a considerable amount of additional test plans and procedures 
as well as applications to begin RSD. In addition, FRA will have to 
concurrently review any safety plans that are submitted by railroads 
reaching the certification phase. At the American Public Transportation 
Association's (APTA) Commuter Railroad Summit in June 2017, FRA 
officials said that they expect each safety plan review--which involves 
all the regional specialists and some contract personnel--to take 
between 6 and 12 months to review. These plans are about 5,000 pages in 
length. FRA officials told us that reviewing all of the safety plans in 
a timely manner will be a challenge given staff resources. FRA has 12 
technical staff dedicated to the review of railroads' PTC documentation 
and monitoring of PTC testing. Representatives from 10 out of 19 
commuter railroads we interviewed said they are concerned about FRA's 
ability to review submitted documentation in a timely manner.
Lessons Learned

    As railroads continue to progress with their projects and the 
industry becomes more experienced with PTC, railroads could benefit 
from lessons learned. For example, representatives from one railroad 
that is implementing I-ETMS, the system all large Class I freight 
railroads are implementing, told us that they anticipate being able to 
capitalize on lessons learned from freight railroads that have operated 
in RSD. By leveraging the freight railroads' experiences, one commuter 
railroad hopes to address issues before testing, rather than during, 
and therefore move more quickly through the testing process. If 
commuter railroads are able to apply lessons learned from other 
railroads' testing processes, then they may be able to accelerate their 
implementation efforts. Railroads may also accelerate implementation 
schedules as they become more adept at the overall testing process, 
which involves submitting test documents to FRA and scheduling multiple 
tests. This could potentially shorten the average time it takes a 
railroad to complete one or more of the key milestones analyzed. The 
two commuter railroads that have been conditionally certified told us 
they have met with other commuter railroads informally and have shared 
their project experiences as a way to facilitate information sharing.
FRA Monitors Railroads' Progress but Has Not Systematically 
        Communicated with Them or Prioritized Efforts
FRA Monitors Railroads' Implementation Progress, Reviews Documents, and 
        Shares PTC Information
    Since 2015, FRA has assumed additional roles and responsibilities--
primarily through the PTC Task Force and regional PTC specialists--to 
monitor railroads' implementation progress, review required 
documentation, and share information about implementation steps and 
activities.

  <bullet> Monitoring and Document Review: In response to a 
        recommendation in our September 2015 report, FRA began to 
        identify and collect additional information from the railroads 
        to enable it to effectively track and monitor railroads' PTC 
        progress.\30\ For example, in 2016, the PTC Task Force began 
        collecting quarterly progress data and monitoring railroads' 
        annual reports to track progress in meeting the PTC 
        implementation milestones set out in railroads' implementation 
        plans, such as locomotive equipment installed at the end of the 
        year.\31\ As previously noted, the Task Force used this 
        implementation progress data in May 2017 to identify 14 
        commuter railroads at risk of not meeting the 2018 deadline or 
        requirements for an extension. FRA also monitors railroads' PTC 
        implementation through meetings with railroad and industry 
        associations, visits to individual railroads, and reviewing and 
        commenting on PTC documentation submissions, such as requests 
        to begin field testing and RSD. FRA officials told us that they 
        monitor railroads' progress to determine how much commuter 
        railroads understand about the implementation process and to 
        trigger discussions between FRA and the railroads. Regional PTC 
        specialists are responsible for reviewing and approving 
        requests submitted by railroads preparing to test system 
        functionality as well as individual testing procedures 
        describing the specific equipment and movements involved in 
        each test.\32\ In addition, FRA officials told us that 
        assessing civil penalties and sending commuter railroads 
        letters of concern are the primary enforcement mechanisms they 
        have available to oversee PTC.\33\
---------------------------------------------------------------------------
    \30\ GAO-15-739.
    \31\ The PTC Task Force is comprised of FRA data analysts and 
subject matter experts responsible for PTC administrative and 
programmatic support, including collecting and tracking railroads' PTC 
data, managing documentation, and corresponding with railroads.
    \32\ Railroads submit certain information to FRA before beginning 
field testing for a PTC system, such as the date and location for the 
proposed testing, the planned test procedures, and other information 
for FRA's review and approval.
    \33\ To date, FRA has initiated enforcement actions against 10 
commuter railroads for either failure to complete one or more hardware-
installation milestones that a railroad scheduled to complete during 
calendar year 2016, or for the failure to submit a timely annual PTC 
progress report to FRA by the statutory deadline. Thus far, 8 commuter 
railroads have paid or have agreed to pay civil penalties up to 
$12,000.

  <bullet> Information Sharing: FRA officials said that they have 
        primarily used informal assistance and participation in group 
        meetings to convey information related to the implementation 
        process and specific milestones necessary to meet the 2018 
        deadline or qualify for an extension. FRA officials 
        acknowledged that they do not have the capacity to provide 
        frequent one-on-one assistance to all railroads given their 
        growing PTC workload and limited agency resources. As such, FRA 
        officials explained that in order to reach a wide audience 
        given the approaching deadline, their current focus is on 
        presentations at industry group meetings (e.g., APTA's Commuter 
        Rail Summit) and specific PTC systems user-group meetings. 
        FRA's regional PTC specialists told us they also provide 
        direction on technical aspects of PTC implementation and 
        testing, primarily by discussing issues at individual and 
        railroad-industry meetings and providing informal feedback on 
        commuter railroads' PTC documentation, such as testing 
        requests.
FRA Has Not Systematically Communicated Information to Help Railroads 
        Prepare for the 2018 Deadline or to Qualify for Extensions
    While the majority of the railroad representatives we met with said 
FRA officials were consistently available to discuss issues that arise 
during day-to-day PTC implementation activities, the information 
conveyed by these officials has sometimes been inconsistent. In 
particular, FRA's heavy reliance on informal assistance and 
participation in group meetings to convey information to commuter 
railroads has led, at least on some occasions, to different or 
inconsistent information being communicated in different meetings. For 
example, representatives from one PTC equipment supplier said that FRA 
has not consistently commented on different railroads' test plans, and 
as a result, they have not been able to carry lessons learned on to 
other railroads' plans. In addition, while FRA's officials said their 
position has been consistent with the regulations stating that the host 
railroad must submit a safety plan to FRA, representatives from one 
railroad we met with said they had heard conflicting information from 
FRA. For example, these railroad representatives told us that FRA 
officials originally said commuter railroads that are only tenants on 
other railroads needed to submit their own safety plans but later 
stated at an industry association meeting that tenant railroads could 
be included in the host railroads' plans.
    In addition, commuter railroads have expressed a need for 
additional clarification about the criteria for applying for an 
extension. FRA officials also told us that they have received a lot of 
questions from commuter railroads about the criteria for an extension 
related to RSD or other alternative criteria. As noted above, to date, 
FRA has approved alternative extension criteria for three railroads, 
and in each case, the criteria involved RSD testing on a shorter track 
segment.\34\ However, representatives from one contractor working with 
several commuter railroads said it is unclear what ``alternative 
criteria'' FRA will approve to receive an extension. In addition, 
representatives from one commuter railroad stated that any opportunity 
to clearly outline FRA's interpretation of the PTC requirements, 
specifically the alternative extension criteria that could, for 
example, allow for a shorter test segment, would enable railroads to 
better position themselves to apply for an extension.
---------------------------------------------------------------------------
    \34\ FRA officials said that to date, they have directed railroads 
with questions about qualifying for extensions to review the statutory 
criteria as well as the alternative criteria the agency has approved to 
date. An FRA official told us these approvals were based on the 
railroads' proposing specific, quantifiable alternative criteria, 
regardless of whether those involved RSD.
---------------------------------------------------------------------------
    Representatives from some commuter railroads we met with were 
likewise unclear about the agency's approach to reviewing and granting 
extension requests. Representatives from three commuter railroads said 
clarification of FRA's planned approach would be helpful as the 
deadline approaches. According to FRA officials, the statute does not 
set a deadline by which railroads have to apply for an extension, and 
FRA has not set a deadline or indicated the latest date by which a 
railroad should apply. Nonetheless, for railroads that do not comply 
with PTC deadlines, FRA officials said they could impose civil 
penalties for each day a railroad fails to implement a PTC system by 
the applicable statutory deadline, but the agency has yet to determine 
how it will handle railroads that do not meet the deadline or receive 
an extension. With less than a year remaining before the 2018 deadline, 
FRA officials stated that they anticipate their workload is likely to 
increase as railroads submit additional documentation to review and 
continue to progress with testing.\35\ More systematic communication 
that delineates FRA's planned approach for the upcoming deadline and 
extension process may be critical for the agency to efficiently use its 
limited resources and convey consistent information to all the 
railroads.
---------------------------------------------------------------------------
    \35\ In addition, FRA officials said they had begun exploring 
options to validate the information railroads will submit to 
demonstrate they have met the statutory requirements for installing PTC 
equipment to qualify for an extension as the 2018 deadline approaches, 
but the officials have yet to finalize an approach to verify railroads' 
information.
---------------------------------------------------------------------------
    Standards for internal control in the Federal Government state that 
management should externally communicate the quality information 
necessary to achieve the entity's objectives. These standards also note 
that management should select the appropriate form and method of 
communication, so that information is communicated widely and on a 
timely basis.\36\ As we have previously found, the particular form of 
the agency's communication--for example, by oral presentation, written 
guidance, or formal regulation--will depend on multiple factors 
including the purpose and content of the specific communication and 
applicable legal requirements.\37\ Moreover, internal control standards 
indicate agencies should have standard processes in place to determine 
which form of communication is appropriate in each case.\38\ FRA 
officials told us that the agency could issue written guidance 
explaining how it has decided to apply its deadline extension authority 
and what type of information railroads will then need to submit to get 
an extension. However, FRA officials stated this written guidance would 
require time-consuming approval by the Office of Management and Budget 
under the Paperwork Reduction Act, and would make timely issuance of 
such guidance difficult. As noted, however, FRA may have the option to 
use less formal, less time-consuming methods of communicating key 
information about the extension process, such as webinars or conference 
calls, to communicate information more systematically. FRA officials 
acknowledged they are working to identify mechanisms such as these, but 
they have yet to do so. Absent systematic communication articulating 
the agency's planned approach for the extension process, railroads may 
not have the information they need to effectively prepare for the 
deadline or seek an extension.
---------------------------------------------------------------------------
    \36\ GAO, Standards for Internal Control in the Federal Government, 
GAO-14-704G (Washington, D.C.: Sept. 2014).
    \37\ GAO, Regulatory Guidance Processes: Selected Departments Could 
Strengthen Internal Control and Dissemination Practices, GAO-15-368 
(Washington, D.C.: Apr. 16, 2015).
    \38\ GAO-14-704G; GAO-15-368.
---------------------------------------------------------------------------
FRA Has Made Limited Use of Implementation Progress to Prioritize 
        Efforts and Mitigate Risks
    While FRA has taken steps to more closely monitor railroads' 
implementation progress, the agency has not prioritized its efforts, 
including its allocation of resources, based on an assessment of risk. 
In its 2015 Railroad Accountability Plan, FRA stated that its PTC data 
collection and monitoring efforts would allow the agency to inform, 
among other things, its resource allocation and risk mitigation.\39\ 
While FRA has used its data to identify at-risk railroads, it has not 
used this information to prioritize how to allocate its resources or 
address risks. For example, as discussed earlier after reviewing 
railroads' data on their progress in installing PTC equipment, FRA 
notified 14 commuter railroads of their at-risk status in May 2017. 
However, while FRA officials said that they hold regular meetings with 
many--but not all--of the at-risk railroads, 9 of these 14 commuter 
railroads said that the formal letter they received did not ultimately 
trigger any change in the type of interaction they have with FRA. More 
recently, in December 2017, the Secretary of Transportation notified 
all railroads required to implement PTC by letter of the expectation 
that all possible measures be taken to ensure implementation 
requirements are met by the 2018 deadline. However, these letters made 
no distinction between railroads--that is, the same letter was sent to 
railroads with conditionally certified PTC systems and to railroads 
that reported completing no training or installing no locomotive 
equipment to date--nor did the letters describe how FRA's approach to 
working with the railroads would respond to their particular 
circumstances and risks.
---------------------------------------------------------------------------
    \39\ FRA developed this plan as an internal document in response to 
recommendations in GAO-15-739.
---------------------------------------------------------------------------
    As noted above, FRA officials have stated that the agency does not 
have the resources to meet more frequently with or provide additional 
assistance to railroads. While the PTC Task Force helps monitor 
railroads' progress, FRA still employs fewer than 12 individuals with 
the requisite PTC expertise and experience to review technical 
documents and help railroads implement PTC systems.\40\ In an 
environment with limited agency resources, targeting agency efforts to 
areas of the greatest risk or highest priority areas is one way to 
leverage existing resources. According to standards for internal 
control in the Federal Government, management should identify, analyze, 
and respond to risks. In addition, FRA's Strategic Human Capital Plan 
states that developments including the rapid introduction of new 
technologies, such as PTC, demand that FRA continuously evaluate its 
programs and resources to adapt to changing demands.
---------------------------------------------------------------------------
    \40\ According to FRA officials, the technical and programmatic 
staff and contractors supporting PTC implementation have recently 
expanded, and a procurement is underway for additional contractors to 
support PTC safety plan reviews.
---------------------------------------------------------------------------
    However, FRA has not fully leveraged the implementation progress 
data that railroads' submit to the agency to identify and develop a 
risk-based approach to prioritize agency actions. At present, it is 
unclear whether the agency's priorities are, for example, to help the 
largest commuter railroads meet the deadline or extension requirements, 
push those railroads that are very close to full implementation, or 
assist railroads that are in the earliest stages of their PTC project. 
For example, one regional PTC specialist we met with said that if he 
did not need to be reviewing documentation or observing railroads' 
field testing, he could spend more time with at-risk railroads. By not 
effectively targeting actions to help mitigate risks posed by railroads 
most at risk of not meeting the PTC deadline or qualifying for an 
extension, FRA misses the opportunity to leverage its limited resources 
by providing direct assistance in the areas of greatest need.
Conclusions
    Much progress has been made in implementing PTC by commuter 
railroads. Nevertheless, about half of commuter railroads plan to apply 
for an extension, and many of the railroads' planned schedules raise 
questions about their ability to complete key implementation milestones 
and qualify for RSD-based extensions prior to the 2018 deadline. As the 
2018 deadline rapidly approaches, the need for clear information that 
is systematically communicated to all railroads implementing PTC 
becomes even more critical. FRA cannot expect to provide information 
and guidance to railroads individually, and therefore, adopting a risk-
based communication strategy could help it more efficiently share 
information in the coming year. Moreover, the information FRA collects 
on railroads' progress has not been used to inform the agency's 
resource allocation decisions. Using this information to better 
allocate resources could help position FRA to better meet its 
responsibility to monitor and oversee PTC implementation in the future.
Recommendations for Executive Action
    We are making the following two recommendations to FRA:

  <bullet> The Administrator of FRA should identify and adopt a method 
        for systematically communicating information to railroads 
        regarding the deadline extension criteria and process. 
        (Recommendation 1)

  <bullet> The Administrator of FRA should develop an approach to use 
        the information gathered to prioritize the allocation of 
        resources to address the greatest risk. (Recommendation 2)
Agency Comments
    We provided a draft of this statement to DOT for review and 
comment. In its comments, reproduced in appendix II, the agency 
concurred with our recommendations. DOT also provided technical 
comments, which we incorporated as appropriate.
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, this completes my prepared statement. I would be pleased to 
respond to any questions that you may have at this time.
                                 ______
                                 
             Appendix I: Objectives, Scope, and Methodology
    This statement examines commuter railroads' implementation of 
positive train control (PTC). Specifically, this report addresses:

  <bullet> commuter railroads' progress in implementing PTC;

  <bullet> how many, if any, commuter railroads may be at risk of not 
        meeting the mandated PTC deadline or certain extension 
        criteria, and what factors may be affecting implementation 
        progress; and

  <bullet> the extent to which FRA's management and oversight approach 
        has helped ensure that commuter railroads either meet the 
        deadline or qualify for an extension.

    To address these objectives, we reviewed the Rail Safety 
Improvement Act of 2008, the Positive Train Control Enforcement and 
Implementation Act of 2015, and applicable Federal Railroad 
Administration (FRA) regulations, reports, and guidance. Our review 
focused on the 29 railroads FRA officials identified as commuter 
railroads required to implement PTC.\1\ We also reviewed previous GAO 
work on PTC \2\ and applied Standards for Internal Control in the 
Federal Government to FRA's role overseeing PTC implementation, 
including the principles that management should externally communicate 
the necessary quality information to achieve the entity's objectives 
and that management should identify, analyze, and respond to risks.\3\ 
In addition, we interviewed representatives from 19 commuter railroads 
to further understand their implementation progress, factors that may 
be affecting progress, and the interviewees' perspectives on FRA's 
management and oversight of PTC implementation. We selected the 19 
railroads to include the 14 railroads that according to FRA were 
identified in May 2017 as at risk of both not meeting the 2018 
implementation deadline and not completing statutory requirements 
necessary to receive a deadline extension, as well as 5 other railroads 
that were further ahead with implementation and that varied in 
geographic location and size of rail system, among other factors.
---------------------------------------------------------------------------
    \1\ Representatives of one of these railroads consider themselves 
to be an intercity passenger railroad, but we included them in our 
review because FRA tracks and monitors their progress among the 
commuter railroads required to implement PTC.
    \2\ GAO, Positive Train Control: Additional Oversight Needed As 
Most Railroads Do Not Expect to Meet 2015 Implementation Deadline, GAO-
15-739 (Washington, D.C.: Sept. 4, 2015), and GAO, Positive Train 
Control: Additional Authorities Could Benefit Implementation, GAO-13-
720 (Washington, D.C.: Aug. 16, 2013).
    \3\ GAO, Standards for Internal Control in the Federal Government, 
GAO-14-704G (Washington, D.C.: Sept. 2014).
---------------------------------------------------------------------------
    We met with relevant FRA officials involved in PTC monitoring, 
enforcement, and technical assistance including the PTC Staff Director, 
regional PTC specialists working in each of the FRA regions where 
commuter railroads selected for interviews operate, and members of the 
headquarters-based PTC Task Force. In addition, we met with FRA Office 
of Railroad Safety specialists and engineers, among others. We also 
interviewed representatives from all 7 of the Class I freight railroads 
(which are also required to implement PTC), 5 major PTC equipment 
suppliers and contractors identified by FRA, and representatives from 2 
railroad industry associations--the Association of American Railroads 
and the American Public Transportation Association--to obtain their 
perspectives on commuter railroads' implementation of PTC, factors 
affecting implementation progress, and FRA's PTC management and 
oversight.\4\
---------------------------------------------------------------------------
    \4\ Freight railroads are classified by operating revenues. Class I 
railroads are those carriers having annual carrier operating revenues 
of $467 million or more. We interviewed all 7 Class I railroads 
operating in the U.S.: BNSF Railway, CSX Corporation, Kansas City 
Southern, Norfolk Southern, Union Pacific, Canadian National, and 
Canadian Pacific. We met with the following PTC contractors and 
suppliers: Ansaldo-STS, Alstom, Parsons, Siemens, and Wabtec.
---------------------------------------------------------------------------
    To identify commuter railroads' progress in implementing PTC, we 
reviewed railroads' third quarter progress reports submitted to FRA for 
the period ending September 30, 2017.\5\ We reviewed the most recently 
available quarterly data outlining the 29 commuter railroads' 
installation and implementation progress in selected areas as of 
September 30, 2017, including: locomotive equipment installed, wayside 
equipment installed, employee training, locomotives fully equipped and 
PTC-operable, spectrum obtained, the status of field testing, and 
revenue service initiated. As necessary, we also reviewed the narrative 
fields in the quarterly reports for additional context related to a 
given railroad's implementation activities and the extent of progress 
made in specific implementation areas. We assessed the data in these 
reports by reviewing it for anomalies, outliers, or missing 
information, and reviewing supporting narratives to ensure they aligned 
with the reported data, among other things. Based on these steps, we 
determined that these data were sufficiently reliable for our purpose 
of describing railroads' progress implementing PTC. We also reviewed 
other sources of information, such as PTC Implementation Plans, 
railroads' 2016 annual progress reports, and interviews with railroad 
representatives.
---------------------------------------------------------------------------
    \5\ The quarterly reports describe commuter railroads' installation 
and implementation progress from July 1 to September 30, 2017, and were 
due to FRA on October 31, 2017. In two cases, the quarterly reports 
include data from both the tenant and host railroad.
---------------------------------------------------------------------------
    To assess progress on locomotive equipment installation and wayside 
equipment installation, we compared the quantities installed to the 
total quantities required for PTC implementation. Similarly, to assess 
progress on employee training, we compared the number of employees 
trained to the number of employees required to be trained for PTC 
implementation. To assess progress in fully equipping locomotives to be 
PTC-operable, we compared the quantity of locomotives that are fully 
equipped and PTC-operable to the quantity required for PTC 
implementation. To assess progress on obtaining spectrum, we reviewed 
the quarterly update on spectrum. We concluded that a railroad had 
obtained spectrum if, for one or more area or location, it reported 
that spectrum was either (1) acquired but not available for use or (2) 
acquired and available for use. We also reviewed the narrative, as 
appropriate. For some railroads, we concluded that spectrum was not 
applicable because they use a PTC system that does not require 
spectrum, or because their host railroad is responsible for obtaining 
spectrum. To assess progress on field testing, we reviewed the third 
quarter status on installation and track-segment progress. We concluded 
that a railroad initiated field testing if one or more of its segments 
were reported as (1) testing or (2) operational/complete. To determine 
which railroads initiated revenue service demonstration (RSD), we 
reviewed the cumulative territories where RSD had been initiated. If 
the railroad reported that one or more territories had initiated RSD, 
we concluded that RSD had been initiated.\6\
---------------------------------------------------------------------------
    \6\ For two railroads which used outdated quarterly report forms, 
we concluded that RSD was initiated if one or more route miles were in 
testing or revenue service demonstration.
---------------------------------------------------------------------------
    Finally, to determine which railroads anticipate completing 
implementation before the December 31, 2018 deadline and which plan to 
seek any RSD-based extension, we obtained information from all 29 
commuter railroads to identify which railroads plan to implement PTC by 
the 2018 deadline and which plan to submit an alternative schedule 
(that is, a request for an extension) to implement PTC after the 
December 31, 2018 deadline.
    To identify commuter railroads at risk of meeting neither the PTC 
deadline nor any RSD-based extension criteria, we first reviewed data 
on railroads' progress installing PTC locomotive and wayside equipment. 
We did this because FRA used such installation progress to identify 14 
commuter railroads as being at risk and notified them via formal letter 
in May 2017.\7\ To confirm FRA's identification of commuter railroads 
that would be at risk based on an updated benchmark for the third 
quarter of 2017--railroads with less than 65 percent of total hardware 
installed--we analyzed railroads' reported locomotive and wayside 
equipment installation status as of September 30, 2017 to determine the 
percentage of total hardware installed for each commuter railroad.
---------------------------------------------------------------------------
    \7\ FRA identified 14 commuter railroads that, as of December 31, 
2016, had installed less than 50 percent of all PTC system hardware 
required for the railroads' PTC system, as specified in its revised PTC 
Implementation Plan.
---------------------------------------------------------------------------
    To build on this analysis, we collected information from all 29 
commuter railroads on their actual and planned schedules for key 
implementation milestones. For the 19 commuter railroads we met with, 
we collected this information as part of our interviews, and for the 
remaining 10 commuter railroads, we collected this information by e-
mail using a standard data collection instrument. The key 
implementation milestones covered procuring a prime contractor for PTC 
implementation; applying for and entering field testing and RSD, which 
is the final phase of field testing; installing the back office server 
(BOS) and associated software; and completing PTC implementation. This 
schedule information was collected between September 2017 and January 
2018.
    We compared the amount of time commuter railroads' planned for 
completing two key milestones to the amount of time that FRA officials 
estimate is required for each milestone and to the experiences of 
railroads that already initiated RSD. The two milestones are as 
follows:

  <bullet> Install the BOS and associated software necessary to connect 
        and interface with wayside, locomotive, and dispatch equipment.

  <bullet> Conduct field testing of installed infrastructure, which is 
        an initial assessment of the PTC system's overall functionality 
        on trains that are not transporting passengers or operating 
        during regular passenger service.

    We selected these two milestones because (1) each milestone follows 
equipment installation (which FRA had previously analyzed to assess 
commuter railroads PTC implementation progress); (2) a railroad must 
complete both to enter RSD; and (3) several interviewees, including PTC 
contractors and suppliers and FRA officials, said these activities are 
important project milestones that are complex and time consuming. We 
calculated the amount of time a commuter railroad planned for each 
milestone (with initiating RSD as the endpoint for each milestone), and 
compared that amount of time to two benchmarks:\8\ first, the 
anticipated length of time FRA officials said that the milestones have 
taken or may take, and second, the average amount of time (in months) 
that each milestone took the six commuter railroads that had started 
RSD as of September 2017. Since we used two benchmarks, we present a 
range of railroads that may not have sufficient time to complete these 
milestones and thus may be at risk of not meeting the 2018 deadline or 
qualifying for an RSD-based extension.\9\
---------------------------------------------------------------------------
    \8\ We assessed all commuter railroads against these milestones, 
regardless of whether a railroad planned to seek an extension. 
Railroads that do not plan to seek an extension have said that they 
will conduct RSD as the final step of required field testing, making it 
a meaningful milestone, and railroads that do plan to seek an extension 
must by statute either initiate RSD on at least one territory or meet 
any other alternative criteria established by FRA. While these 
alternative criteria are not required to be based on RSD, we used RSD 
as a benchmark for our analysis based FRA's three ``alternative 
criteria'' approvals to date; all of which have used RSD-based criteria 
(RSD testing on a segment of track versus RSD testing on an entire 
territory). According to an FRA official, it approved these three 
extensions because they were based on alternative, specific, and 
quantifiable measures which happened to be RSD but could have been 
other specific, quantifiable measures.
    \9\ Two commuter railroads were seeking waivers or exemptions for 
PTC, and neither railroad was able to share planned schedule 
information for the milestones. Therefore, we included these two 
railroads in our count of railroads that may be at risk for both 
milestones, as FRA had not yet decided whether to approve either 
railroad's request. In addition, two other commuter railroads that 
operate only as tenants on other railroads' tracks were using the host 
railroads BOS. Since these railroads lacked a date for installing a 
BOS, we could not calculate the amount of time each planned for this 
milestone. One of these railroads is operating PTC in RSD, so we did 
not categorize it as at risk. The other railroad had begun functional 
testing, so we categorized this railroad as at risk based for the more 
stringent comparison.
---------------------------------------------------------------------------
                      Appendix II: Agency Comments
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Ms. Fleming.
    Mr. DeWeese.

         STATEMENT OF HON. BARRY J. DeWEESE, ASSISTANT

       INSPECTOR GENERAL, SURFACE TRANSPORTATION AUDITS,

               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. DeWeese. Chairman Thune, Ranking Member Nelson, and 
members of the Committee, thank you for inviting me to this 
important hearing on positive train control, or PTC.
    Several fatal rail crashes over the past decade have 
heightened the need to implement PTC, one of the most complex 
and costly safety mandates that the rail industry has 
undertaken. The current deadline Congress has set for full 
implementation is at the end of this year.
    At this Committee's request, we are currently reviewing 
Federal funding support for PTC and DOT's oversight of that 
support. We plan to issue our full report this spring. And 
today I will share observations on three aspects of our ongoing 
review: one, the amount of Federal financial assistance for PTC 
projects; two, DOT's oversight of Federal funds invested in 
such projects; and, three, key funding challenges and concerns 
as the rail industry implements PTC.
    DOT has provided $2.9 billion to date for PTC 
implementation through a combination of grants and loans. As of 
September 30, 2017, $2.3 billion has been obligated. Rail 
systems can receive support from multiple sources, and at the 
time of our review, 29 rail systems have received Federal 
assistance.
    Our work also shows that PTC projects vary greatly, 
depending on railroad type and recipients' needs. For example, 
some recipients use their Federal funding to acquire wireless 
communications equipment, while others buy onboard equipment 
for locomotives. DOT's oversight of PTC funding varies as well, 
depending on the type of funding or financial support.
    Each DOT organization follows its existing oversight 
mechanisms for grants or loans. In the case of formula grants, 
the grantee has substantial discretion and flexibility on the 
use of funds. Regardless of oversight method, DOT cannot 
readily identify funding support or spending for PTC projects. 
Some PTC funding may be part of a larger grant, in those cases, 
recipients may not be required to capture or report PTC-
specific spending to DOT. This makes it hard to determine which 
projects include PTC elements.
    DOT's grant management systems also generally track 
spending by broader budget codes, making it difficult to see 
what portion of Federal awards went to PTC versus non-PTC 
projects. Therefore, DOT currently relies, as did we, on the 
recipients to provide more accurate information on PTC funds 
when requested. Their financial systems typically captured more 
detailed data on spending and budget line items.
    Finally, we noted several funding challenges and concerns 
as railroads deploy PTC. While the extended deadline for 
implementation is fast approaching, not all of the funds 
obligated have been spent. Only four recipients have actually 
spent all of their provided funds, seven reported no 
expenditures at the time of our review, and the rest reported 
spending in the 50 to 75 percent range.
    It is important to note, however, that PTC funding support 
was provided at different points in time over the last decade, 
making it challenging to compare spending across various rail 
systems or to determine if the pace of spending has slowed 
implementation.
    In looking to the future, some recipients express concern 
about what it will cost to operate and maintain PTC systems 
once they are in place and how it will impact other safety 
priorities or their operational budgets. In 2016, the American 
Public Transportation Association estimated that operation and 
maintenance costs would run about $100 million a year for 
commuter railroads, but that long-term costs are still 
uncertain.
    A key watch item for DOT, Congress, and industry will be to 
instill a sense of urgency to deliver PTC while limiting any 
possible negative effects on the overall safety of the system. 
We are committed to working with the Department and this 
Committee to monitor the funding implications that could impact 
the deployment of PTC.
    This concludes my prepared statement. I would be happy to 
address any questions from you or members of the Committee.
    [The prepared statement of Mr. DeWeese follows:]

Prepared Statement of Barry J. DeWeese, Assistant Inspector General for 
    Surface Transportation Audits, U.S. Department of Transportation
  Observations on Federal Funding Support for Positive Train Control 
                             Implementation
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee:

    Thank you for inviting me to this important hearing on positive 
train control (PTC) implementation. We are all here today in the 
interest of advancing safety to protect the traveling public. Over the 
last decade, several fatal rail incidents led the U.S. rail industry 
and congressional leaders to commit to implementing PTC on railways 
nationwide. In 2008, Congress enacted this requirement and set a 
deadline of December 31, 2015, through the Rail Safety Improvement Act 
(RSIA),\1\ after a devastating crash between a commuter train and 
freight train. Since that time, implementing PTC has been a priority 
for industry and the Department of Transportation (DOT). Recent 
accidents, such as the December 2017 derailment in Washington State 
that resulted in 3 deaths and more than 60 injuries, have renewed 
attention on this important issue and highlighted the difficulties in 
carrying out this critical mandate by congressional deadlines.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 110-432 (2008).
---------------------------------------------------------------------------
    Citing funding and technical challenges, the industry did not meet 
the 2015 deadline, and Congress extended it by 3 years with the 
possibility of an additional 2-year extension if a railroad meets the 
statutory criteria set forth in the Positive Train Control Enforcement 
and Implementation Act of 2015.\2\ Since the enactment of the RSIA, DOT 
has been tasked with overseeing funding support for PTC implementation, 
including grants and loans.
---------------------------------------------------------------------------
    \2\ 49 U.S. Code Sec. 20157.
---------------------------------------------------------------------------
    My testimony today is based on our ongoing work, conducted at the 
request of this Committee, regarding Federal funding for PTC and the 
Department's oversight of those funds and other financial support. 
Specifically, my statement will provide our observations and 
information to date on (1) the amount of Federal financial assistance 
for PTC implementation and the types of projects, (2) the Department's 
oversight of the Federal funds invested in PTC projects, and (3) key 
funding challenges and concerns as rail systems implement PTC. We plan 
to complete our audit work and issue to this committee our final report 
with the agencies' responses in April 2018.
Summary
    To reduce the number of rail crashes caused by human error, the 
U.S. rail industry and Congress are working to implement PTC systems, 
and DOT has provided $2.9 billion to date to implement PTC. However, 
$2.3 billion had been obligated as of September 30, 2017, which was the 
focus of our work since this was the actual amount available to 
recipients for expenditure. PTC is an advanced communication-based 
technology designed to prevent certain accidents caused by human error, 
including train-to-train collisions and derailments caused by exceeding 
safe speeds. However, PTC projects vary greatly based on the type of 
railroad, the need for interoperability, and available communication 
systems. The Department's financial oversight also varies, based on 
funding sources and other factors, with each organization following its 
own established oversight mechanisms. Our ongoing review has noted that 
the Department's financial and grant management systems do not always 
provide the detail necessary to identify PTC-specific costs. Instead 
DOT relies on the rail systems to provide accurate information. We are 
also finding that only a few funding recipients have used all of their 
PTC funds despite the approaching mandate. Some funding recipients are 
concerned about potential shortfalls in funding to operate and maintain 
PTC, which could result in funds being shifted from other safety 
priorities. These will be key watch items for the Department and 
Congress--as rail systems move forward with PTC implementation--to 
maintain a sense of urgency and ensure that there are no negative 
effects on the safety of the system despite the improvements that PTC 
can deliver.
Background
    Since the 2008 fatal rail crash that led to the enactment of the 
RSIA, several other fatal rail incidents have strengthened the 
Department's commitment to implementing PTC nationwide (see table 1).

              Table 1. Examples of PTC-Preventable Crashes
------------------------------------------------------------------------
      Date              Location                    Incident
------------------------------------------------------------------------
September 2008    Chatsworth, CA       A distracted engineer ran a
                                        Metrolink train through a red
                                        signal, causing a collision that
                                        killed 25 and injured 135.
May 2011          Mineral Springs, NC  Human error contributed to the
                                        rear-end collision of two
                                        freight trains, killing two crew
                                        members and injuring two more
June 2012         Near Goodwell, OK    Human inattentiveness contributed
                                        to the collision of two freight
                                        trains, killing three crew
                                        members.
December 2013     Bronx, NY            An engineer fell asleep and
                                        caused a Metro-North passenger
                                        train derailment that killed 4
                                        and injured 61.
May 2015          Philadelphia, PA     A distracted engineer accelerated
                                        into a sharp curve, causing an
                                        Amtrak derailment that killed 8
                                        and injured 185.
December 2017     Near DuPont, WA      A derailment caused 3 deaths and
                                        over 60 injuries. The National
                                        Transportation Safety Board's
                                        investigation is expected to
                                        last 12 to 24 months.
------------------------------------------------------------------------
Source: OIG

    The RSIA required Class I railroad main lines handling poisonous-
inhalation-hazard materials and any railroad main lines with regularly 
scheduled intercity and commuter rail passenger service to fully 
implement PTC.\3\ A fully functioning PTC system must be able to 
precisely determine the location and speed of trains, warn train 
operators about potential problems, and take action if the operator 
does not respond to a warning. A PTC system is made up of more than 20 
major components in various stages of development, which must then be 
integrated and installed across the rail network.
---------------------------------------------------------------------------
    \3\ The RSIA defines main lines as those carrying 5 million or more 
gross tons of freight annually and authorizes the Federal Railroad 
Administration (FRA) to define the term ``mainline'' by regulation for 
passenger routes or segments over which limited or no freight railroad 
operations occur.
---------------------------------------------------------------------------
    The Federal Railroad Administration (FRA) identified rail systems 
\4\ as subject to congressional requirements for PTC implementation. 
Subsequently, eight of these rail systems were granted a waiver from 
the PTC statutory mandate, related to overarching FRA regulations for 
safety rule waivers.\5\ Of the 41 rail systems still required to 
implement PTC, per the statutory mandate, 25 are receiving Federal 
financial support. Four others have chosen to implement PTC and also 
receive Federal assistance--either because the rail system's future 
operations will be subject to the statutory mandate or because the rail 
system is a tenant railroad that operates on a track segment already 
required to have PTC. By the end of Fiscal Year 2017, 29 rail systems 
had received financial support from such sources as FRA, the Federal 
Transit Administration (FTA), and the Build America Bureau (BAB).\6\
---------------------------------------------------------------------------
    \4\ For the purpose of our review, we refer to all direct 
recipients of PTC funding as ``funding recipients'' and ``rail 
systems,'' whether railroads, commuter rail, etc.
    \5\ As implemented by 49 CFR 236.1019.
    \6\ The enactment of the FAST Act led to the July 2016 creation of 
BAB to oversee various grant and credit programs administered by the 
Department. BAB is responsible monitoring and reviewing the Railroad 
Rehabilitation and Improvement Financing (RRIF), Transportation 
Infrastructure Finance and Innovation Act (TIFIA), and Private Activity 
Bonds (PAB) programs as well as the recently enacted Infrastructure for 
Rebuilding America (INFRA) grant program.
---------------------------------------------------------------------------
DOT Provided $2.9 Billion for PTC Projects, With Nearly $2.3 Billion 
        Obligated by End of Fiscal Year 2017
    As of the end of Fiscal Year 2017,\7\ approximately 60 percent of 
the U.S. rail systems required to implement PTC are receiving financial 
support. Specifically, 29 rail systems have received Federal 
assistance. According to estimates provided to us by the funding 
recipients, DOT has provided $2.9 billion to date to implement PTC. 
However, $2.3 billion had been obligated as of September 30, 2017, 
which was the focus of our work since this was the actual amount 
available to recipients for expenditure. Of this amount, the Department 
has obligated $1.3 billion through various Federal grants, and the BAB 
issued approximately $1 billion through a loan (see exhibit A). Funding 
recipients rely on various departmental funding programs to support PTC 
work, such as formula grants, discretionary grants, and loans.\8\
---------------------------------------------------------------------------
    \7\ As requested, we reviewed DOT's funding and financing for 
implementation of PTC since 2008. For timely reporting purposes, the 
scope of this review includes funding that had been obligated by 
September 30, 2017 (end of Fiscal Year 2017).
    \8\ Formula grant programs are noncompetitive awards based on a 
predetermined formula. Unlike a formula grant, a discretionary grant 
awards funds on the basis of a competitive process. The Department 
reviews applications, in part through a formal review process, in light 
of the legislative and regulatory requirements and published selection 
criteria established for a program. Additionally, the Department is 
authorized to provide credit assistance, direct loans and loan 
guarantees to finance development of railroad infrastructure.
---------------------------------------------------------------------------
    Federal funding grants ranged widely, depending on size of the rail 
system, the quantity and scope of projects, or the amount of funding 
requested. For example,

  <bullet> Providence and Worcester Railroad received just under $1 
        million for a single project to purchase and equip locomotives 
        with on-board kits.

  <bullet> Southeastern Pennsylvania Transportation Authority received 
        approximately $181 million for a total of seven projects that 
        included installing signals, interlocking, and right-of-way 
        improvements throughout multiple rail lines.

    On average, those using Federal funding grants received $36.1 
million. In addition, two rail systems secured financial loans from the 
Department--approximately $967 million went to the New York 
Metropolitan Transportation Authority and, subsequent to the data 
collection portion of our review, Massachusetts Bay Transportation 
Authority borrowed $382 million.\9\
---------------------------------------------------------------------------
    \9\ On December 8, 2017, BAB issued two loans to the Massachusetts 
Bay Transportation Authority. One was a RRIF loan for $220 million, and 
the other was a TIFIA loan for $162 million, for a total of $382 
million.
---------------------------------------------------------------------------
    A rail system can receive Federal support from multiple sources, 
whether as a direct recipient or through another grantee. Some 
railroads, such as Amtrak, receive funds both directly and indirectly. 
At the end of Fiscal Year 2017, the 29 rail systems mentioned above had 
received Federal assistance from 37 different funding recipients. 
Nineteen received funding from FRA, 25 from FTA, 7 from both FRA and 
FTA, and 1 was funded through a loan from BAB.\10\
---------------------------------------------------------------------------
    \10\ This was the loan to the New York Metropolitan Transportation 
Authority discussed above.
---------------------------------------------------------------------------
    Rail systems were at different points of implementation when they 
applied for Federal funding and may have used State or local money to 
pay for some PTC-related projects. Projects vary greatly based on the 
type of railroad, the need for interoperability,\11\ and available 
communication systems. For example, some funding recipients may seek to 
acquire wireless communications equipment, while others have obtained 
financial assistance to purchase onboard equipment for locomotives. The 
California High-Speed Train System is using awarded funds to produce a 
detailed design development plan for implementing PTC in the Caltrain 
corridor, which connects San Francisco and San Jose; the plan includes 
identifying the necessary interoperable interfaces. The Nashville 
Regional Transportation Authority received funding to cover its PTC-
related costs on the Music City Moves commuter rail line that operates 
on the Nashville & Eastern Railroad. The two organizations have 
established an agreement concerning their shared responsibilities 
through September 2036.\12\
---------------------------------------------------------------------------
    \11\ Commuter railroads often run on tracks owned by Class I 
freight railroads, as well as freights on commuter-owned track. All 
tenant railroads equipped with PTC must be interoperable with the PTC 
system installed by the host railroad.
    \12\ We plan to issue our final report in April 2018; it will 
include a description of all 54 PTC projects nationwide using Federal 
funding support.
---------------------------------------------------------------------------
DOT's Oversight of Financial Support for PTC Varies
    DOT's oversight of Federal support for PTC implementation is 
generally dictated by the type of funding program, which is typical for 
all projects supported by the Department (see table 2 below for a list 
of grants, loans, and programs that support PTC implementation). Each 
DOT organization follows its own established oversight mechanisms for 
grant or loan procurement activities. These include a combination of 
recurring reviews of financial reports; regular phone calls, meetings, 
and e-mails with funding recipients; and onsite monitoring visits. In 
addition, BAB monitors financial plans and reviews credit worthiness 
throughout the span of a project to minimize the Federal Government's 
risk.
    While DOT relies on various oversight methods, those methods cannot 
readily identify the funding support or the PTC projects on which the 
funds were spent. With the exception of projects funded by the PTC-
specific grant programs authorized by the Fixing America's Surface 
Transportation Act,\13\ DOT-awarded funds may support more than one 
project or other activities in addition to PTC. Consequently, when PTC 
is a component of a larger grant or loan, funding recipients may not be 
required to capture or report PTC-specific expenditures to the 
Department. This would be the case, for example, with Federal formula 
funding, which is apportioned to States based on population and not 
subject to DOT's discretion.
---------------------------------------------------------------------------
    \13\ Pub. Law No. 114-94 (2015).
---------------------------------------------------------------------------
    In addition, the Department's financial and grant management 
systems do not always provide the granularity necessary to precisely 
identify PTC costs. For example, grant management systems generally 
track expenditures by broader budget codes like ``signals,'' which may 
include signaling for PTC and non-PTC projects. As a result, it is 
difficult for FRA and FTA to extract PTC-specific spending from Federal 
awards for other types of activities, and the two agencies must rely on 
the rail systems to provide more accurate and detailed information. We 
obtained estimates from FRA and FTA on how much funding has been used 
for PTC but found that either the grantees had provided the information 
or the agencies' estimates were incorrect.
    Officials at the rail systems confirmed that they have more 
detailed information about expenditures and provided the information 
used in our review. More specifically, we found that the grantees' 
financial systems generally capture more data than DOT's grant 
management systems regarding expenditures and budget line items, which 
may include funding from local, State, and Federal entities. Each 
funding recipient uses its own financial tracking mechanisms to 
document all of its grants and issue reports to DOT agencies. These 
mechanisms range from internal controls for price and cost analyses to 
accounting software for tracking budgets, expenditures, and work 
progress.

Table 2. Grants, Loans, and Programs That Have Funded PTC Implementation
------------------------------------------------------------------------
Funding or Financial Assistance
            Program               Oversight  Agency     Legal Citation
------------------------------------------------------------------------
8American Recovery and           FRA                 Pub. L. 111-50
 Reinvestment Act of 2009
------------------------------------------------------------------------
Amtrak National Network Grant    FRA                 49 U.S.C. Sec.
                                                      24319
------------------------------------------------------------------------
8Fixed Guideway Modernization    FTA                 49 U.S.C. 53090
------------------------------------------------------------------------
FTA Revenue Bond                 FTA                 Sec.  3011 of Pub.
                                                      L. 105-178
------------------------------------------------------------------------
8High-Speed Intercity Passenger  FRA                 Div. B, Pub. L. 110-
 Rail Grant                                           4320
------------------------------------------------------------------------
New Starts                       FTA                 49 U.S.C. 5309
------------------------------------------------------------------------
8PTC Implementation Grant        FTA                 Sec.  3028 of FAST
                                                      Act,
                                                     Pub. L, 114-940
------------------------------------------------------------------------
Railroad Rehabilitation &        BAB                 45 U.S.C. 822
 Improvement Financing (RRIF)
 Loan
------------------------------------------------------------------------
8Railroad Safety Technology      FRA                 49 U.S.C. 201580
 Grant
------------------------------------------------------------------------
Research and Development Grant   FRA                 Pub. L. 115-31 and
                                                      previous
                                                      appropriations
                                                      acts
------------------------------------------------------------------------
8State of Good Repair Formula    FTA                 49 U.S.C. 53370
 Grant
------------------------------------------------------------------------
Transportation Infrastructure    BAB                 Sec.  2001 of FAST
 Finance and Innovation Act                           Act,
 (TIFIA) Loan                                        Pub. L, 114-94
------------------------------------------------------------------------
8Transportation Investment       FTA                 Pub. L. 115-31 and
 Generating Economic Recovery                         previous
 (TIGER) Grant                                        appropriations
                                                      acts0
------------------------------------------------------------------------
Urbanized Area Formula--         FTA                 49 U.S.C. 5307
 Economic Recovery
------------------------------------------------------------------------
8Urbanized Area Formula Grant    FTA                 49 U.S.C. 53070
------------------------------------------------------------------------
Source: OIG

Funding Recipients Are Concerned About Funding Shortfalls and Delays
    While approximately $2.3 billion has been provided for PTC 
projects, only 4 of 37 funding recipients have completely expended 
their Federal funds--and the extended deadline for PTC implementation 
is approaching at the end of this year. More than half of the 
recipients reported spending over 50 percent of their funds, and about 
40 percent reported spending over 75 percent.
    It is important to note that funding and financial assistance was 
made available at various points over the last decade, which makes it 
challenging to compare spending at rail systems. For example, FRA's 
Railroad Safety Technology Grants provided funds specifically for PTC 
implementation--$50 million in Fiscal Year 2010, $11 million in Fiscal 
Year 2015, and $25 million in Fiscal Year 2016. However, our analysis 
noted that nearly $15 million of the $25 million awarded in August 2016 
had not been obligated to the grantees.\14\ Similarly, out of the $197 
million authorized for PTC implementation under the FAST Act, 
approximately $190 million had not been obligated to the grantees, even 
though award selections were announced last May. Since grantees have 
yet to receive these dollars, we excluded unobligated grant awards from 
our analysis of Federal funds provided to rail systems for PTC 
implementation. Exhibit B provides the status of individual awards for 
the Fiscal Year 2016 Rail Safety Technology and Fiscal Year 2017 FAST 
Act grant programs.
---------------------------------------------------------------------------
    \14\ The scope of this review includes funding obligated by 
September 30, 2017 (the end of Fiscal Year 2017).
---------------------------------------------------------------------------
    In addition, some funding recipients are concerned about future 
shortfalls and delays in grant funding to support PTC, which could 
result in funds being shifted from other projects. Most funding 
recipients stated general concerns about budgeting for PTC 
implementation, which has led some to divert funds from other safety 
priorities. Of the funding recipients we surveyed, 12 of 34 respondents 
said PTC implementation was having a negative effect on other funding 
priorities or general rail service. One recipient pointed out that the 
$15.8 million in PTC-specific grants it received was minimal compared 
to the $310 million in Federal and State funds it had to divert to 
implement PTC, which delayed investment in state-of-good-repair 
projects elsewhere in the system. According to the recipient, these 
challenges reduced capital funds to a 15-year low.
    Other funding recipients expressed concerns about the uncertainty 
of ongoing operating and maintenance costs after PTC implementation and 
how that will affect their operational budgets. In 2016 the American 
Public Transportation Association estimated the operation and 
maintenance of PTC would cost commuter railroads about $100 million a 
year and stated that many rail systems were still uncertain about the 
magnitude of future long-term costs. Officials at FRA and FTA said they 
are aware of this concern, but they too are not sure whether additional 
funding will be allocated to support ongoing operational and 
maintenance costs after full PTC implementation.
Conclusion
    PTC is one of the most complex and costly safety mandates ever 
undertaken by the railroad industry. Recent accidents, although rare, 
remind us that they can and do occur and have a profound impact on 
lives and communities. While the U.S. rail industry and Congress are 
committed to implementing PTC nationwide, progress has been slower than 
anticipated, and ensuring that the rail industry has a sense of urgency 
will be a key watch item for the Department. Given the potential impact 
on safety projects throughout the Nation's rail systems, the Department 
must also be mindful of industry concerns that the costs of operating 
and maintaining the PTC system, once implemented, could crowd out other 
safety-critical projects. We are committed to working with DOT and this 
Committee to monitor the funding implications that could impact 
railroads' deployment of PTC and expect to issue our final report in 
April 2018.
    This concludes my prepared statement. I will be happy to answer any 
questions you or other Committee Members may have.
                                 ______
                                 
Exhibit A. Estimates of Federal Funding and Financing Obligated for PTC 
                    Implementation by End of FY 2017

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                  Estimated Total                                                             % Federal
                                     Funding Recipients             Cost of PTC         FTA Funds          FRA Funds        Total  Federal      Funds
                                                                   Implementation                                               Funds          Expended
--------------------------------------------------------------------------------------------------------------------------------------------------------
1                           Connecticut DOT                           $180,000,000       $144,055,237         $3,836,100       $147,891,337        17.5%
2                           Maryland DOT                               $30,458,627         $9,476,056           $642,445        $10,118,501        77.0%
3                           New York DOT                               $54,214,286                $--         $3,000,000         $3,000,000         0.0%
4                           New York Metropolitan                   $1,063,000,000        $90,236,669         $6,597,000        $96,832,669        88.5%
                             Transportation Authority
5                           Pennsylvania DOT                                   $--         $7,034,353         $1,350,000         $8,384,353        50.4%
6                           Southern California Regional Rail         $240,365,079        $19,168,366         $9,005,446        $28,173,813        92.5%
                             Authority
7                           Amtrak                                    $232,800,000                $--       $187,820,938       $187,820,938        94.5%
8                           California DOT                             $12,810,000                $--        $38,400,000        $38,400,000        86.1%
9                           California High-Speed Rail                 $20,000,000                $--        $16,000,000        $16,000,000        99.0%
                             Authority
10                          Fort Worth & Western Railroad               $3,648,496                $--         $2,538,768         $2,538,767        20.0%
11                          Illinois DOT                               $88,000,000                $--        $72,387,079        $72,387,079        93.2%
12                          Michigan DOT                              $168,965,682                $--       $152,772,015       $152,772,015       100.0%
13                          Missouri DOT                               $60,000,000                $--         $3,000,000         $3,000,000         0.0%
14                          Providence & Worcester Railroad Co.         $1,300,000                $--           $965,832           $965,832         0.0%
15                          Kansas City Southern (KCS) Railway        $300,000,000                $--         $1,867,449         $1,867,449        73.3%
                             Company, MO*
16                          Twin Cities & Western Railroad              $5,065,000                $--         $1,100,550         $1,100,550         0.0%
                             Company
17                          Washington State DOT                        $7,909,170                $--         $6,382,182         $6,382,182       100.0%
18                          Alaska Railroad Corporation               $171,100,000        $77,211,524           $735,000        $77,946,524        89.5%
19                          Dallas Area Rapid Transit (DART)           $44,500,000        $12,500,000                $--        $12,500,000         0.0%
20                          Denton County Transportation               $20,000,000        $13,588,430                $--        $13,588,430        68.7%
                             Authority
21                          Florida DOT (SFRTA)                        $73,500,000         $6,725,482                $--         $6,725,482         7.5%
22                          Fort Worth Transportation Authority                $--        $17,000,000                $--        $17,000,000         0.0%
23                          Massachusetts Bay Transportation          $492,028,418         $2,560,000                $--        $ 2,560,000        74.0%
                             Authority
24                          Metra--Northeast Illinois Regional        $385,879,609       $155,948,676                $--       $155,948,676        60.7%
                             Commuter Railroad Corporation
25                          Minnesota DOT (Met Council)                 $4,400,000         $4,219,303                $--         $4,219,303        72.9%
26                          Nashville Regional Transportation          $25,000,000         $2,425,445                $--         $2,425,445         0.7%
                             Authority (RTA)
27                          Northern Indiana Commuter                 $117,767,416        $11,073,177                $--        $11,073,177        75.5%
                             Transportation District (NICTD)
28                          North County Transit District              $87,292,969         $7,668,038                $--         $7,668,038        87.5%
29                          Orange County Transportation                       $--         $4,147,427                $--         $4,147,427        57.9%
                             Authority
30                          Peninsula Corridor Joint Powers           $231,000,000        $27,433,269         $1,250,000        $28,683,269        96.5%
                             Board
31                          Prince William County/Potomac and          $14,192,000         $8,442,714                $--         $8,442,714        68.7%
                             Rappahannock Transportation
                             Commission
32                          Regional Transportation District           $22,682,612         $5,512,543                $--         $5,512,543       100.0%
                             (RTD)
33                          Riverside County Transportation             $5,100,000         $2,095,447                $--         $2,095,447       100.0%
                             Commission
34                          San Joaquin Regional Rail                   $9,000,000         $6,400,868                $--         $6,400,868          52%
                             Commission (SJRRC)
35                          Southeastern Pennsylvania                 $310,000,000       $187,271,060                $--       $187,271,060        95.6%
                             Transportation Authority (SEPTA)
36                          Tri-County Metropolitan                    $14,000,000         $2,704,000                $--         $2,704,000         0.0%
                             Transportation District of Oregon
                             (TriMet)
37                          Utah Transit Authority (UTA)               $31,158,524         $3,520,000                $--         $3,520,000         0.0%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Grant Funding Totals                                                $4,527,137,888       $822,618,085       $509,653,804     $1,332,271,888       76.45%
Grant Funding Totals, Without KCS                                   $4,227,137,888       $822,618,085       $507,786,355     $1,330,404,439       76.46%
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                       USDOT Loans Issued for PTC-Related Projects
--------------------------------------------------------------------------------------------------------------------------------------------------------
                            New York Metropolitan                                                           $967,100,000       $967,100,000        15.1%
                             Transportation Authority                                                             (RRIF)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                            Massachusetts Bay Transportation                            $162,000,000        $220,000,000       $382,000,000         0%**
                             Authority                                                        (TIFIA)             (RRIF)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                      Total with MTA Loan                           $4,527,137,888       $822,618,085     $1,476,753,803     $2,299,371,888       50.67%
--------------------------------------------------------------------------------------------------------------------------------------------------------
                  Total, Including Both Loans                       $4,527,137,888       $984,618,084     $1,696,753,803     $2,681,371,888       43.45%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total, Including Both Loans but Without KCS                         $4,227,137,888       $984,618,084     $1,694,886,355     $2,679,504,439          43%
--------------------------------------------------------------------------------------------------------------------------------------------------------
* Kansas City Southern is a Class I railroad that indicated it had received funding to enhance wireless communications capabilities in preparation for
  PTC implementation, including a conversion from their analog system to a digital communications system.
** The TIFIA and RRIF loans to the Massachusetts Bay Transportation Authority were issued after the end of Fiscal Year 2017 and are therefore outside
  the scope of our review. We provide these details to acknowledge that additional financing was issued.
* Source: OIG analysis of information provided by PTC funding recipients. Note: $- as an implementation cost indicates an entity that received funds on
  behalf of a railroad operating within that State; e.g., Pennsylvania DOT does not own or operate its own railroad, but it received a grant from FTA
  that was used for SEPTA's system. Entities whose implementation costs were less than the total funds received partially funded other rail projects;
  e.g., California DOT provided funds to North County Transit District for Metrolink. Additionally, OIG noted several grants that were in process but
  not awarded by the end of Fiscal Year 2017. For example, Capital Metro is in the process of being awarded $12,762,969 for PTC implementation, and New
  Jersey Transit expects to receive an award of $10 million.

          Exhibit B. Examples of PTC Grants Pending Obligation
    During our analysis of FTA and FRA grant funding, we noted that a 
number of recent PTC-specific grants had been announced but were not 
documented in DOT's grant management systems. These grants had not yet 
been officially obligated and were technically still in the award 
process. We analyzed the status for grants in the two most recent 
announcements for PTC-specific funding, Fiscal Year 2016 FRA Railroad 
Technology Grants and Fiscal Year 2017 PTC Implementation Grants (see 
tables B1 and B2). FTA and FRA explained that once allocations for 
grants are made, the grantee must complete application requirements, 
including those for environmental and program review at the agency. 
Only when that work is completed can the grant be officially obligated. 
The DOT agencies stressed that most grants are eligible for pre-award 
authority, allowing pre-award expenditures on approved programs to be 
reimbursed after the funds are obligated. However, it is important to 
note that we did not include unobligated grants in our analysis since 
grantees have yet to fully receive the funding.

                        Table B1. Status of FY 2016 Railroad Technology Grant Recipients
----------------------------------------------------------------------------------------------------------------
                                    Grantee                          State   Grant Allocation        Status
----------------------------------------------------------------------------------------------------------------
      1      American Short Line and Regional R.R. Association          DC         $2,500,000      Not Obligated
      2      Amtrak                                                     DC         $2,640,000      Not Obligated
      3      Caltrain                                                   CA         $2,880,000      Not Obligated
      4      Capital Metropolitan Transportation Auth.                  TX         $3,000,000      Not Obligated
      5      Fort Worth and Western Railroad                            TX         $2,560,000          Obligated
      6      Missouri DOT                                               MO         $3,000,000          Obligated
      7      North Carolina DOT                                         NC           $771,070      Not Obligated
      8      Providence and Worcester Railroad Co.                      MA           $965,832          Obligated
      9      Metrolink                                                  CA         $2,400,000          Obligated
     10      Sonoma-Marin Area Rail Transit/SMART                       CA         $3,000,000      Not Obligated
     11      Twin Cities and Western Railroad Co.                       MN         $1,100,000          Obligated
----------------------------------------------------------------------------------------------------------------
                                                                                  $24,816,902        $14,791,070
                                                                                    Allocated      Not Obligated
----------------------------------------------------------------------------------------------------------------
Source: OIG


                           Table B2. Status of FY 2017 FAST Act PTC Funding Recipients
----------------------------------------------------------------------------------------------------------------
                                    Grantee                          State   Grant Allocation        Status
----------------------------------------------------------------------------------------------------------------
      1      Capital Metropolitan Transportation Authority              TX         $9,760,000      Not Obligated
      2      Florida DOT                                                FL         $1,840,000      Not Obligated
      3      Illinois DOT                                               IL        $18,870,000      Not Obligated
      4      Mass. Bay Transportation Authority                         MA         $7,820,000      Not Obligated
      5      Maryland Transportation Authority                          MD         $9,440,000      Not Obligated
      6      Missouri DOT                                               MO        $12,020,000      Not Obligated
      7      New Jersey Transit                                         NJ        $10,000,000      Not Obligated
      8      New York State DOT                                         NY        $33,750,000      Not Obligated
      9      Oregon DOT                                                 OR         $1,200,000      Not Obligated
     10      Peninsula Corridor Joint Powers Board                      CA        $21,680,000      Not Obligated
     11      Regional Transportation Authority/Metra                    IL        $20,200,000      Not Obligated
     12      Rio Metro Transportation Authority                         NM         $3,600,000      Not Obligated
     13      South Florida Regional Transportation Authority            FL        $31,630,000      Not Obligated
     14      Southeastern Pennsylvania Transportation Authority         PA         $5,800,000      Not Obligated
     15      Southern California Regional Rail Authority                CA         $3,200,000      Not Obligated
     16      Tri-County Metropolitan District of Oregon                 OR         $2,700,000          Obligated
     17      Utah Transit Authority                                     UT         $3,520,000          Obligated
----------------------------------------------------------------------------------------------------------------
                                   Total                                         $197,030,000       $190,810,000
                                                                                    Allocated      Not Obligated
----------------------------------------------------------------------------------------------------------------
*Source: OIG


    The Chairman. Thank you, Mr. DeWeese.
    Mr. Mayer.

  STATEMENT OF DAVID L. MAYER, CHIEF SAFETY OFFICER, NEW YORK 
             METROPOLITAN TRANSPORTATION AUTHORITY

    Mr. Mayer. Chairman Thune, Ranking Member Nelson, and other 
members of the Committee, thank you for the opportunity to be 
here today. My name is David Mayer, and I am the Chief Safety 
Officer of the New York Metropolitan Transportation Authority, 
North America's largest transportation authority.
    Prior to joining the MTA, I spent 23 years with the 
National Transportation Safety Board, and from 2009 to 2014, I 
was Managing Director, the senior career official, there. I 
brought my two decades of experience in transportation safety 
as part of ushering in a renewed safety focus across the MTA.
    The MTA's two railroads, the Long Island Rail Road and 
Metro-North Railroad, PTC implementation schedule calls for us 
to meet all statutory requirements by the end of 2018. And 
while there are significant risks and challenges to our 
schedule, the MTA is working diligently to implement PTC in a 
safe, incremental, and controlled rollout. Our railroads are 
confident that they will continue to operate safely while PTC 
is implemented.
    Our commuter railroads are the Nation's busiest. With over 
1,400 passenger trains per day, our railroads provide nearly 
588,000 weekday trips. During peak periods, we dispatch trains 
every 90 seconds at both Penn Station and Grand Central 
Terminal. We have made significant progress in developing, 
testing, purchasing, and installing PTC. We have embraced the 
challenges of this effort and are working hard to mitigate 
schedule risks.
    PTC is not an off-the-shelf technology. There is no plug-
and-play PTC system. We are designing, testing, and installing 
all at once, and we have to do this in a way that ensures we do 
not create any new safety hazards.
    Let me start by providing a snapshot of our status. Both 
railroads operate with a high degree of safety because current 
signal systems provide important safety protections, many of 
which have been added in incrementally as we progress toward 
full PTC.
    One of the requirements of PTC is to prevent overspeed 
derailments. Long Island already has overspeed protection on 
its entire system, and Metro-North has had this protection at 
critical curves and bridges. I'm pleased to tell you that as of 
yesterday, all of Metro-North's territory has been equipped 
with speed protection hardware, and properly equipped trains 
are currently protected, and in the coming weeks, Metro-North 
will extend this protection to all trains. In addition to 
enforcing these permanent speed restrictions, once PTC is 
operational, it will also enforce temporary speed restrictions.
    Another PTC requirement is preventing trains from entering 
work zones. Metro-North has implemented a system in 2013 that 
meets this PTC requirement and has been heralded as a model for 
the industry. Long Island will achieve this functionality once 
PTC comes online.
    Finally, PTC is intended to guard against train-to-train 
collisions and the movement of a train over a misaligned 
switch. At both railroads, existing systems provide these 
protections for all trains operating over 15 miles per hour. 
PTC will extend these protections for all speeds.
    I will now discuss our implementation status, identify 
risks to our schedule, and then outline our strategies to 
mitigate those risks.
    For the MTA's two railroads, we have secured 100 percent of 
the radio spectrum we need. We have installed 80 percent of the 
wayside hardware, and we have installed about 63 percent of the 
railcar equipment needed for compliance. We have also trained 
68 percent of the required personnel. The remainder of the 
installation and training will be completed in time to support 
revenue service demonstration.
    Both railroads have begun testing and compiling 
documentation in preparation for June applications to the FRA 
to enter RSD, which is a period that will illuminate any 
problems before beginning to systematically cut in PTC on the 
rest of our network.
    The MTA has set a highly aggressive, but achievable 
schedule. We control only so much of the schedule. Railroads 
around the country are simultaneously taxing a limited set of 
specialized resources. Although not a Federal requirement, our 
Board has maintained an independent third-party engineer to 
identify risks and ways to reduce them. For example, we've 
pressed our systems integrator to hire additional staff and to 
expend additional resources to complete the required work.
    In closing, PTC implementation at the MTA remains a vast 
undertaking. Our schedule still faces significant risks and 
technical challenges. We are working diligently every day to 
overcome these risks and challenges. We thank the states of New 
York and Connecticut and the Federal Government for helping us 
marshal the necessary resources to move this enormous effort 
across the finish line, including a $968 million loan sponsored 
by the FRA.
    The MTA is fully committed to operating safe and reliable 
railroads. Although our challenges are significant and unique, 
the MTA continues to aggressively work toward full PTC 
compliance before December 31, 2018.
    Thank you for giving us this opportunity to share with you 
the MTA's efforts to bring the promise of PTC into reality.
    [The prepared statement of Mr. Mayer follows:]

      Prepared Statement of David L. Mayer, Chief Safety Officer, 
             New York Metropolitan Transportation Authority
    Chairman Thune, Ranking Member Nelson, and to other Members of the 
Commerce Committee, thank you all for the opportunity to be here today. 
My name is David Mayer and I am the Chief Safety Officer for the New 
York Metropolitan Transportation Authority (MTA), the Nation's largest 
transportation network.
    As Chief Safety Officer, I am tasked with crafting, implementing, 
and overseeing a variety of safety initiatives at MTA's agencies, 
working closely with agency Presidents and staff from across our 
agencies. Prior to joining the MTA, I spent 23 years with the National 
Transportation Safety Board and was Managing Director, the senior 
career official, from 2009 to 2014. I was recruited to the MTA to use 
my two decades of experience in the transportation safety field as part 
of an effort to usher in a renewed focus on safety across the MTA 
family agencies.
    I am here today to share with you the status of implementation of 
Positive Train Control (PTC) on the MTA's two commuter railroads: the 
Long Island Rail Road (LIRR) and Metro-North Railroad (MNR). This 
hearing is timely as just last week, MTA PTC implementation staff 
updated the MTA Board on the remaining schedule and our progress to 
meet the 2018 deadline. As stated to our Board, the MTA's schedule 
calls for us to meet all statutory requirements by the end of 2018.
    And while there are risks and challenges to our schedule, the MTA 
is working diligently to implement PTC in a safe, incremental, and 
controlled roll-out. Our approach to PTC implementation, coupled with 
other safety and cultural enhancements, has already yielded safety 
benefits. The LIRR and MNR are confident that they will continue to 
operate safely as PTC is implemented on schedule.
    MTA's two railroads are the Nation's busiest commuter railroads. 
With over 1,400 revenue trains per day, the railroads provide nearly 
588,000 trips on an average weekday morning, with a total of more than 
177 million trips annually. These two railroads operate some 2,400 rail 
cars along 1,381 track miles. The combined service territory spans 
nearly 5,000 square miles fanning out from New York City, and it serves 
a regional population of 15 million. Between the LIRR and MNR, we 
support 2,200 train movements of both passenger and work trains each 
day; this translates to as many as 303 trains per hour during peak 
service. To put this in context, the LIRR and MNR provide more commuter 
annual rail trips than the commuter rail agencies in Chicago, 
Philadelphia, Boston, Salt Lake City, and Los Angeles combined.
    Nowhere in this country has a fully designed PTC system been 
implemented on passenger rail networks as large, complex, and with as 
dense operations as the LIRR and MNR. During rush hour periods, 
hundreds of trains move in close succession through a series of complex 
switches and interlockings in Queens and the Bronx and into and out of 
our terminals in Manhattan and Brooklyn. During peak periods, we 
dispatch trains every 90 seconds at both Penn Station and Grand Central 
Terminal.
MTA Service Area & PTC Landscape
    The MTA has taken an aggressive design-build approach to the 
development and implementation of PTC. The MTA has committed 
approximately $1 billion to support the development, testing, 
purchasing, and installation of PTC, and, significant progress has been 
made at our railroads toward meeting the statutory PTC requirements.
    PTC is not an 'off the shelf' technology; there is no plug-and-play 
PTC system. The PTC statute requires specific PTC functions; each 
railroad must design the technology from the ground up, prove that it 
works as intended and test technology in a phased roll-out on a network 
that is essentially running trains 24/7. And we have to ensure that we 
do not introduce any new safety hazards that weren't present before. To 
fulfill our statutory obligations, we are designing, testing, and 
installing concurrently. There are significant challenges in this 
design-build approach, but we have embraced these challenges and have 
risk mitigation strategies to remain on schedule.
    Let me start by providing the Committee with a snapshot of the 
railroad's current signal systems, which already provide critical 
protections against the types of accidents that PTC is intended to 
prevent. I will then discuss our implementation status, identify high-
level risks to implementation and then outline our remaining schedule 
and risk mitigation strategies.
MTA's Current Signal System Safety Benefits
    Both Metro-North and LIRR already operate with a high degree of 
safety because of functionality provided by their existing signal 
systems. The railroad's PTC design is an overlay onto each railroads 
existing signal systems and I would like to explain briefly the 
protections already provided by our existing systems, and how PTC will 
supplement those protections.
    One of the primary goals of PTC is to prevent overspeed derailments 
like the DuPont, Washington derailment last December. Since December 
2013, both MNR and LIRR have lowered the maximum allowable speed 
difference to no more than 20 mph at a number of critical locations. 
LIRR's existing network is already protected against derailments caused 
by overspeeding across its signaled network. I am pleased to tell you 
that as of yesterday, all of MNR's territory in New York and 
Connecticut has been equipped with Civil Speed Enforcement, and ACSES-
equipped trains are currently protected from derailments due to 
exceeding permanent speed limits nine months ahead of the PTC deadline. 
Once PTC is fully installed, it will additionally enforce temporary 
speed restrictions, which is a layer of additional protection to the 
railroads' already robust systems.
    Another goal of PTC is the prevention of incursions into work 
zones. MNR implemented a system known as its Enhanced Employee 
Protection System, or EEPS, in 2013. This system, which won the APTA 
Gold Award for Safety, has been heralded as an industry model and 
already satisfies this portion of the PTC mandate at MNR. LIRR 
currently has track blocking and will implement an electronic Roadway 
Worker Protection System with PTC.
    Finally, PTC is intended to guard against train to train collisions 
and the movement of a train over a misaligned switch. At both 
railroads, both of these risks are already mitigated by our existing 
signal systems, which limit speeds at red stop signals and switches at 
interlockings to 15 miles per hour. The additional functionality to be 
provided by PTC will be to bring trains to a complete stop at these 
locations.
Status of MTA's PTC Implementation
    I would now like to describe our current implementation efforts of 
the required PTC components. MTA's PTC design is overlaid onto our 
existing signal systems, as I described above; the idea is to provide a 
supplemental safety system, layered on top of the existing protections. 
And railroad's PTC system must be fully interoperable with every other 
railroad operating on the same network.
    For the MTA's two railroads, we have installed 80 percent of the 
wayside transponders and 87 percent of wayside interface units, 66 
percent of the radio cases, and antennas necessary to transmit PTC 
instructions to our trains. Both railroads have secured 100 percent of 
the necessary radio spectrum. For on-board equipment, the railroads 
have equipped 423 locomotives, or 56 percent. PTC will be installed in 
control centers for both our railroads, and the Systems Integrator 
(contractor) is continuing to develop and refine the software needed. 
The MTA has also trained 68 percent of their train and engine crews, 
rail traffic controllers, train maintenance personnel and signal 
maintainers. Those trainings are scheduled to advance at an aggressive 
pace and be completed by the end of 3rd Quarter 2018.
    As the MTA advances its installation of these components, our 
railroads are preparing to test pilot segments. The importance of pilot 
testing cannot be overstated. Both railroads have begun pilot testing 
in preparation for their application to the Federal Railroad 
Administration (FRA) for Revenue Service Demonstration (RSD). Getting 
the pilot lines into RSD is the most critical milestone that the 
railroads now face. Both railroads intend to submit their RSD 
applications to FRA this June. Both railroads have completed all 
hardware installations on their respective pilot segments, and in the 
months leading up to the filing of the applications, the railroads will 
be working closely with the System Integrator to complete the 
development of the core PTC software and to conduct site performance 
testing. This will enable the railroads to compile the necessary 
documentation to support the RSD Application and obtain FRA approval to 
proceed.
    Our schedule estimates FRA approval to allow RSD by the fall of 
this year. At the present time, we do not know how long the RSD period 
will last, but we are already engaged with FRA on our progress and the 
assumptions in our approved PTC Implementation Plan. Once the FRA 
determines that RSD has been successful, the railroads will be able to 
implement PTC on the rest of their territory.
Implementation Risk Mitigation
    The MTA has set a highly aggressive schedule to meet all the 
statutory requirements for PTC but do not control all of the activities 
of this schedule. Railroads around the country are taxing the resources 
of a limited set of suppliers. When these suppliers' schedules slip, 
our schedules slip. As the deadline approaches, railroads across the 
country will be dependent on the FRA for timely review and approval of 
our plans and documents.
    The MTA is making every attempt to meet our schedule. Though not a 
Federal requirement, we have retained a third-party independent 
engineer work independently of our PTC implementation teams to identify 
areas of schedule risk and actions to reduce or eliminate these risks. 
We have pressed our Systems Integrator to hire additional staff and 
expend additional resources to complete the integrated testing 
necessary to prove the PTC system is safe and works as intended, and to 
resolve any unknown technical issues that may occur during testing. FRA 
staff have been and continue to be good partners in guiding the MTA in 
the development of the RSD and all other PTC matters.
MTA PTC Development & Funding
    Since the passage of the original PTC mandate, the MTA has worked 
to meet regulatory milestones, collaborated with Amtrak and other 
railroads on interoperability issues, worked to secure the required 
spectrum, and competitively procured a System Integrator. The nearly 
$500 million contract awarded to the SI encompasses the engineering, 
design, and provision of all material components, wayside, onboard, and 
communication equipment.
    In 2015, U.S. DOT awarded a $968 million Railroad Rehabilitation 
and Improvement Financing (RRIF) loan to the MTA. The loan, which at 
the time was the largest ever awarded, is being used towards the 
installation of PTC, as well as for funding signal upgrades to some 
sections of non-signaled (dark) territory that were previously exempted 
from PTC protections due to low traffic density. As the MTA is 
committed to ensuring maximum safety, we are upgrading our dark 
territories to bring PTC safety benefits to our entire network. Thus 
far, the MTA has submitted approximately $350 million in reimbursable 
expenditures for funding via the RRIF Loan and we will continue to 
submit invoices twice a year as we accept delivery of PTC components 
and as vendors continue to submit invoicing. As you know, RRIF is a 
reimbursement based loan program; and per MTA's loan agreement, 
repayment of the loan begins in 2018 and continues over the next 35 
years.
Additional MTA Safety Initiatives
    Though I have stated this before, it bears repeating: the MTA is 
committed to operating its railroads safely and reliably. PTC, while a 
promising life-saving technology, is only one important part of the 
safety of our transportation network.
    Despite a lack of Federal requirements, the MTA has developed and 
implemented the first-in-the nation comprehensive sleep disorder 
screening and treatment program. We plan to have screened every train 
operator, bus operator, and locomotive engineer--about 17,000 employees 
total--by the end of May 2018.
    Our railroads have also implemented the Confidential Close Call 
Reporting System (C3RS). As you know, C3RS is an FRA sponsored, 
voluntary, confidential program allowing railroad employees to report 
close calls. And this program is already providing safety tangible 
safety improvements at both railroads.
    Grade crossing safety has also been a major facet of the MTA's 
safety efforts. The MTA has increased its grade crossing awareness 
through public information campaigns and a partnership with Operation 
Lifesaver, as well increased police enforcement for grade crossing 
violations, and is currently performing a long-term study of the 
conditions at our crossings. A key aspect of this work is an 
unprecedented partnership with the local authorities responsible for 
the roadways that cross our tracks. Through this partnership, we are 
realizing important incremental safety improvements, one grade crossing 
at a time.
    Our safety program includes technological advancements that improve 
safety, including on-board cameras and alerters on our trains, and 
expanding track geometry programs to identify track problems before 
derailments occur.
Conclusion
    PTC implementation at the MTA remains a vast undertaking--one that 
will not only make our system safer now but also long into the future. 
To be sure, our work schedule still faces significant schedule risks 
and technical challenges. We are working diligently every single day to 
overcome these risks and challenges. By the time we are done, a billion 
dollars will have been expended on this effort. We thank the States of 
New York and Connecticut and the Federal Government for helping us 
marshal the necessary resources to move this enormous effort across the 
finish line, including a $968 million RRIF loan sponsored by the FRA. 
The MTA continues to aggressively work toward full PTC compliance by 
December 31, 2018, even though our challenges are significant and 
unique. Thank you for giving us this opportunity to share with you and 
the public the efforts of the MTA to bring the promise of PTC safety 
into reality.

    The Chairman. Thank you, Mr. Mayer.
    Mr. Anderson.

           STATEMENT OF RICHARD ANDERSON, PRESIDENT 
              AND CHIEF EXECUTIVE OFFICER, AMTRAK

    Mr. Anderson. Thank you, Mr. Chairman, and thank you, 
members of the Committee. My name is Richard Anderson. I began 
serving as President and CEO of Amtrak on January 1, 2018, 
following my tenure for 10 years as CEO and Executive Chairman 
of Delta Air Lines; COO and CEO of Northwest Airlines; 
President of Commercial Businesses at United Health Group; and 
a state court prosecutor in Houston, Texas.
    As the only Amtrak CEO without a background in rail, I 
bring a different perspective. In 1971, many doubted that we'd 
see passenger rail play such a large role in transportation in 
America. Our services, our railroad, our infrastructures 
support hundreds of millions of rail transportation trips a 
year. It's also clear, as you look at our 47-year history, that 
at times we've underinvested in rail travel and certainly some 
safety aspects of the business.
    Amtrak is essentially operated as a freight railroad 
carrying passengers rather than a world-class passenger 
transportation company. And while freight railroads have done a 
great job in their business model of improving safety, 
passenger rail must operate in America at a much higher 
standard of care, and that means we need to implement in 
America and establish a standard of a Safety Management System 
based upon the FAA SMS program that's in place today in 
aviation.
    Recent incidents, including the terrible derailment of 501 
near DuPont, Washington, and the collision of Train 91 in 
Cayce, South Carolina, conclusively demonstrate the need for an 
SMS system, as recommended by the NTSB, and we have commenced 
implementation of SMS at Amtrak.
    Getting to PTC, it's the most important aspect of the 
Safety Management System, and it must be the safety standard 
for all passenger rail in America. Without PTC, the system in 
America for passenger trains is vulnerable to single points of 
human failure. And today we train engineers to memorize routes, 
trees, boulders, intersections, and signals, and the loss of 
situational awareness or forgetting a single rule, forgetting 
to throw a switch, we have no basic systems to act as a risk 
mitigation for basic human error.
    Amtrak is a leader in PTC. It's installed already on 
virtually all of the Northeast Corridor. We're set to complete 
installation on the tracks and equipment we own or control by 
the December 31 deadline. For those areas of our network that 
rely on tracks of other railroads, we are closely cooperating 
with them as they progress on their own PTC installations.
    Amtrak has to operate on 20 different railroads among three 
different PTC systems. We're working with the railroads that 
operate on Amtrak infrastructure to equip their rolling stock 
with PTC on our railroad.
    It has been a difficult undertaking for the industry, and 
we are likely, and, in fact, I think we will, as a country, 
confront scenarios where PTC is not operational by the deadline 
you've established. First, some routes outside the Northeast 
Corridor will face a situation where the host railroads can 
apply for an alternative implementation schedule out to 2020 
under the law. At Amtrak, through our SMS program, we have to 
determine whether we continue to operate in non-PTC territory 
and apply the principles of our Safety Management System to 
mitigate those risks.
    Second, there are host railroads, like Canadian National, 
that appear unlikely to achieve sufficient progress to year's 
end to apply for the implementation schedule. Some of this 
isn't clear yet. For those route segments, we are required by 
law to suspend service.
    Third, a portion of our services will operate on routes 
that receive mainline track exclusions, and actually Amtrak 
will, even after the deadline, operate potentially on hundreds 
of miles of track that are not required to have any PTC, and 
among those are what are called dark railroads, where there are 
no signal systems. We are reevaluating, in light of 501, 91, 
506, 188, and 89, whether that really is a best practice if you 
have a very high standard of care.
    And, lastly, there may be railroads that operate over our 
tracks which won't be commissioned, and under the present law, 
Amtrak cannot permit noncompliant equipment on the railroad.
    So I think we have some basic challenges, and I think that 
it's highly probable that there will be parts of passenger rail 
that are not going to be compliant by the deadline.
    But, one, we should establish PTC as the standard for 
passenger rail in America, including dark territory and 
including covering the areas that are today excluded by the 
law.
    Second, all passenger railroads in America must be early 
adopters of the Safety Management System promulgated in a 
rulemaking now by FRA and consistent with Bob Sumwalt's 
recommendations from NTSB.
    Third, we need to apply SMS methodologies and determine how 
we get to an equivalent level of safety for non-PTC and dark 
railroads.
    And, lastly, I think the Committee is going to be 
challenged on how much discretion to give FRA in terms of the 
implementation deadline, or there may be significant 
cancellations of sort of necessary transportation. I know you 
may not want to hear that, but it is the reality of when you 
listen to all the testimony.
    Thank you.
    [The prepared statement of Mr. Anderson follows:]

           Prepared Statement of Richard Anderson, President 
                  and Chief Executive Officer, Amtrak
    Good morning, and thank you Chairman Thune, Ranking Member Nelson, 
and all of the members of this Committee for holding this hearing on 
rail safety and Positive Train Control. My name is Richard Anderson, 
and I serve as the President and Chief Executive Officer of Amtrak. My 
term as CEO began January 1 and, prior to this, I served as Co-CEO with 
Wick Moorman since July. Previously, I served as the CEO for Delta Air 
Lines, CEO for Northwest Airlines, and the President of Commercial 
Business at United Health Group.
    Amtrak is committed to running the safest rail system for our 
customers and our employees. We have seen what can be achieved when 
stakeholders work together toward a common goal, as demonstrated by the 
commercial aviation system which last year achieved the remarkable feat 
of zero passenger fatalities. Amtrak has achieved strong results in the 
past and can and must do the same again for the intercity passenger 
rail industry.
    Sadly, the recent incidents have demonstrated that we are far from 
that goal today. Though the circumstances of each of these accidents 
are quite different, the tragic derailment of Train 501 near DuPont, 
Washington, the grade-crossing incident near Crozet, Virginia, which 
impacted many of your colleagues, and most recently, the collision 
between Amtrak Train 91 and a CSX freight passenger train near Cayce, 
South Carolina remind us that there are still too many gaps in the U.S. 
rail network's current safety systems.
    I am here today to pledge to you that, despite these incidents, 
Amtrak is a safe railroad that is becoming safer each day. All of us at 
Amtrak are doing all that we can with the resources we have to make 
sure that incidents like these don't occur again. I will chronical some 
of the many steps we've taken in response to these varied incidents 
and, more generally, describe our work to adopt a more predictive and 
global approach to safety. I will also present areas where broader 
policy discussion and greater resources are needed to strengthen safety 
across the diverse network of freight and commuter railroads that host 
the vast majority of Amtrak's route miles.
Positive Train Control
    One of the most critical tools that the rail industry needs to 
vastly improve safety is the prompt implementation of Positive Train 
Control (PTC) technology. Amtrak is confident that the installation of 
PTC on the required routes nationwide will make the entire U.S. rail 
network safer for passengers, railroad employees, and the cities and 
towns which the national rail network traverses.
    Amtrak has long been a leader in the installation of PTC, having 
already deployed systems almost universally where we control the tracks 
including on most of the Northeast Corridor (NEC), the busiest railroad 
in North America. As we've already pledged in a letter to 
Transportation Secretary Chao, we are set to complete the installation 
of PTC on the few remaining elements of the infrastructure we control 
and on all of our equipment by the December 31, 2018 Federal deadline.
    For the tracks we use but do not own or control, we are cooperating 
with our freight and commuter host railroads as they advance their 
obligations to complete PTC installations, which are required either 
because of the presence of our trains or the haulage of certain 
hazardous material. Additionally, the various freight and commuter 
railroads that operate over Amtrak's infrastructure must equip their 
rolling stock with PTC for use on our railroad and we are working 
cooperatively with them to advance these tasks.
PTC in Context
    Railway operations in the United States are complicated, with 
multiple companies and agencies required to cooperate closely to ensure 
the safe, reliable, timely operation of various types of trains across 
differing networks. To integrate PTC into this complex environment has 
been a significant undertaking for the industry and its suppliers. 
While Amtrak has been eager to bring this technology online, it has 
been a difficult process and has required the dedication of significant 
resources, both in terms of funding and of our personnel.
    To place PTC in its proper context, permit me to explain how PTC is 
designed and how Amtrak operates. PTC relies on three interdependent 
elements, all of which must be in place for the system to function. The 
first includes equipment that must be installed on the locomotives by 
owners and operators. Second, trackside equipment must be installed by 
host railroads along the protected routes that monitor signals, 
switches, and track circuits. Third, there are computer sys-tems, 
called back office servers (BOS), which link the locomotives and the 
trackside equipment while integrating more information about the 
network. Additionally, each host railroad and rail operator must have a 
BOS and it needs to be correctly integrated before the system can be 
operational. All of this must be done in the proper sequence, and for 
the carriers required to use the system, it must be achieved in 
accordance with the timetables set by law.
Locomotive Installation
    The first part of a PTC system is the equipment installed on 
locomotives and cab cars, which monitors a train's position and speed 
and activates braking as necessary to ensure compliance with speed 
restriction and territorial limits. The complexity of our operations 
requires Amtrak to use three different PTC systems across our network. 
Since 2000, Amtrak's Northeast Corridor operations permitted to exceed 
125 mph have depended on our first form of PTC called Advanced Civil 
Speed Enforcement System, or ACSES. By the end of 2015, to meet the 
original deadline of the 2008 Rail Safety Improvement Act, Amtrak had 
enabled ACSES for all our loco-motives, cab cars and trainsets 
operating on the NEC. For equipment that operates on a 98-mile stretch 
of track Amtrak owns in Michigan and to permit higher speed operation 
on the newly purchased and upgraded line owned by the State, we have 
installed a second form of PTC equipment, called ITCS.
    Finally, to operate across the other host railroads that make up 72 
percent of the miles our trains travel, we are also installing a third 
form of PTC in our locomotives to integrate with the I-ETMS system in 
use by freight railroads. Having already PTC commissioned 338 units, we 
are on target to have 447 Amtrak-owned units fully commissioned and 
ready to operate before the December 31, 2018, deadline. Apart from our 
locomotives and rolling stock, several of our state partners also own 
their own equipment which we operate and maintain. Amtrak is working 
with these owners and various suppliers to help achieve compliance 
prior to year's end.
Trackside Equipment
    The second part of a PTC system is the trackside equipment, which 
monitors railroad track signals, switches, and track circuits. By law, 
each railroad owner is responsible for installation of PTC equipment on 
the tracks within their rights-of-way. Additionally, the hosts are 
responsible for reporting their PTC trackside readiness schedule to the 
Federal Railroad Administration (FRA). Amtrak is working with the host 
railroads to develop an implementation schedule for PTC integration and 
testing. While 13 out of 20 host railroads that will be using I-ETMS 
have not provided a notice of intent to start PTC testing, the four 
Class I railroads that own the majority of the track over which Amtrak 
operates (BNSF, CSX, NS, and UP) have all provided letters of intent.
    Regarding the trackside installations for which Amtrak is 
responsible, Amtrak completed the ACSES PTC implementation on all but a 
few miles near terminals and stations on the NEC in December 2015 and 
on the Harrisburg Line during the first quarter of calendar year 2016. 
On our Michigan Line, trackside PTC implementation on our segment was 
fully completed in 2011 and the State-owned portion of our route to 
Detroit will be completed by June 2018. Installation of the ACSES PTC 
system on Amtrak's Springfield Line will be completed by late Fall 2018 
and we will soon begin hardware installation on the portions of the 
Hudson Line in New York which we control, with implementation expected 
by December 31, 2018.
Back Office Servers (BOS)
    The third part of a PTC system is the back office server, which 
stores all information related to the rail network and trains, and 
transmits authorization for individual train movements. Each host 
railroad and each rail operator will have a BOS that enables the 
necessary information exchanges. For a BOS to be operational, the 
tenant who operates over a host railroad must establish a dedicated 
two-way communication link between their BOS and the host BOS, a 
process known in the field as federation. Amtrak's ACSES system does 
not require a BOS, so Amtrak only needs a BOS for its ITCS system in 
Michigan and its I-ETMS operations over freight hosts. Amtrak's BOS 
will pass crew and train information to the host railroad system, as 
well as to the locomotives themselves. Operability of Amtrak's BOS is 
currently scheduled for April 2018, though we are looking to accelerate 
its delivery through our vendors. Once it is operable, federation with 
the BOS of each individual host railroad must commence before PTC 
operations can occur.
Next Steps for PTC Implementation
    While PTC relies on completing these three components, the next 
vital steps in deploying PTC include testing and training. Once Amtrak 
and a host have linked their BOS units, testing of the system will 
proceed, beginning this spring, to verify functionality along with 
system interoperability testing to ensure that all of the disparate 
components work together correctly. As for training, Amtrak is 
implementing a training plan for 1,300 locomotive engineers and 2,200 
conductors that includes classroom training and, once the PTC system is 
active, field training. We are taking steps as part of this training to 
prepare our employees for what will likely be the phased deployment on 
routes as different hosts and territories are brought online.
    The industry as a whole is already moving forward, so it is 
important to note that some of our partners will have PTC implemented 
and operational in time for the December 2018 deadline. In this case, 
we will continue to operate passenger rail service with the certainty 
that operational PTC is on that route.
    However, a phased implementation brings us to a number of 
challenging policy questions facing Amtrak, FRA, Congress and the 
various railroads we interact with across our network. It is now clear 
that we are likely to encounter four different scenarios where PTC is 
not yet operational by the end of the year.
    First, there will be carriers that have made sufficient progress to 
apply to FRA for an alternative PTC implementation schedule under the 
law. In these instances, Amtrak's equipment will be ready for PTC 
operation, but additional work, testing or approvals are still required 
by the host railroad before the system is considered functional. We 
believe a significant number of routes outside of the NEC will face 
this situation. The question we must ask ourselves is whether we 
continue to operate over such routes until PTC is turned on and if so, 
what additional safety protections are appropriate to reduce risks?
    Second, there will be carriers over which we operate who appear 
unlikely to achieve sufficient progress to apply for an alternative PTC 
implementation schedule by year's end. For any such route segments, 
Amtrak will suspend operations until such time as the carrier becomes 
com-pliant with the law.
    Third, there are areas over which we operate for which there is an 
FRA ``Mainline Track Exclusion'' in place exempting that segment from 
the PTC requirements based on the low levels of freight and passenger 
train traffic or the presence of low-speed operations, such as in yards 
and terminals. We are currently reviewing our policy on operating 
passenger trains on Exclusions to determine whether we have adequate 
safety mitigation practices in place for each territory and in certain 
areas, where signal systems are not in place, we will reconsider 
whether we operate at all.
    Lastly, there may be railroads that operate over Amtrak tracks in 
the NEC which may not have sufficient PTC-commissioned rolling stock by 
the December 31, 2018 deadline to operate normal services. Under the 
present rules, Amtrak cannot permit non-compliant equipment to be used 
over our railroad after the deadline and we will be working closely 
with our partners and the FRA to determine the best way to address this 
situation.
    To be clear, Amtrak has not made any decisions to cease train 
operations across our network or on any specific routes at this time. 
Instead, we are going to thoroughly analyze each route on a case-by-
case basis and consider the appropriate strategies for enhancing safety 
on such routes after the December 2018 deadline. In particular, as we 
assess these routes, we know that some of them are shared with our 
commuter partners who face their own challenges to reach the deadline. 
We will assist our commuter partners, where we can, to reach the 
deadline or to find viable alternatives to bridge the gap. It would not 
be prudent to force more commuters onto our highways in already 
congested urban regions; rail remains the best and safer solution.
    While we work to meet this deadline, I think it's also important to 
acknowledge the role that Federal funds have and will play in the 
implementation of these systems for passenger and commuter rail. Amtrak 
has certainly been the recipient of some of these funds and acknowledge 
their critical role in allowing us to meet our deadlines. We are also 
aware of the additional funding likely needed by our commuter partners 
to help fully implement PTC as quickly as possible. In addition, there 
will be an ongoing maintenance cost associated with PTC systems, which 
for some may be a financial hardship in future years and could require 
further Federal investment. We appreciate and acknowledge the important 
role Federal funding has in improving rail safety.
    As we prepare to operate in a PTC environment, I do think it is 
worth noting that PTC was designed to address specific vulnerabilities 
in train operations--train-to-train collisions, over-speed derailments, 
incursions into work zones, and misaligned switches. Thus, PTC is not a 
complete technology answer as there are events that PTC does not 
address -such as when a car or truck crosses over tracks at a crossing, 
certain track defects, or other incidents like rockslides.
    I raise this not to take anything away from PTC and the important 
capabilities it offers the rail industry, but simply to be clear about 
how we cannot rely on PTC alone. Safety depends on the hard work and 
vigilance of thousands of our trained and dedicated employees and on 
the appropriate levels of investments being made in the network's 
infrastructure. For instance, while the number of total U.S. train 
accidents has declined by 14 percent over the past four years and 
accidents involving passenger trains accounted for only 2.5 percent of 
all accidents, according to the FRA rail safety database, grade 
crossing and trespasser incidents remain high. In 2017, there were 
1,880 grade crossing accidents involving 243 fatalities and a separate 
552 trespasser fatalities. PTC will help protect against many of the 
human factors-caused accidents that occur across the U.S. rail system, 
but having made progress against this vulnerability, we must also turn 
our attention and, the attention of the highway and motorist 
communities, to the startling loss of life that occurs on a daily basis 
when motorists and pedestrians occupy the right of way ahead of a 
train.
Safety and Amtrak
    Amtrak, as the Nation's intercity passenger rail carrier, has long 
recognized our unique requirement to have strong protocols in place to 
make riding the rails safe. In many areas, we go above and beyond FRA 
requirements and industry practice. For example, Amtrak requires a full 
annual physical evaluation for every engineer, including sleep apnea 
screening, whereas FRA simply requires an exam once every three years. 
Amtrak requires that newly promoted engineers are evaluated monthly for 
their first year of service, whereas FRA has no special requirements 
for evaluation of newly promoted engineers. Amtrak engineers and 
conductors are required to attend annual training for recertification, 
whereas FRA only requires full recertification every three years. In 
addition, Amtrak's drug and alcohol testing protocols exceed Federal 
requirements. Our testing regimen is so strenuous that employees 
understand that a random drug test in the course of the year is not 
just possible, it is likely.
    We're also taking other steps, such as installing inward-facing 
cameras. These cameras monitor locomotive and engineer performance and 
are installed in Amtrak trains along routes in the Northeast, Midwest, 
and West and we are actively working to install them on Amtrak trains 
nationwide. Reviewing the data from these cameras, coupled with the 
data from our efficiency testing programs, provides us an excellent 
view of operational issues to be addressed in future training programs.
    While many of these efforts draw on safety practices used by some 
of our partners in the freight rail industry, since we are carrying 
people, we believe we must also draw on the expertise of other safety-
critical industries. Our goal is to build upon our good practices and 
take them to the next level to deliver the world-class safety that our 
customers deserve and expect.
    To put us on the path to reach that goal, just last month Amtrak 
hired a new Executive Vice President and Chief Safety Officer, Ken 
Hylander. Ken is a widely respected member of the transportation safety 
community with more than thirty years of service--in addition to being 
a former colleague of mine at Delta Airlines. Ken reports directly to 
me to ensure his position has full authority and maximum impact. Amtrak 
has consolidated several previously separate resources, including 
System Safety, Compliance and Training, Environmental Compliance, 
Sustainability, and Public Health underneath him.
Safety Management System (SMS)
    Ken's primary objective will be to implement a Safety Management 
Systems (SMS) to improve our safety culture. SMS will revitalize 
Amtrak's safety programs by primarily strengthening hazard 
identification and complimentary mitigation programs. An SMS is a 
proactive risk management system, which will move us toward a more 
predictive safety management method at an organizational level. Having 
a safety culture that continually identifies, and mitigates, future 
risk is the proven way to improve overall safety performance. It has 
been a cornerstone of im-proving safety in many industries, including 
aviation, health care, and energy--and it is also the right system for 
Amtrak.
    A positive safety culture means an organization that easily 
facilitates and is receptive to safety discussions; that is committed 
to and practices risk reduction; that recognizes and accepts a healthy 
balance between centralized policy and procedure control and the value 
of local knowledge. A safety culture requires the reporting of safety 
issues at all levels. It is intolerant of recklessness and willful 
disregard for safety practices and learns from its mistakes. Safety 
culture emerges over time. Daily decisions and actual practice will 
define our culture. A good safety culture and a successful SMS are 
interdependent.
    We will know as a company that we have arrived at a good SMS when 
we (1) have better safety data available for decision making, (2) can 
analyze safety risks before we do something, not after; and 3) have 
closed-loop processes that find hazards, mitigates them, and verifies 
efficacy. Additionally, our safety processes will be fully integrated 
into our organizational decision-making and supported by strong 
oversight to ensure compliance with the practices we want to implement. 
At a personal level each Amtrak employee will know his or her role in 
the safety process.
    We know that implementation of an SMS is a significant 
undertaking--it requires our organizational commitment. SMS demands 
that all safety related procedures must be carefully documented, 
universally understood, and unfailingly applied. SMS is designed to 
advance that outcome by formalizing our knowledge into processes, 
checklists, and governing documentation to improve consistency. Amtrak 
believes the implementation of SMS will truly take our safety 
performance to the highest level of service. These efforts are in line 
with the NTSB's recommendation that Amtrak and our unions implement a 
SMS Program and generally consistent with the Risk Reduction Program 
approach mandated by this Committee in the 2008 Rail Safety Improvement 
Act and required by FRA through the development of a System Safety 
Program.
Conclusion
    When the Amtrak board asked me to lead their railroad, they did so 
with the expectation that I would bring an outsider's perspective to 
the business. This mandate, combined with the events of the past few 
months, compels me to examine our business practices and think 
carefully about ways in which an elevated safety focus would alter how 
we operate. Some of these changes have been made, and several more of 
them are now underway. Let me present some ex-amples.
    We are changing our policies on operating on host railroad 
territories with temporarily inoperable signal systems. While we are 
evaluating two different approaches, they both boil down to reducing 
speed significantly in these circumstances in advance of known hazards. 
While we see such a change as fully warranted, they may result in 
operational impacts to our host railroads and our trains, and we will 
need to work with our hosts to determine the best ways to minimize 
those impacts.
    Building on the changes to our operations when signals are 
unavailable, Amtrak will change how we operate through sections of 
track with no signals at all, so-called `dark territory,' which is also 
exempted from the PTC mandate. Approximately 1 percent of our current 
or planned routes transit through dark territory, totaling 222 miles in 
Indiana, Maine, New York, Quebec, and Vermont. We believe it is time to 
reevaluate the risks that accompany such operations and adopt a new 
approach, particularly as the implementation of PTC will provide even 
greater safety margins beyond traditional railroad signaling on the 
vast majority of our routes. Based on hazard analyses and mitigation 
options, the application of new technologies like switch position 
indicators; altered operating practices; signal system and PTC 
investments or rerouting or route abandonments may all be appropriate 
for such dark territory. Working together with our host railroads and 
local stakeholders, we need to quickly evaluate the risks and take the 
necessary steps to ensure we don't leave sections of our network 
unnecessarily vulnerable.
    Amtrak is organizing a centralized standards, training, and quality 
assurance organization for engineers and conductors moving away from a 
former regional approach to training and safety oversight. Our aim is a 
more robust, consistent, and unified approach to these issues, which 
will serve as a vital resource across our network. Similarly, 
immediately following the December derailment of Train 501, we adopted 
a new policy that requires approval from the heads of our operations 
and safety departments before our personnel operate over new or 
modified routes. While Amtrak had general procedures for new routes 
prior to that incident, they were managed regionally and we believe a 
central review by our safety and operating experts and a single array 
of consistent standards will strengthen outcomes.
    A related initiative is the revamping of our trainmaster and road 
foreman staffing to provide more support and training for our engineers 
and conductors. These positions directly manage our front-line 
employees who operate our trains and we are re-thinking our 
qualification training standards and identifying the additional 
resources--both manpower and technology--to enable our crews to benefit 
from industry leading approaches to procedural and operational training 
regimens. We will look carefully at how the commercial aviation 
industry has applied simulation, and more recently, virtual reality as 
well as augmented reality, to make our training more realistic and more 
effective to serve our crews and customers better.
    Strengthening safety is a continuous process. Amtrak's 
responsibility is to lead safety across our industry and serve as good 
stewards of the vital resources that we receive from Congress and the 
Administration to help us implement these advancements. Likewise, 
railroads alone can't solve all of the issues, as grade crossing and 
trespasser accidents require a broader effort of local, state and 
Federal stakeholders to educate motorist and pedestrians, better equip 
vulnerable crossings, limit public access to rights of way and 
strengthen enforcement.
    I have great confidence in Amtrak's dedicated workforce and the 
commitment I see across our company to becomes the safest passenger 
railroad in North America, but there is work to be done to improve the 
entire rail system. While the challenges described today are difficult, 
they can be overcome. At Amtrak, we owe our customers nothing less.
    Thank you for the opportunity to appear before you today, and I 
welcome your questions.

    The Chairman. Thank you, Mr. Anderson.
    Ms. Fleming, you testified that 7 to 19 commuter railroads 
may not even hit the milestones necessary to qualify for an 
extension beyond December 31, let alone fully implement PTC. I 
want to drill down a ways to see what we can do to improve the 
situation. What can these railroads be doing in the next 10 
months to best advance PTC implementation?
    Ms. Fleming. You know, I think, where possible, it's really 
important to get management and the Board on board to make some 
important decisions in order to keep moving forward. We've 
heard from some of the railroads that are further along that 
they've had to make service adjustments in order to finish 
installation of equipment or to begin testing. We also heard 
from some of the railroads that it's really important that the 
railroad be actively involved in all phases of the project 
rather than solely relying on your contractors.
    And then I think the last thing would be is there are some 
railroads that are further along, and there are opportunities 
to take full advantage of user groups and industry forums to 
capitalize on some of the best practices and lessons learned 
from these railroads.
    The Chairman. And do you think it's realistic that all that 
get done in 10 months?
    Ms. Fleming. You mean to meet the deadline?
    The Chairman. Mm-hmm.
    Ms. Fleming. Our analysis shows that no, that depending on 
how you cut the data, as many as half of the railroads may not 
meet the deadline or have enough time to meet the criteria to 
qualify for an RSD extension.
    So I think part of the problem is that some of the 
railroads have some heavy lifting to do. They haven't begun the 
second phase, which is really where you have to deal with some 
of the complexity and time-consuming things, installing the 
back office server, field testing. The railroads that have done 
those things, on average, it could take them 7 to 10 months, 
but from FRA's perspective, you're talking about 1 to 3 years. 
So if these railroads haven't started tackling some of that, 
the time is running out for them.
    The Chairman. You also recommended that FRA improve its 
communication with railroads and better prioritize its 
resources and workload regarding PTC. And based on your 
recommendations, I intend to send a letter to the new 
Administrator of FRA inquiring about the agency's plan to 
address the recommendation that you have raised in your report.
    Ms. Fleming. I appreciate that.
    The Chairman. Mr. Mayer, according to your projections, 
Metro-North and Long Island Rail Road are scheduled to have PTC 
operating on all lines by December 31 of this year. And while I 
appreciate the aggressive schedule, I want to make sure the 
traveling public has a clear-eyed understanding of the 
likelihood of this outcome. At this point, can you guarantee 
that Metro-North and Long Island Rail Road will not file for an 
extension from the December 31, 2018, deadline?
    Mr. Mayer. Well, our schedule is a doable schedule, but as 
I said in my remarks, it is a schedule that has risk. And as we 
move forward through each stage, we don't know exactly what 
we're going to encounter. We believe we can have all lines in 
operation by the deadline, but if we don't, the schedule does 
allow for or the law does allow for an alternative schedule 
compliance, and we're certain that we can be able to meet that 
if we have to.
    The Chairman. Ms. Fleming, in follow-up to that question, 
GAO studied how long certain steps take to implement PTC, 
including the testing and demonstration phases. How does MTA's 
schedule compare with the information that you learned in your 
reviews and analysis?
    Ms. Fleming. Quite frankly, it looks a little bit tight, 
and I think it's because, again, having to tackle some of the 
more complex, time-consuming activities, you know, I know that 
they have a pretty ambitious schedule, but, you know, things 
can happen, particularly as you start the testing phase. And, 
again, FRA's own estimate on average puts railroads at about 2 
years to complete that phase.
    So I think it's ambitious, and it doesn't maybe account for 
some of the glitches that you can find, the bugs that you can 
find, through testing. And even installing the back office 
server, we found that the railroads that are far along, it took 
them at least 10 months on average, but, quite frankly, from 
FRA's perspective, you're again looking at a couple years.
    Mr. Mayer. Mr. Chairman, if I could add, we certainly don't 
disagree that this is an extraordinarily aggressive and tight 
schedule, and it has our challenges. That said, at least for 
our railroads, as we enter revenue service demonstration, it 
won't be the first time that we've been testing. I mentioned 
that we're able to provide speed enforcement on both of our 
railroads, and particularly Metro-North Railroad, we have been 
testing for 2 years, and that's why we're able to incrementally 
provide speed enforcement. I won't tell you that we won't 
encounter problems when we add the back office server and we 
move to full-up revenue service demonstration, but it gives us 
some degree of confidence that other railroads may not have 
about that phase.
    The Chairman. Mr. Anderson, you stated that there may be 
railroads that operate over Amtrak tracks in the Northeast 
Corridor that will not have PTC on their locomotives, and you 
stated that Amtrak cannot permit such locomotives to be used on 
its tracks after the PTC deadline. Based on your understanding 
of the progress of your tenant railroads, how likely is it that 
Amtrak will prohibit these commuter railroad locomotives from 
operating on its tracks?
    Mr. Anderson. I think that the factual situation will arise 
whether or not technically allowed to operate on the tracks. 
And I think what we have to work on with some of those are 
mitigation plans. We have some extra ACS-64 locomotives where 
we could provide the propulsion and the T&E crews, but this 
gets back to my point, that I think the reality is--and to your 
question about what FRA is doing--Ron Batory is actually doing 
a really good job pulling all the railroads in. We have another 
two-day session with him on March 4 and 5, and really going 
through every single milestone for each one of the railroads 
that operate on Amtrak or where Amtrak operates off its own 
infrastructure.
    And I think we're going to get confronted, as a policy 
question, with that issue. I mean, do you have a commuter 
railroad that carries a couple hundred thousand people a day, 
you know? Can you practically? And is it the right policy to 
not have that railroad operate and put everybody on roads? So 
the question is, What other mitigation steps can you take? What 
things can we do, as a host, with our partners on the Corridor 
to mitigate those issues and be certain that we still provide 
safe operations?
    The Chairman. Which commuter railroads do you think are 
most at risk?
    Mr. Anderson. I think Metro-North, NJT, are probably the 
two that we understand, but we will know more as Ron Batory 
works with us. And we're working very close with Metro-North. 
We're working very close with NJT. We want to see them succeed. 
That's our responsibility as a steward of that, of the 
Northeast Corridor.
    The Chairman. My time is expired.
    Senator Nelson, I understand you want to defer to Senator 
Cantwell.
    Senator Nelson. Yes. Senator Cantwell is the one that 
requested this hearing, so I want to defer my time for her and 
just say at the outset that here we are, 3 years later, 
confronting the same thing that we confronted 3 years ago, that 
several railroads are not going to be ready, and it's going to 
lead to more crashes. When is enough, enough?
    The Chairman. Senator.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Senator Nelson. Thank you for 
your indulgence.
    Thank you, Mr. Chairman, for both you and the Ranking 
Member organizing this hearing. And clearly the discussion of 
positive train control and implementation has become a all too 
live debate in the State of Washington with the horrific crash 
that killed three people and injured 80 in the State of 
Washington. So what the discussion you're having right now is 
about how do we move forward in that same vein? I know, as it 
relates to Washington State, the rail Amtrak uses in Washington 
that is owned by BNSF will be compliant by the end of this 
year. Is that right, Mr. Anderson?
    Mr. Anderson. Yes, Senator, it will.
    Senator Cantwell. So it will only be those, you know, 
separately run tracks and the question on their compliance. Is 
that correct?
    Mr. Anderson. That's a correct statement.
    Senator Cantwell. So on the line that was--where the 
accident occurred, it's a question about whether they'll be 
compliant.
    Mr. Anderson. They will be PTC-compliant before the 
deadline.
    Senator Cantwell. OK. So if I could ask, because as this 
discussion continues with the Committee about those sites that 
are going to be compliant and noncompliant and where we're 
going to run, if I could just show a picture--oh, it's already 
there. This is the warning sign, right? It's like a highway, I 
guess, in the sense of your exit is coming up, but in this 
case, slow down to 30 miles an hour, right? They see that sign 
at 2 miles, at 1 mile, at one half mile, and as the curve 
starts, right? But I think in this case--well, we don't know 
all the NTSB investigation will say, but instead of going 30, 
they didn't have the situational awareness to--they didn't 
observe this, and hit that curve on its maiden route at speeds 
we think over 50 miles per hour above the limit. So this is 
going to continue to be a real live discussion in other places.
    Now, just to clarify, in this situation, under positive 
train control, if they blew by this signal at more than 30 
miles an hour, the train would be automatically slowed down or 
stopped, is that correct?
    Mr. Anderson. Correct.
    Senator Cantwell. So that implementation, you wouldn't need 
the situational awareness in that instance, but it is still 
something that you would want to have implemented with your 
engineers, is that correct?
    Mr. Anderson. Correct. And actually we need to go further 
than the PTC regulation and establish a standard of 100 
percent. If you're a passenger and you get on a train in 
America, you need to be PTC-compliant or PTC-equivalent. I just 
don't think there's any other way to deal with the risk of 
single human error. I walked that track the night after the 
accident, and you see the curve and you see the signs, and it 
really makes such a compelling case for PTC because we could 
have avoided it.
    Senator Cantwell. Well, I think that's what the Ranking 
Member was just saying, that, yes, we should have mandated 
something in 2015 that now we're going to discuss what's going 
to happen when it's not in place by the end of the year for 
certain tracks and services, right?
    Mr. Anderson. Correct.
    Senator Cantwell. And so I'm understanding your House 
testimony that you doubted that Amtrak would operate on any 
rail line that wasn't PTC functioning by the end of the year.
    Mr. Anderson. Yes. That hasn't been very popular.
    Senator Cantwell. And so does the Committee have a list of 
that, of where those areas are?
    Mr. Anderson. We can give you a list of those.
    Senator Cantwell. OK.
    Mr. Anderson. But, yes, we do have--and they touch my 
estimate is probably somewhere between 300 to 700 miles of 
track we operate on.
    Senator Cantwell. And so just for the riding public on rail 
services, not knowing where PTC exists and doesn't exist, what 
is Amtrak going to do to increase the situational awareness 
training that is important for those lines that don't have PTC? 
Or is Amtrak just going to take a hard-and-fast line, no more 
commuter rail transportation after December 31 without PTC?
    Mr. Anderson. Look, that's the sort of Sisyphean problem, 
which is on the one hand we support Amtrak assets and trains 
and T&E crews and maintenance, we support probably a half a 
billion trips a year, so it's an essential part of what we do. 
On the other hand, it's not very comforting being the President 
of Amtrak and running trains on dark railroads.
    So I think the first thing is we have to--and after 501, we 
immediately improved our oversight and hands-on engagement of 
our road foremen in our crew briefing rooms. We've revamped our 
operating procedures for commissioning new routes. It takes my 
approval now to go through the gating process under our SMS for 
a new route.
    We have reduced headcount in the headquarters, and we're 
going to redeploy those resources to the field for more road 
foremen and assistant road foremen, and in our transportation 
organization.
    We put in new rules for operating on signal-suspended 
railroads. And we're implementing well in advance of the FRA 
deadlines a rail safety SMS program.
    But we still remain exposed. And even after PTC--now, PTC 
will be on the Defiance Bypass and all of the Cascades, but 
even after that, and I can share with you, it's a great 
question, the places where we, even after the deadline, if you 
assumed every railroad complied with the rule, we are still 
going to have significant sections of passenger rail operations 
without PTC, and I think that is a level of risk that we 
shouldn't be prepared to take as a railroad, and my Board at 
Amtrak has taken that position.
    Senator Cantwell. Well, thank you, Mr. Chairman. I know my 
time has expired, but this certainly was a very costly incident 
to the Pacific Northwest, and we--our sympathies are with the 
families who have lost loved ones. The issue is that we need to 
make sure that the traveling public is safe----
    Mr. Anderson. Absolutely.
    Senator Cantwell.--and that these, both situational 
awareness and technologies, are at the best available--or the 
assessment that you're just making is implemented.
    Thank you.
    Mr. Anderson. And we are deeply sorry to the communities in 
Washington. And we have admitted all liability, and we are 
generously settling those claims and covering all the costs for 
the State of Washington.
    The Chairman. Thank you, Senator Cantwell.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chair. And thank you to our 
panelists this morning. I appreciate your being here very much 
and the work you do very much.
    I'll start with a question to Mr. Anderson and Mr. Mayer. 
As you may know, the NTSB recently reported the undiagnosed 
obstructive sleep apnea was a causal factor in two separate 
commuter train derailments, in September 2016 and January 2017. 
These two derailments collectively involved the injury of over 
200 people and the death of one. The NTSB noted that the 
Federal Rail Administration does not require medical screenings 
for its safety-critical workers to guard against disorders such 
as sleep apnea.
    The lack of Federal standards and testing requirements 
around this issue I think is reckless and has clearly led to 
deaths and injuries in the rail sector. So we obviously need to 
do something about it. I recently wrote a letter to FRA calling 
on them to remedy this situation.
    So, Mr. Anderson and Mr. Mayer, what steps are you taking 
to protect rail workers and the commuters who depend on them 
from harms caused by undiagnosed sleep apnea?
    Mr. Anderson. Well, first, you're right. And so at Amtrak--
the FRA rule is a physical for an engineer every 3 years. Our 
rule is every 1 year, and we require screening for sleep apnea; 
when diagnosed, you're taken out of service. We want our 
engineers to get the proper treatment. There are proper 
treatments.
    Senator Hassan. Yes.
    Mr. Anderson. So we are big believers, from an SMS 
standpoint again, our safety management system tells us we have 
to mitigate the risk from sleep apnea, and so our program is 
set up to do that.
    Senator Hassan. Great. Thank you.
    Mr. Mayer. We set up a program that we believe leads the 
industry in this. We decided to screen all of our locomotive 
engineers on both of our railroads as well train operators on 
the New York City subway system, I realize not the subject of 
this hearing----
    Senator Hassan. Yes.
    Mr. Mayer.--but that's thousands of individuals. We've been 
on a very aggressive schedule to do this, just screen thousands 
of individuals and make sure that they have the treatment that 
they require. And we'll be having passed through and screened 
every one of those job titles by the end of May.
    Senator Hassan. That's good to hear. Thank you.
    To Ms. Fleming, is this a problem that merits further 
attention by the GAO?
    Ms. Fleming. You know, it's not an area that we've looked 
into, but we'd be happy to work with you and the Committee on 
this issue. It sounds like a very important issue.
    Senator Hassan. I think it is, especially because, as both 
of these witnesses answered, there is also treatment for sleep 
apnea.
    Ms. Fleming. Right.
    Senator Hassan. So it's not an either/or thing, we just 
need to make sure we're identifying it and treating it.
    Mr. Anderson, I wanted to follow up a little bit with you 
on the issue of what happens to lines that may not be PTC-
compliant by the deadline. And in my case, I'm concerned about 
lines in Vermont, which obviously serve constituents of mine in 
New Hampshire and, as I understand it, are exempted from the 
requirement.
    So to follow up on some of the other questions you've 
gotten, you testified before the House Transportation Committee 
and stated that you doubted whether service would continue for 
areas that did not have PTC in place by 2018. We've heard 
concerns about how this could impact the Vermonter's service, 
which travels through New Hampshire, and constituents are 
obviously concerned.
    So, again, is there a way that we can address safety 
concerns, but also not take these lines, which were exempted 
under the statute, out of service? They're so critical for 
people in our states and businesses, too.
    Mr. Anderson. Yes, Senator. And after you expressed that to 
us, and after my testimony in the House, we have undertaken 
under our SMS risk assessment program what steps we could take 
in the short run----
    Senator Hassan. Right.
    Mr. Anderson.--to mitigate operations on dark railroads and 
non-PTC railroads. I do think that--and we have an R&D project 
underway at Amtrak to determine whether we can use technologies 
from Europe that don't require as much trackside investment, 
but would give us speed restrictions and signal location. And 
there may be mitigation efforts like slow speeds coming up on 
switches, requiring the conductor in dark territory to ride in 
the front of the cab.
    Senator Hassan. OK.
    Mr. Anderson. So we are putting it through candidly as what 
we did in aviation, and we're putting it through that same sort 
of alternative means of compliance because we realize the 
importance of our service. And the Vermonter is a really good 
route for us.
    Senator Hassan. Yes.
    Mr. Anderson. So it's not one that economically or 
otherwise you would ever be motivated to do anything to----
    Senator Hassan. Right.
    Mr. Anderson.--but as a practical matter, after you go to 
Washington and walk down, you know, and sit at one of these 
accident sites, it sharpens your focus.
    Senator Hassan. Of course it does, and we are very glad for 
that sharp focus. Thank you all very much.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Hassan.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you, welcome, Mr. Anderson.
    I think I'll start with you, Ms. Fleming. While the FRA 
collects information from commuter railroads on their progress 
in implementing PTC, the GAO has found that the FRA is not 
using this information to prioritize resources to those 
railroads most likely to miss the deadline. I would think that 
a risk-based approach would help with PTC implementation. What 
specific information does the FRA need to collect that would 
help target support where we need it the most?
    Ms. Fleming. You know, I think that they really need to 
consider, as a recommendation, to have--to use the information 
that it collects and to apply more of a risk-based approach. 
You know, they're going to be getting significant documentation 
coming their way in the next months and leading up to 2020, 
everything from test waivers, RSD applications, and safety 
plans. To give you a sense of what that means, for now, it has 
been taking FRA 10 to 100 days to review a test waiver, but the 
safety plans are 5,000-plus pages, and they told us that they 
won't be able to review more than two or three a year. So if 
you do the math, that's pretty much a heavy lift.
    And also it means the FRA needs to think about, you know, 
what do they do? Do they then target the railroads that carry 
the most passengers, work with them? Do they work with the 
railroads that are close to being there and push them over the 
hump? Or do they target their resources to work with the 
railroads that are really struggling and may need more 
handholding and some assistance so that they can kind of tackle 
some of these challenges?
    Senator Klobuchar. Mm-hmm. And what do you think they 
should do?
    Ms. Fleming. We are going to leave that up to them because 
I think--you know, there are 12 PTC experts right now, and I 
know FRA is looking to hire a few more. You know, we've heard 
that the individualized, you know, attention, that one-on-one, 
has been great, but there are only 12 folks, and there are a 
lot of railroads that could use some guidance. And the other 
recommendation really speaks to the fact that, again, it's more 
of an informal reactive approach, and we think that the 
downside of that is that there could be inconsistent 
information be relayed, maybe even inaccurate information.
    So they need to, at this juncture, have more of a 
systematic communication with all the railroads in terms of, 
what are they looking for in terms of the criteria, the 
application process and the criteria for the extension. How are 
they planning to review and approve these? I think railroads 
just need a lot of good information right now.
    Senator Klobuchar. OK. Mr. Anderson, a different topic that 
I don't think has been focused on very much, and that's rail 
crossing safety. And I know that you mentioned that in 2017 
there were 1,880 grade crossing accidents. And while PTC we 
know is very crucial safety technology, it's not always 
equipped to handle those kinds of incidents at all, and we've 
had a few of these in our state.
    So what is Amtrak doing to address rail crossing safety?
    Mr. Anderson. In our legend grant, we support the Federal 
Highway program, which allocates about $250 million a year for 
investment in rail crossing safety. This is the single biggest 
safety issue for rail in America. Over 250 to 300 deaths a 
year, and completely preventable with the right infrastructure 
investment in rail crossing, and I think the work that the FRA 
historically has done has been quite successful in terms of 
driving down accidents at rail crossings. So it's something 
that is a solved problem, we just have to put the investment in 
the infrastructure.
    Senator Klobuchar. So you would like to see investment help 
with that.
    Mr. Anderson. We did. We put it in our legend grant request 
and endorsement of the Federal Highway programs for more 
investment in grade crossings. What we should do is just a 
Pareto analysis of the highest risk to the lowest risk, and 
then just target investment after investment after investment 
to just drive the number down.
    Senator Klobuchar. OK. And by the way, thanks for your 
leadership. I know there's a lot going on, and I appreciate you 
stepping up.
    Mr. Anderson. Thank you, Senator.
    Senator Klobuchar. Thank you.
    Mr. Anderson. Good to see you.
    Senator Klobuchar. Good to see you. You still live in my 
state, so there you go.
    Mr. Anderson. I still do part-time.
    Senator Klobuchar. He still does, yes. He loves our state 
even when it's one degree.
    [Laughter.]
    Senator Klobuchar. Mr. Mayer, coming from a border state, 
and as Co-Chair of the Canadian-U.S. Inter-Parliamentary Group, 
I'm concerned about the level interoperability of rail safety 
technology with Canadian rail operators, who have had a few 
issues. Do you want to just briefly comment on this so I can--
Mr. Mayer? Thank you.
    Mr. Mayer. We don't operate up into Canada, but 
interoperability is extremely important to us. We should 
track--we should corridor with Amtrak. Long Island Rail Road 
operates over Amtrak tracks into and inside of Penn Station, 
and our New Haven line on Metro-North territory functions as 
the Northeast Corridor that Amtrak operates over. And so we are 
committed to interoperability. We will be interoperability when 
we bring PTC online, and we will find a way to continue to 
operate together safely and legally.
    Senator Klobuchar. All right. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Udall, then Senator Blunt.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairman Thune and 
Ranking Member Nelson, for convening this hearing. We all know 
there have been a number of accidents that could have been 
prevented if appropriate safety measures had been in place, and 
I think several of you have highlighted that in your testimony. 
But even the best technology cannot prevent human error, both 
on trains and abandoned vehicles on tracks.
    I'm concerned about the ability of small commuter railroads 
being able to sustain the cost for full implementation of 
positive train control. However, every railroad, commuter or 
freight, must operate with high safety standards to ensure the 
protection of the public and the protection of railroad 
employees.
    Ms. Fleming, are low-risk railroads, like the Rio Metro 
Rail Runner in New Mexico, able to operate safely under a risk 
mitigation plan and without positive train control until they 
are able to have a system operational?
    Ms. Fleming. So what the risk mitigation strategy would lay 
out, it's a plan for operating trains that would fall below the 
threshold that requires positive train control. So it wouldn't 
necessarily provide the same benefits as a fully operational 
PTC system. And it allows the railroad to have a grace period. 
So it basically allows them to operate under that plan, but 
ultimately they still would be required to implement PTC at 
some point.
    Senator Udall. Thank you for that answer.
    Mr. Anderson, in your testimony, you outlined the ways, 
including training centralization, that Amtrak is improving its 
safety culture. This is essential to ensure the safety of 
workers and passengers alike. Can you clarify the timeframes 
when these various actions will be operational?
    Mr. Anderson. Thank you for the question. And I would start 
out by offering that we have very--a really good workforce of 
conductors and engineers that work really hard to operate a 
safe railroad. We are--right now I hired an Executive Vice 
President and Chief Safety Officer from the aviation industry, 
reports directly to me, and it is a daily process now at 
Amtrak. We have already implemented our new signal suspension 
policies. We will shortly have completion of our engineer 
qualification on new routes to address the issues that we had 
in 501 out in Washington. So it's an ongoing process.
    I will say that the SMS program, which is in an NPRM right 
now with FRA, has a deadline of November, and we plan on filing 
our SMS plan well in advance of November. This is imperative. 
It's the single biggest priority we have at Amtrak right now.
    Senator Udall. Thank you.
    And, Mr. Mayer and Mr. Anderson, cybersecurity protection 
measures are extremely important for all businesses, but 
especially for transit systems, where a cyber intrusion could 
cause death or extreme property destruction. What are the steps 
that you are taking to prevent cyber attacks? And if you cannot 
provide a complete answer now, you're welcome to respond in the 
record.
    Mr. Mayer. I can certainly tell you a little bit about 
cybersecurity. First of all, I would point out that PTC is a 
layer onto the engineer, so it can slow or stop trains, but it 
is not a remote control capability for trains. So there's a 
limited protection there just in the basic functionality. That 
said, the FRA has strict cybersecurity rules for PTC 
implementation, and I know our railroads are working very hard 
with Amtrak as we implement a secure PTC solution. Amtrak was 
the recipient of a grant from the FRA for cybersecurity 
development for PTC. The consortium of railroads that are all 
designing around the Amtrak system are working very hard to 
ensure that our systems are secure, and we are using industry 
best practices and NIST-approved encryption to roll this 
technology out.
    Senator Udall. Great. Mr. Anderson, I assume you agree with 
most of that, right?
    Mr. Anderson. I agree, and I'd like the chance to come 
brief you because we have a lot of work underway on this.
    Senator Udall. That would be great.
    Just a quick final question. Each railroad system has 
determined which PTC technology it will use. And there was no 
Federal coordination in selecting software use. Can each of you 
address how your systems will ensure that the technology 
installed will be interoperable across technology platforms and 
rail systems?
    Mr. Mayer. The--Amtrak has been using its system for a 
number of years, and so the railroads that interoperate with 
Amtrak have chosen to develop systems that are based on the 
Amtrak solution. Now, that's been a challenge. We've been able 
to use about a third of the Amtrak solution right off the 
shelf. Another third has needed a major rewrite. And a final 
third is a complete ground-up software development project. But 
that said, because we are all based on a common platform, and, 
quite frankly, because our engineers and our technical staffs 
speak with each other on a daily basis, we are confident that 
we will arrive at an interoperable PTC solution across our 
different railroads.
    Senator Udall. Great. Thank you very much.
    My time is exhausted. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Udall.
    Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Mr. Chairman.
    Let's follow up on Senator Udall's question a little bit.
    Mr. Anderson, you mentioned, I think, that you use 20 
different railroads' track and three different systems--let's 
follow up on what that you were asked and what Mr. Mayer sort 
of commented on that. How do you make that work? Is there a 
reasonable way to make those three different systems work? And 
do you have the same equipment running on tracks where there is 
more than one system? And just tell us a little bit about that 
challenge.
    Mr. Anderson. OK. So in the Northeast Corridor, it's an 
Amtrak-developed system because of the speeds that operate on 
the Acela, and it's called ACSES, and ACSES is the standard in 
the Corridor. The freight railroads that operate in the 
Corridor have to operate with ACSES, which is the Amtrak system 
that's been around for a while, but they have also have 
something called ETMS, which is the standard that the Class 1 
freight railroads have established around the country, so 
they're dual-equipped.
    Because we run on catenary in the Corridor, the ACS-64 
locomotives are electric, they stay in the Corridor. So that 
equipment is dedicated there. In Michigan, we have a different 
system, ICTS, because we run at higher speeds with passenger 
rail, and that is just for the folks that operate or the 
railroads that operate on the line zoned by Amtrak in the state 
of Michigan--three routes in Michigan. We tend to have 
dedicated locomotives rather than dual equipping----
    Senator Blunt. And as long as you do that, do you think 
that creates a long-term ability for you to deal with the 
different systems on the different railroads----
    Mr. Anderson. It does.
    Senator Blunt. Different equipment is the answer?
    Mr. Anderson. Well, ultimately, you would like 
simplification in a single piece of equipment because if a 
locomotive breaks down and you have another locomotive there, 
you want to be able to substitute it, but if it doesn't have 
the right equipment on it, you're not going to be able to. So 
ultimately we will probably go through a process of dual 
equipping, but for now, the way you can get to the deadline is 
have--which we sort of dedicate different types of equipment to 
different regions anyway. It will work practically for us to 
have the third EMTS, which is the--I don't know if I got the 
acronym right--is the system that the Class 1 freight railroads 
use around the United States.
    Senator Blunt. And how does the back office server relate 
to all of this?
    Mr. Anderson. The back office server is basically a 
computer system that for Amtrak is operated by Rockwell 
Collins. Rockwell Collins bought something called ARINC, which 
is the company that connects airplanes in the sky, and----
    Senator Blunt. You know something about that, too.
    Mr. Anderson. Well, yes.
    [Laughter.]
    Mr. Anderson. Yes, I do. And so Amtrak, because we had to 
federate, that is, have interoperability with so many 
railroads, and on two different systems outside the Corridor. 
ACSES doesn't have to federate, so ACSES in the Corridor runs 
standalone. The other two, we rely on Rockwell Collins to 
operate the basic server farm to federate all of the other 
railroads that we operate on and to operate that server farm 
for us so that the trains and the dispatchers all communicate.
    If I were going to suggest one thing for the Committee that 
could accelerate all this, get the presidents of Alstom, 
Siemens, Wabtec, and Rockwell Collins, and put the four of them 
right here because much of this technology that we're talking 
about depends upon software development and hardware 
development by those OEMs, and that's--those are the--those are 
probably the biggest critical dependencies right now.
    Senator Blunt. Thank you. Maybe the Chairman took down 
notes as to future hearings we could have on this.
    Mr. DeWeese, you mentioned that there was a substantial 
lack of drawdown by some of the railroads on the money that 
they have access to. Are you evaluated in any way from that? 
What would be a reasonable amount of money still to be left 
where they could be done by the end of the year? And what 
clearly is a recipient of funds that has not drawn down funds 
that would relate to them complying with the goal? Is there any 
way there you're following up with the railroads that aren't 
drawing down the funds they need?
    Mr. DeWeese. I certainly think that the level of 
expenditure is an indicator of something. You know, the scope 
of our work, as I mentioned, was really trying to piece 
together the puzzle of who got the money, you know, where did 
it go, and sort of what is the level of expenditures and what 
did they spend it on?
    You know, our--we didn't do a deep dive into spending 
habits. We didn't dive into the spending rates. It's a function 
of many different things. It could be when they got the money. 
So even though there is zero percent expenditure, it could be 
that they only recently received their funds. We didn't do any 
analysis to really show in the time that we had that even 
someone who had spent 80 percent of their funds is going to 
meet the deadline versus someone who has not spent that level 
of funding.
    It depends on the size of the railroad. It depends on the 
types of projects, the size and scope of the projects that 
we're talking about. Some railroads may have one project, and 
they were able to spend their money quicker than another 
railroad that may have multiple projects. So it's a function of 
many different things.
    And I think just the level of effort that it took, you 
know, my team to really piece together the funding angle, we 
really weren't able to do a deeper dive into some of the issues 
that you're talking about, but I do think it's an important 
one.
    Senator Blunt. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blunt.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    And thank you to our witnesses for being here today to 
discuss what is truly a very critical issue, and it's very 
personal to me as well. On May 12, 2015, a very--some close 
friends of mine, Gilda and John Jacobs, lost their daughter 
Rachel on an Amtrak 188 derailment in Philadelphia, and she 
sent a letter to the Committee for Committee members. And, Mr. 
Chairman, I would like to enter this letter into the record 
with unanimous consent.
    The Chairman. Without objection.
    [The information referred to follows:]

                                                  February 28, 2018

Dear Committee Members:

    As we do often, this weekend, my husband John and I visited the 
grave of our daughter Rachel. And each time I go, I cry for her, her 
now 5 year old son Jacob, her husband Todd, and my daughter, Jessica. 
We all lost a part of ourselves, and our family, and the world mourns 
her loss as well.
    Rachel's life and the lives of 7 others were needlessly cut short 
when the AMTRAK train they were riding on derailed May 12, 2015. And it 
could have been prevented had PTC been installed and activated on the 
tracks and train. It has been almost three years and yet more trains 
have derailed, others passengers have died, and scores of others have 
been injured. And yet PTC has not been installed or activated on all 
passenger trains in our country. My anger is seething.
    I want to quote the testimony of AMTRAK's CEO to the House of 
Representatives' Transportation and Infrastructure Committee a few 
weeks ago, in which he told Congressional members: ``[A]s a matter of 
U.S. policy, PTC should be required for all passenger rail trips in 
America.'' I agree wholeheartedly. Unfortunately and inexplicably, that 
has not occurred.
    I recognize that the Federal deadline is in place for the 
implementation of PTC by the end of this year, with a potential 
extension with FRA approval to the end of 2020. The railroad lobby has 
been successful in extending the date for compliance once already and 
will likely seek further extensions from you in the coming months. This 
is totally unacceptable, wrong, and those requests should be denied. 
Thousands of lives are in danger every single day and every hour that 
passenger rail trains are permitted to continue to carry passengers on 
rail lines that are unsafe. The passengers on board those trains could 
be your child, your spouse, your mother, your colleague, your office 
mate, and, as we saw again last month in Crozet, Virginia, you as 
members of Congress.
    I, for one, will never step foot on an AMTRAK train, nor should 
you. They are clearly unsafe until this life-saving technology is 
implemented. Without PTC, the question is now if another train 
derailment will occur, but when. In fact, I believe that Congress 
should mandate that passengers be informed whether or not PTC is 
installed and activated on a train before a passenger boards a train 
until all trains are in compliance.
    Before my current job as CEO of a public policy nonprofit, I spent 
30 years in local, county, and state government as an elected official. 
I have held leadership positions in my caucuses, passed legislation, 
knocked on thousands of doors, and met with thousands of people over 
the years. I have been held accountable for my actions and the actions 
of my colleagues. And that is the way it should be.
    Yet the inaction of Congress, the lack of oversight and 
accountability, and the failure to insist that passenger trains 
accelerate the installation and implementation of safety equipment have 
caused more death and human destruction. The responsibility of this 
oversight rests on the shoulders of each and every senator and 
representative who took an oath to serve the public.
    Please step up to do what is right. Don't let my daughter's death 
be in vain. Please protect the public from deadly foot dragging. Do not 
let the railroad lobby convince you that it is too costly or too 
difficult to do the right thing now.
    There are human lives behind the decisions and indecisions you 
make.
            Sincerely,
                                            Gilda Z. Jacobs

    Senator Peters. Thank you, Mr. Chairman.
    And I think it's important. It's a letter that will be 
entered into the record, but I would like to read the first two 
paragraphs, if I may, for the Committee members.
    ``Dear Committee Members,'' and this is written by Gilda 
Jacobs, ``as we do often, this weekend my husband, John, and I 
visited the grave of our daughter, Rachel. And each time I go I 
cry for her, her now 5-year-old son, Jacob, her husband, Todd, 
and my daughter Jessica. We all lost part of ourselves and our 
family, and the world mourns her loss as well.''
    ``Rachel's life and the lives of seven others were 
needlessly cut short when the Amtrak train they were riding on 
derailed May 12, 2015, and it could have been prevented had PTC 
been installed and activated on the tracks and train. It has 
been almost 3 years, and yet more trains have derailed, other 
passengers have died, and scores of others have been injured, 
and yet PTC has not been installed or activated on all 
passenger trains in our country. My anger is seething.''
    I think we can all relate to that and share that anger as 
well.
    Mr. Anderson, I know you're new in the position at Amtrak, 
and I know you care deeply about each and every passenger that 
rides on your train as well, and you've expressed that here 
today as well as in a previous hearing. But I think your 
viewpoint on this is particularly insightful now, coming from 
the airline industry, and I know as a leader in the airline 
industry, you focused on safety, and the airline industry now 
has an enviable record when it comes to safety.
    You have always given very candid assessments of the 
situation. I'm going to ask you to give a very candid 
assessment today. As you come into this industry and you look 
at how PTC has not been moving forward, the industry 
continually comes forward, says, ``We need more time,'' ``We 
need more time,'' what do you think is going on, and why has 
the railroad industry not been able to do this when we have 
seen successes in aviation?
    Mr. Anderson. I think, speaking for passenger railroad and 
being new to Amtrak, is what I said in my remarks, which is we 
tend to think of ourselves as a freight railroad that carries 
passengers rather than a world-class passenger railroad modeled 
after the great passenger railroads around the world. And when 
you take that approach and you take the approach that we had in 
aviation with the SMS systems that have been at the core of 
driving the improvements in aviation--and how the SMS systems 
in aviation got started was in the mid nineties, there were a 
series of accidents from about 1993 to 1997, and as a result of 
that, we made huge investments in technology and in SMS 
systems.
    And I think what we have to do in the industry is stop 
thinking of ourselves as an extension of the freight railroad 
industry. They do a really good job, and their safety record is 
improving, but we carry passengers, and that's a much higher 
standard of care. And I don't think the industry has focused on 
having that same commitment to safety management systems and 
compliance.
    Senator Peters. So they haven't had the commitment. Do you 
believe they've had the time to do that?
    Mr. Anderson. I believe we have had the time. I mean, we 
went through these sorts of exercises in aviation with 
controlled flight into terrain, wind shear warning systems, 
collision avoidance systems in midair, which were the three big 
drivers of issues in aviation. All three of them got solved 
with technology that we installed in the cockpits of all 
airplanes.
    Senator Peters. So the industry has had the time, they've 
have an extension, they may be asking for more time, as we 
heard from Ms. Fleming, half of the railroads aren't going to 
be compliant, but yet there seems not to be a focus. And it 
doesn't seem to be a resource issue.
    Mr. DeWeese, you mentioned that many of them have not--in 
fact, only a few funding recipients have used their PTC funds. 
So they're not spending the money. They have the time. Then is 
this a question of commitment? And if there's a lack of 
commitment, that is a serious, serious problem, when we have 
people dying on our railroads. So the industry is going to need 
to answer to that.
    Thank you.
    The Chairman. Thank you, Senator Peters.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    And I want to thank the Chairman for his very strong words 
and strongly expressed admonition at the beginning of this 
hearing about the urgency of this system and his stated 
intention to contact appropriate Federal authorities about the 
GAO report. In fact, I was very disappointed in a response from 
the Secretary of Transportation to a letter that I led with 14 
of my colleagues demanding answers regarding DOT's enforcement 
plan about positive train control. All she really said was that 
the Department was, quote, considering all options.
    The industry needs to know that there will be penalties, 
that enforcement will be rigorous, that, in effect, there will 
be no tolerance for delay, and that the six criteria that have 
to be met are not some expanded timeline, they are conditions 
that will be interpreted narrowly and specifically. If they 
have no such warning, then the prediction made by one member of 
the Long Island Rail Committee just last week, Mitchell Pally, 
said he would be, quote, significantly surprised if DOT and FRA 
levy fines in the event of a failure to meet the deadline. If 
that's the mindset of the industry, it will be a self-
fulfilling prophesy, and we cannot allow an additional delay 
after all these years.
    I was really alarmed, Ms. Fleming, by the GAO report, which 
said that there was a risk, to use your word----
    Ms. Fleming. Mm-hmm.
    Senator Blumenthal.--of two-thirds of the commuter 
railroads failing to meet those deadlines. I am not sure what 
you meant by ``risk,'' but for me, it means that on the present 
trajectory, they will not meet those deadlines because of the 
information and data that you provided in the report.
    With respect to MTA, last week MTA's project lead for PTC 
implementation, Debbie Chin, announced, quote, Our plan is to 
get it done by the end of the year. But Metro-North also 
announced that you're just 61 percent complete overall, leaving 
many of your customers--and I am a very active one, in fact, 
I'm going to be riding the train home tonight hopefully--
whether, in fact, you're going to meet the deadline.
    I would like a commitment from you that you will meet the 
2018 deadline, and that Metro-North will have positive train 
control implemented, in operation, by then.
    Mr. Mayer. Senator, first of all, our schedule calls for us 
to meet the deadline. We believe our schedule is achievable, as 
Ms. Fleming testified, and as we agree, there are significant 
schedule risks, but right now, it's our intent and our plan to 
meet the deadline.
    I testified earlier that on the railroad that you and I 
both ride on a frequent basis, we have over--thanks to 2 years 
of testing, we have cut in civil speed enforcement capabilities 
on all of the Metro-North lines, and later in the month, we'll 
be enforcing speed limits, and that's incremental----
    Senator Blumenthal. You would agree with me that this 
technology has been proven over the years?
    Mr. Mayer. No, sir. It's not off-the-shelf technology. It 
hasn't been proven. We're proving it every day of the week that 
we test it and build it.
    Senator Blumenthal. And what would prevent you from 
achieving that end of your deadline?
    Mr. Mayer. Our most important challenges are the delivery 
of software. There's been a lot of talk here about office 
software to make the portions of the PTC system that are 
dependent on software communicate and operate. So our biggest 
challenge is software. And we also heard some discussion from 
Ms. Fleming about the time it may take the FRA to approve the 
applications.
    Senator Blumenthal. This system has been implemented 
elsewhere, correct?
    Mr. Mayer. Our operations are very different than 
elsewhere. We are the densest railroads in the country.
    Senator Blumenthal. But the same kinds of systems should be 
applicable regardless of how dense the systems are, wouldn't 
you agree?
    Mr. Mayer. No. The railroads, although we look very 
similar, we are extremely different in signal systems, 
communication capabilities, and operational control.
    Senator Blumenthal. And are you on a path to completing 
whatever software issues have arisen?
    Mr. Mayer. We believe so, sir. That's a major deliverable 
from our systems integrator, and we have encouraged them to 
hire staff. Our own engineers are assisting with them. They are 
reaching out to programmers around the world and are doing 
everything that we know how to motivate them to deliver.
    Senator Blumenthal. Is that the major obstacle to your 
completing the system on time?
    Mr. Mayer. Yes. If we were testifying a year ago, we might 
talk about hardware and delivery of that, but the main obstacle 
that we're facing is software and ultimately FRA approval.
    Senator Blumenthal. Well, I would like a detailed report 
and a meeting with Metro-North on those obstacles, what you are 
doing to meet and overcome those obstacles, what resources, if 
any, additionally are necessary, and why you would not meet the 
end-of-year deadline? I don't want to hear in 6 months that 
you're not meeting it.
    Mr. Mayer. We look forward to meeting with you, Senator.
    Senator Blumenthal. And I might just say, finally, this 
system, positive train control, is not a new system. It is a 
proven technology. It has been around for years and years. 
There may be software challenges in Metro-North's sphere, but 
those challenges also have been around for years and years. 
It's not like we're discovering a new planet here or a new kind 
of equipment. I think, in my view, and, frankly, in the view of 
many of your customers, there will be no excuse for Metro-North 
failing to meet that 2018 deadline.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    Ms. Fleming, in your testimony, you noted that the field 
testing phase can be a long and difficult process. In your 
discussions with Class 1 and other railroads, can you talk 
about some of the events or unseen circumstances that could 
delay and extend field testing or revenue service 
demonstration? Can you elaborate on some of that?
    Ms. Fleming. So the six railroads that are at RSD, for 
them, the average was 7 months, but FRA's estimate is field 
testing could take an average of 2 years. And I think until you 
go through that, you don't know what bugs there will be and how 
to work through that.
    Some railroads have made the tough decision to suspend 
operations and to conduct that testing around the clock. So I 
think, you know, you don't know kind of what you're going to be 
coming up against until you start going through that. So I 
think each railroad, it has been kind of a tricky phase of 
implementation.
    Senator Fischer. Can you give us some examples, though, on 
what events could delay that implementation? What are some of 
those unseen circumstances that delay it?
    Ms. Fleming. You know, can I provide that for the record? 
Because I think I'm going to have to go through our work papers 
a little bit more and get some good examples for you.
    Senator Fischer. OK. That would be great. Thank you.
    Also, the FRA appears to be taking an approach to PTC 
implementation that says railroads that have completed all PTC 
component installation and actually operate PTC for trains 
across their networks cannot be considered fully PTC-compliant 
and, therefore, must request a PTC extension because of the 
slower progress of other railroads to use their network. In 
other words, a railroad that finishes everything within their 
control would need to file for an extension even if they were 
using PTC for their trains and have the capability of 
communicating with other railroads.
    Do you believe that the FRA may consider a railroad fully 
implemented, not when the railroad itself has met the 
requirements within its control, but when all operations on a 
track are PTC-compliant regardless of who is responsible?
    Ms. Fleming. To be honest, it's unclear, and I think that's 
another area where FRA really needs to articulate, what does it 
plan to do come January 2019? We've asked them, and we didn't 
get a satisfactory answer. And I think it's important 
information that the railroads need to understand. What does 
that mean come January, if you've kind of dotted your i's and 
crossed your t's, but some of the other folks that you share 
tracks with haven't? And I think they owe it to the railroads 
at this point, since we're approaching the deadline, to answer 
some of those questions that railroads have.
    Senator Fischer. Do you think there would be benefits if 
the FRA, instead of the railroads, to be quoted, early 
adopters, if they're allowed and reasonably comply with the law 
beginning in 2018?
    Ms. Fleming. You know, again, I think that's something the 
FRA should consider and to think about. Does that make sense? 
Does that meet their criteria?
    They also, quite frankly, have at their fingertips where 
they can use alternative criteria that is not RSD-based, and I 
think that's another area that railroads are like, ''Well, what 
does that look like? What does that mean?`` And so FRA, I 
think, needs to, you know, work with the railroads and try to 
help them understand, what are examples of that? what would 
meet their threshold?
    So they have some options at their fingertips, but they 
haven't done a good job of articulating what that means.
    Senator Fischer. Do you have any suggestions on how we can 
encourage FRA to do that?
    Ms. Fleming. I think the Chairman announced today that he's 
planning to send a letter, and I think that may be a good 
opportunity to seek out some of the clarifications that we all 
have.
    Senator Fischer. Thank you.
    Mr. DeWeese, in your report, you noted that two commuter 
railroads utilize the Railroad Rehabilitation and Improvement 
Financing loans to implement the PTC technology. However, those 
programs--the program has billions in loan authority provided 
by Congress that could have been used for PTC. So why is the 
RRIF funding not being used more extensively for positive train 
control?
    Mr. DeWeese. Thank you for the question. It wasn't a 
question certainly that we asked as part of the scope of this 
effort, but we have done work in this before in the last few 
years, and I think it's a number of factors that are at play 
here. I think it could be the lengthy application review 
process. As you know, that can go anywhere from 90 days to 
many, many months. It can also be the costs that are involved. 
I mean, there are loan application fees and credit risk 
premiums that have to be paid, and that could be--that could 
discourage some of your smaller commuter railroads for applying 
for these loans.
    The Class 1s may rely on their capital budgets to be able 
to finance, you know, some of the investment projects, so you 
may not see them, you know, applying for these loans. But we 
certainly reported years ago that, you know, a way to 
streamline the process. The Build America Bureau, you know, 
sort of was intended to consolidate all these credit programs 
and to streamline the process and put procedures in place. I 
think that's to be determined, quite frankly. And, you know, we 
have work that we're going to be planning. I know GAO, too, is 
going to be looking at the Bureau. So maybe together we'll be 
able to figure that out and look at how they plan to do 
oversight of these programs.
    Senator Fischer. OK. Thank you very much.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Fischer.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you. And I guess members of the panel 
realize that many members of this Committee have two other 
hearings scheduled at the same time, and so we've been coming 
in and out. But thank you for your patience and being here.
    Let me just observe generally. We've had some pretty 
explicit statements on the part of the Committee Chairman and 
also the Ranking Member, and I understand the testimony today 
has not been particularly encouraging about our ability, our 
collective ability, to have this requirement fulfilled by the 
end of the year.
    I do think the Chairman and Ranking Member's statements 
indicate that, on behalf of the Congress, they're trying to say 
that patience is running out. And, I mean, clearly we're going 
to try not to shut down train traffic around the country at a 
date certain, but we need whoever to understand that we need to 
get the attention of those responsible and get a timetable that 
will work and avoid, if I might say, a train wreck coming 
either figuratively or literally. So I thank Chairman Thune and 
Ranking Member Nelson for going ahead and being explicit there.
    I might as well ask about an area of particular importance 
to me, which is Amtrak from Mobile to New Orleans.
    You know, the Southern Rail Commission, Mr. Anderson, had 
hoped for a longer route, and it seems, though, that the real 
interest there and the real possibility for making it work 
sooner is to take this real heavily populated area, I mean, 
Mobile is a major city. The gulf coast of Mississippi is 
heavily populated. And New Orleans, of course, is one of the 
major cities of the South in terms of population and potential 
traffic. So the Commission has trimmed its proposal to that.
    And so I'm just hoping that you can give me some 
encouragement about making that actually work. I think if the 
schedule can accommodate passengers and accommodate the public, 
and if the trains are reliable and they run on time, this could 
be a winner because the population is there.
    So how is PTC going between New Orleans and Mobile? When 
will it be complete? What impact will it have on Amtrak? And 
also I understand you talked about this, but are we OK with the 
interoperability of the freight and passenger technology on 
PTC?
    Mr. Anderson. The interoperability piece with the four 
large Class 1 freights is going well. We've actually federated 
or are in the process of what's called federating, which is 
hooking our system up to their system so it speaks to our 
locomotives. That process is going well, particularly well with 
BNSF and Union Pacific; they've been real leaders. And it----
    Senator Wicker. Not particularly well with whom?
    Mr. Anderson. Well, it's going--it's going better with them 
because they're moving along, but Norfolk Southern has done a 
good job with us, and we still have some work to do with CSX. 
So----
    Senator Wicker. We certainly want to encourage CSX to be 
part of that----
    Mr. Anderson. We do. Now, let me get to your question. 
Look, I actually think that well-timed, well-run service 
between New Orleans and Mobile is a winner, especially if it's 
both ways, three times, four times a day. Those are big 
population centers. I'm from the gulf coast. I live on the gulf 
coast. So I'm familiar with that part of the world. It would 
work.
    The problem is until our preference rights and incremental 
cost rights under the 1971 statute that created Amtrak are 
properly enforced--you know, right now the question for 
reintroduction of that service from CSX was $2 billion.
    So the challenge we have in all of these markets where we 
have routes like that that make good sense, we've never been 
able to get the preference right that Amtrak has on the 
freights enforced, and we've never been able to really get them 
to think straight about true incremental costs because that's 
what Congress said in 1971.
    Senator Wicker. You say the law is there, it's just not 
enforced?
    Mr. Anderson. It has never been enforced.
    Senator Wicker. And whose responsibility is it to enforce 
that law?
    Mr. Anderson. Hopefully yours.
    Senator Wicker. Well, we are the legislative branch. Who 
is--what is the enforcement office?
    Mr. Anderson. STB.
    Senator Wicker. OK.
    Mr. Anderson. And we'd like a private right of action under 
the statute.
    Senator Wicker. So the statute would have to be amended. 
The law is there, but it's not as you would like it to be.
    Mr. Anderson. The law is there, but since 1971, there has 
never been any effective enforcement over the preference 
action. That's why the long distance service that Amtrak runs 
at massive delays.
    Senator Wicker. And so the Surface Transportation Board, if 
they were of a mind to, could enforce it as an agency, but you 
would like some sort of cause of action provided for in the 
statute.
    Mr. Anderson. Correct.
    Senator Wicker. Thank you, sir.
    The Chairman. Thank you, Senator Wicker.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chair.
    And like Senator Wicker, I appreciate your patience with us 
coming in and out. That's why your testimonies are so 
important. Your written testimonies as well are very helpful. 
And thank you for being here today.
    I know that my colleagues who manage the congressional 
transportation appropriations, namely, Senators Collins and 
Reed, have recently written to Secretary Chao about the need to 
get moving and spending down millions in Fiscal Year 2017 
funding to help facilitate progress on the PTC at the FRA. As a 
matter of course, the FRA reported to our staffs that there are 
only eight railroads with conditionally certified PTC safety 
plans, four more under review, and more than 25 who haven't 
even submitted.
    So, Mr. Anderson or Mr. Mayer, what is the average size and 
complexity of either these PTC safety or implementation plans 
generally? Can you talk about that?
    Mr. Mayer. So our railroads have submitted PTC 
implementation plans. Our next step will be in the months ahead 
as we submit revenue service demonstration applications. And, 
as Ms. Fleming testified, they are extremely complicated, long 
documents. But we are running tests now, collecting data, and 
making plans to be able to file those applications. We've also 
had recent interactions with the FRA that's helped us to 
understand exactly what's going to be required of us.
    Senator Cortez Masto. And so talk a little bit about that 
because, how long does it take? Does it take the experts at the 
FRA a while to review and certify them?
    Mr. Mayer. For our revenue service demonstration 
application, we have allowed 8 weeks in our schedule, and the 
FRA has told us they will make every effort to do that, but we 
will need them to hold up that end in order to be able to stay 
on schedule.
    Senator Cortez Masto. And is there a time-frame that you 
can point to that normally this takes to get through it?
    Mr. Mayer. We've never been through it before, so I can't 
answer that.
    Ms. Fleming. I can answer that.
    Senator Cortez Masto. OK, please.
    Ms. Fleming. For test waivers, it's taking FRA anywhere 
from 10 days to 100 days, but for the safety plans, which can 
be 5,000 pages or more, they said they can only review two or 
three a year.
    Senator Cortez Masto. OK. OK. Thank you.
    So let me follow up. Ms. Fleming, your testimony also 
underscored the fact that the FRA lacks a clear extension 
review and appeal process. So then I would ask Mr. DeWeese and 
Ms. Fleming, can you outline the progress that you've seen in 
staffing up the necessary personnel and experts internally at 
the FRA and whether it has been sufficient to help facilitate a 
faster progress on certification of PTC on the national network 
where it's required?
    Ms. Fleming. So my understanding, there are 12 PTC experts 
right now. That's not a lot, particularly given that we see in 
the next 10 months plus going into next year their workload and 
capacity really coming into play. They're going to be starting 
to get the test waivers, the RSD applications, the safety 
plans. So we have suggested that they really consider 
prioritizing, having a risk-based approach, figuring out, 
``Where do we put the resources? What's the best bang for the 
buck? Do we go after the railroads that have the largest 
passengers? Do we go after the railroads that are really 
struggling and have a long ways to go? Do we go after the 
railroads that maybe just need a push to go over the wall?''
    And so we leave it up to them, but we really think, you 
know, with just having 12 people in-house, with all of these 
documents and approval processes coming their way, they're 
going to really need to think about their approach.
    Senator Cortez Masto. And has the administration's hiring 
freeze had an impact on why there are only 12 people in-house?
    Ms. Fleming. You know, I think it has been this way for a 
while. This is--it's hard to get these folks. There are a 
limited number of PTC experts out there.
    Senator Cortez Masto. OK.
    Ms. Fleming. And so I just don't think that there's a long 
queue of people that you can draw from.
    Senator Cortez Masto. OK. And can I ask--I know I've heard 
the narrative that there is some--plenty of Federal funding has 
been made available to the railroads, and we've heard that 
today, and we're not making fast enough progress on PTC.
    Mr. Mayer, would you agree with that sentiment?
    Mr. Mayer. Yes. We are grateful for the RRIF loans 
sponsored by the FRA in the State of Connecticut and the State 
of New York. We have a significant amount of money available to 
us to complete our work. We have submitted invoices in the 
amount of about a third of those funds and will draw down and 
then begin to pay back that loan.
    Our problem, honestly, is not really money, and more money 
wouldn't help us move faster. Our bottleneck is, as was just 
alluded to, the lack of qualified talent, the lack of PTC 
expertise. Every railroad in the country is looking for that 
same small pool of talent, and we're working with our systems 
integrator to creatively tap the talent that exists to help us 
develop the software that's necessary.
    Senator Cortez Masto. Thank you. I appreciate that.
    I notice my time is up. I'll submit the rest of my 
questions for the record.
    Thank you again for being here.
    The Chairman. Thank you, Senator Cortez Masto.
    We have others here. I would like to just, if I might, ask 
a question and maybe direct this, principally at least, to Mr. 
Mayer and Mr. Anderson.
    But we've talked a lot about the role of the FRA in this, 
and I'm wondering what additional guidance or information, if 
any, from FRA would be helpful for you as you continue to meet 
the implementation requirements?
    Mr. Mayer. You know, as I just mentioned, we have recently 
received some clarification and some informal assistance from 
the FRA to help us understand the road ahead for us. It has 
been very helpful.
    Our main concern at this point is FRA resourcing to 
receive, process, and approve our revenue service demonstration 
application. The time-frame is going to be very tight, but if 
there's anything that this Committee can do to help them tap 
into additional resources, either new hires or perhaps even 
talent within the Department of Transportation and other modal 
administrations, that may be helpful.
    Mr. Anderson. I agree with that. You could have everything 
installed and be operating in revenue service, but we've got to 
truncate that time that FRA is going to take in order to 
certify because if it's 6 to 8 weeks at the end, that's--you 
know, we're 10 months out. That's number one.
    Number two, Ron Batory is leading an effort industrywide to 
have everyone in on a regular basis in his office where we go 
through, hours at a time, line by line, installations all over 
the country in that effort. He needs to--he's done a good job 
of it, and he's got to spearhead it for the whole industry.
    The Chairman. Unfortunately, he should have been there 
about 6 months ago in the job, but I've heard this reiterated, 
in response to questions that have been posed by members of the 
Committee, but this is a very complex and challenging 
undertaking, we all agree with that. But it sounds like, if I 
heard correctly, the most challenging aspect remaining for full 
implementation is software. At least that's okay. And it sounds 
like you've talked a little bit about how you plan to overcome 
that challenge. Good.
    Anything else to add before we wrap up?
    Mr. Mayer. You know, one thing that I would add--and thank 
you, Senator--is, you know, we've heard a lot about commitment. 
We understand that this Committee and the Congress in general 
is committed to PTC implementation. We heard a little talk 
about the MTA board of directors.
    I would want to end by pointing out that our Board of 
Directors is extremely clear that PTC is a very, very high 
priority and absolutely essential for us to bring online and 
further provide for the safety of our customers. And that 
commitment extends to our chairman, our managing director, our 
two railroad presidents, and the entire implementation team. We 
are working as hard as we can possibly work to bring the 
promise of PTC into reality.
    The Chairman. And we hope we will continue that. I mean, I 
think you heard today us convey the sense of urgency that we 
attach to getting implementation done in accordance with the 
requirement and the deadline. So let us know as this moves 
forward, and I'm going to be consulting, obviously, with the 
FRA, but what additional help you might need, if there's 
anything that this Committee or the Congress can do.
    I'm going to ask unanimous consent to insert a statement 
for the record, from the Association of American Railroads on 
the implementation of PTC.
    [The information referred to follows:]

    Prepared Statement of Edward R. Hamberger, President and Chief 
          Executive Officer, Association of American Railroads
    On behalf of the Association of American Railroads (AAR), thank you 
for the opportunity to discuss positive train control (PTC). AAR 
members account for the vast majority of North American freight 
railroad mileage, employees, and revenue.
    In this testimony, I will review what positive train control is and 
what it is meant to do; the progress railroads have made in the 
development and implementation of this technology; and what to expect 
going forward. While other railroad entities use each Class I 
railroad's tracks--Amtrak, commuter railroads, and shortlines--my focus 
will be on Class I freight railroads and their PTC operations.
    The bottom line is that by December 31, 2018, all Class Is will 
have completed PTC installation, just as Congress required. Further, by 
the end of this year PTC will be in operation on the vast majority--
approximately 80 percent--of Class I PTC route-miles network wide, with 
some Class I railroads planning to be fully implemented on their 
networks. Between 2018 and 2020, remaining Class I railroads will be 
completing PTC implementation, consistent with statute. All railroads 
will continue their work on resolving technical operational challenges 
that will inevitably rise, which Congress anticipated and specifically 
provided protection for in its 2015 law. They also will be addressing 
perhaps the biggest challenge of PTC implementation: interoperability 
with each other and with their tenant passenger and shortline 
railroads.
What is Positive Train Control?
    ``Positive train control'' (PTC) describes technologies designed to 
automatically stop a train before certain accidents caused by human 
error occur. Under the Rail Safety Improvement
    Act of 2008 (RSIA), passenger railroads and Class I freight 
railroads are required to install PTC on main lines used to transport 
passengers or toxic-by-inhalation (TIH) materials.\1\
---------------------------------------------------------------------------
    \1\ TIH materials are gases or liquids, such as chlorine and 
anhydrous ammonia, which are especially hazardous if released into the 
atmosphere.
---------------------------------------------------------------------------
    Specifically, PTC as mandated by the RSIA must be designed to 
prevent four major types of train accidents: train-to-train collisions; 
derailments caused by excessive speed; unauthorized incursions by 
trains onto sections of track where maintenance activities are taking 
place; and the movement of a train through a track switch left in the 
wrong position.\2\ The PTC system now being installed to meet this 
statutory mandate is an overlay system, designed to be failsafe and 
meant to supplement, rather than replace, existing methods of 
operation.
---------------------------------------------------------------------------
    \2\ A switch is the infrastructure that controls the path of trains 
where two sets of tracks diverge or converge.
---------------------------------------------------------------------------
Positive Train Control is an Unprecedented Technological Challenge
    To work as it should, a PTC system must be able to determine the 
precise location, direction, and speed of trains; warn train operators 
of potential problems; and take immediate action if the operator fails 
to act after a warning is provided by the PTC system. For example, if a 
train operator fails to begin stopping a train before a stop signal or 
slowing down for a speed-restricted area, the PTC system will override 
the operator and apply the brakes automatically before the train passes 
the stop signal or enters the speed-restricted area.
    A PTC system consists of three main elements that are integrated by 
a fourth critical element, the wireless data communications system. An 
onboard or locomotive system monitors a train's position and speed and 
activates braking as necessary to enforce speed restrictions and 
unauthorized train movements; a wayside system monitors railroad track 
signals, switches, and track circuits to communicate data on this local 
infrastructure needed to permit the onboard system to authorize 
movement of a locomotive; and a back office server stores all 
information related to the rail network and trains operating across it 
(e.g., speed restrictions, movement authorities, train compositions, 
etc.) and transmits this information to individual locomotive onboard 
enforcement systems. Finally, all of these are integrated by a wireless 
data communications system that must move massive amounts of 
information back and forth between the back office servers, the wayside 
equipment, and the locomotive's on-board computers.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Such a system requires highly complex technologies able to analyze 
and incorporate the huge number of variables that affect train 
operations. A simple example: the length of time it takes to stop a 
freight train depends on train speed, terrain, the weight and length of 
the train, the number and distribution of locomotives and loaded and 
empty freight cars on the train, and other factors. During the 
operation of a single train over a single operating segment of track 
known as a sub-division, the length of time and the distance needed to 
stop that train may change 100 or more times due to changes in the 
factors mentioned above. A PTC system must be able to take all of these 
factors into account automatically, reliably, accurately and in real 
time in order to safely stop the train wherever it may be along its 
route.
    PTC development and implementation constitute an unprecedented 
technological challenge. Some of the development and installation tasks 
associated with the Class I railroads' efforts include:

  <bullet> A complete physical survey and highly precise geo-mapping of 
        the more than 54,000 route-miles on which PTC technology will 
        be installed, including more than 450,000 field assets along 
        the right-of-way (e.g., mileposts, curves, rail and highway 
        grade crossings, switches, signals, track vertical profiles and 
        horizontal geometry).

  <bullet> Installing more than 28,500 custom-designed ``wayside 
        interface units'' (WIU) that provide the mechanism for 
        transmitting information from signal and switch locations along 
        the right-of-way to locomotives and railroad facilities.

  <bullet> Installing PTC technology on more than 17,200 Class I 
        locomotives.\3\
---------------------------------------------------------------------------
    \3\ As just one example of the magnitude of the PTC implementation 
effort, it takes about one person working for about one month to 
install all of the necessary PTC equipment on a single locomotive. It 
will take approximately 1,400 staff-years to install PTC on all of the 
Class I locomotives that require it.

  <bullet> Installing PTC technology on nearly 2,100 switches in non-
        signaled territory and completing signal replacement projects, 
        including upgrades to PTC-compatible signal technology, at some 
---------------------------------------------------------------------------
        14,500 locations.

  <bullet> Developing, producing, and deploying a new radio system 
        specifically designed for the massive data transmission 
        requirements of PTC at tens of thousands of base stations and 
        trackside locations, and on more than 17,200 locomotives.

  <bullet> Developing back office systems and upgrading and integrating 
        dispatching software to incorporate the data and precision 
        required for PTC systems.

    In all these areas, Class I railroads have already made tremendous 
progress. Figure 2 has details on the status of Class I PTC 
installations at the end of 2017.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Additionally, as shown in Figure 3, at the end of 2017, the Class I 
railroads already had in operation more than 30,000 route-miles, or 56 
percent, of the 54,000 route-miles that will eventually be equipped 
with PTC. To be clear, each Class I railroad will install 100 percent 
of PTC wayside, back office, and locomotive hardware and complete all 
required training by the end of 2018 and expect to have nearly 80 
percent of required PTC route-miles operational by the end of 2018.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The AAR estimates that, as of the end of 2017, freight railroads 
together have spent more than $8 billion--of their own funds, not 
taxpayer funds--on PTC development and deployment, and expect to spend 
more than $10 billion by the time PTC is fully operational nationwide. 
This does not include the hundreds of millions of additional dollars 
needed each year to maintain the railroads' PTC systems once they are 
initially installed.
Testing and Validation is Essential for Safe Operation and Full 
        Interoperability
    From the outset, railroads' efforts were focused on development and 
testing of technology that could meet the requirements of the RSIA, 
particularly those related to interoperability, and that could be 
scaled to the huge requirements of a nationwide system. For example, 
production and installation of the new radios--necessary to meet PTC's 
immense communication demands--became possible only after a long period 
of development and testing. Essential software and hardware for many 
PTC components had to be developed and deployed, and then rigorously 
tested. Only after technology is actually installed and exposed to the 
rigors of day-to-day operations can the task of testing each of the 
individual parts, and the system as a whole, be completed under real 
world conditions.
    This task is made particularly complex by the need to ensure that 
PTC systems are fully and seamlessly interoperable across all of the 
Nation's major railroads. It is not unusual for one railroad's 
locomotives to operate on another railroad's tracks. When that happens, 
the ``tenant'' locomotives must be able to communicate with, and 
respond to conditions on, the ``host'' PTC system. Put another way, a 
CSX locomotive must behave like a Norfolk Southern locomotive when it 
is traveling on NS track; a BNSF locomotive must be compatible with 
Union Pacific's PTC system when it is on UP track, and so on. All the 
while, each railroad has its own operating rules designed to address 
specific conditions on its property, all consistent with FRA 
regulations, but further adding to this complexity. Ensuring this 
interoperability has been a significant challenge.
    Interoperability appears to also have been a significant problem in 
Europe where the European Union's first ``interoperability directive'' 
was published in 2001. It was not until 2016 that sufficient technical 
progress in either hardware or software had been made to allow the 
first deployment of an early stage, interoperable system. However, much 
work remains to be done to cure both technical and institutional 
problems that keep their current technology from being fully equivalent 
to that required under U.S. statute. To date, only 2,400 miles of track 
in the EU are equipped with this new generation technology. The EU does 
not expect that a 30,000-mile ``core'' network will be deployed before 
2030; a full build out over 73,000 miles of the most densely used 
portions of the European network is not expected to be completed before 
2050.\4\<SUP>,</SUP>\5\
---------------------------------------------------------------------------
    \4\ European Court of Auditors, Special Report No. 13, A Single 
European Rail Traffic Management System: Will the Political Choice Ever 
Become Reality? European Union, Luxembourg, July 2017.
    \5\ European Commission, Delivering an Effective and Interoperable 
European Rail Traffic Management System (ERTMS)--The Way Ahead, 
Commission Staff Working Document, Brussels, November 2017.
---------------------------------------------------------------------------
    It is critical that the huge number of potential failure points in 
PTC systems be identified, isolated, and corrected. By necessity, a 
mature, well-functioning PTC system is enormously complex, and it is 
not realistic to think it will perform flawlessly day in and day out, 
especially upon initial implementation. That is precisely why testing, 
first in a simulated environment and then under real-world operating 
conditions, is so important. Unfortunately, the failure of a single 
part within a complex PTC system can mean the system does not work as 
it should. When that happens, the fail-safe nature of PTC means that 
trains are not able to operate normally on affected rail lines until 
the failure is corrected, a situation railroads are facing today as 
they proceed toward PTC implementation. U.S. railroads are working hard 
to limit negative impacts on their customers associated with PTC 
rollouts, but these impacts will be a fact of rail life particularly 
until the system fully matures.
    Every day, as railroads finalize their PTC installation and expand 
PTC operations, additional accident avoidance becomes possible. 
However, as other train control systems implemented in other countries 
demonstrate, there is risk in improperly designed, installed, or 
operated PTC systems. This is not just a speculative concern. Since 
2008, there have been a number of incidents worldwide in which 
accidents resulting in deaths and injuries occurred on rail lines that 
had PTC-like systems. Insufficient testing of PTC design or equipment 
has been identified as the cause in two high profile accidents 
involving significant fatalities.\6\<SUP>,</SUP>\7\
---------------------------------------------------------------------------
    \6\ In 2011 a pair of trains on a high-speed line in China equipped 
with a PTC-like system collided, resulting in 40 deaths and 192 
injuries. Investigation of cause revealed that installation of a 
Japanese ``off-the-shelf'' PTC-like system had failed to recognize and 
accommodate local operating conditions and rules and had not been 
properly adapted to the dispatching and train management processes used 
on the Chinese line.
    \7\ In 2013 a high-speed train in Spain derailed while exceeding 
the speed limit on a sharp curve at the end of the high-speed section 
of the railway, killing 79 passengers and injuring 139. The high-speed 
portion of the route was equipped with a PTC-like system, but failed to 
warn the locomotive engineer of the speed-restricted curve and also 
failed to take action to slow the train. Investigation of cause 
determined that the failure of the system to intercede was due to both 
design flaws and a failure of the operational components of the system.
---------------------------------------------------------------------------
    These concerns make it essential that a railroad's first priority 
must be to implement PTC correctly, and to test and validate it 
thoroughly.
Conclusion
    Railroads have devoted enormous human and financial resources to 
develop a functioning and reliable PTC system, and progress to date has 
been substantial. Class I railroads remain committed to safely 
implementing PTC as quickly as feasible. By the end of 2018, each Class 
I railroad will have implemented PTC or initiated revenue service 
demonstration on, at a minimum, 51 percent of its required PTC route-
miles or subdivisions; have 100 percent of the necessary wayside, back 
office, and locomotive hardware installations completed; have all 
required spectrum in place; and have all required employee training 
completed.
    In addition, network-wide approximately 80 percent of required PTC 
route-miles are expected to be operational by the end of 2018. While 
several Class I railroads plan to be fully implemented by the end of 
this year, all Class I railroads will be fully implemented no later 
than 2020. In the meantime, Class I railroads will continue to work 
with each other and their tenant passenger and shortline railroad 
partners to successfully achieve full interoperability, which is the 
largest remaining challenge to a fully implemented national PTC system.

    The Chairman. We will keep the hearing record open for a 
couple of weeks. And I know there are members who have 
indicated a desire to submit questions for the record. So if 
our witnesses could respond as quickly as possible to those so 
that we can close the record out, it would be greatly 
appreciated.
    Thank you all for this. I think this is an important 
hearing, a timely hearing, and a very important update for us 
in terms of what's happening with respect to this very 
important safety issue.
    This hearing is adjourned.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Question Submitted by Hon. John Thune to 
                             Susan Fleming
    Question. The Committee is aware that some Class I railroads may 
require their tenant short line railroads to have PTC-equipped 
locomotives when operating any of the Class I's lines equipped with 
PTC, potentially prior to the applicable statutory or regulatory 
deadlines. While the most recent GAO engagement focused on commuter 
railroads, we understand GAO has interviewed short line railroads 
representative in connection with some of its past work on PTC.
    a. Does the GAO have any data on this issue, including how many 
short line railroads are impacted?
    Answer. GAO has not conducted recent work related to short line 
railroads' PTC implementation efforts, and we do not have any data 
directly related to this issue.
    From our understanding, Class Is can determine whether one of their 
connecting short lines must install onboard PTC equipment, depending on 
the working arrangement between the Class I and short line. Given this, 
an unknown number of short line railroads may be installing PTC 
components as directed by Class Is.
    FRA's appears to be tracking implementation progress for a few 
short line railroads. For example, the Q4 2017 data from quarterly and 
annual reports available on FRA's website includes: (https://
www.fra.dot.gov/app/ptcprogress/2017q4)

  <bullet> Alaska

  <bullet> Terminal Railroad Association of St. Louis

  <bullet> Kansas City Terminal

  <bullet> Belt Railway

  <bullet> Portland and Western (also covers TriMet)

    b. What potential challenges do short line railroads face in 
meeting these requirements?
    Answer. In GAO-15-739, we reported that according to FRA, 10 
smaller--or Class II/III--railroads are required by RSIA to implement 
PTC because they support passenger traffic. Of these, GAO interviewed 
Alaska, Belt Railway of Chicago, Kansas City Terminal, Nashville and 
Eastern, New Orleans Public Belt, Pan Am Railways, Portland and 
Western, Saratoga and North Creek, Terminal Rail of Saint Louis. We 
also interviewed three Class II/III railroads that are not required by 
statute to implement PTC on their track, but are equipping locomotives 
with PTC because they will run on PTC-equipped track. Some Class II/III 
railroads are being required to equip their locomotives with PTC 
because they are a tenant and their host railroad has indicated they 
must equip.
    In GAO-15-739, representatives of one Class II/III railroad 
indicated to us that they will use their Class I host railroad's back 
office system, but others indicated they may have to develop their own; 
this may be costly and these railroads may lack in-house resources to 
maintain such systems. Representatives also told us that they are 
exploring the use of a virtual back office that would be shared among 
several railroads and managed by a third party.
    In GAO-15-739, three of the Class II/III railroads and 1 commuter 
railroad we interviewed said that they have received limited guidance 
and instruction from their Class I host railroads regarding the extent 
to which they need to equip with PTC and when they should be equipped, 
making it difficult for them to begin PTC implementation. However, 
three Class II/III railroads and thee commuter railroads stated their 
Class I railroad hosts were communicating with them and, in some cases, 
had been helpful in addressing vendor issues. FRA officials told us 
that FRA will not get involved in this issue because it is a commercial 
arrangement between two private entities.

    c. To your knowledge, has the Department of Transportation assessed 
the potential for freight rail service disruptions if short line 
railroads do not meet these deadlines?
    Answer. We have not conducted recent work focused on specific 
actions taken by DOT related to short line railroads' implementation of 
PTC. The scope of our review was focused on commuter railroads' 
implementation progress and DOT's management and oversight of their PTC 
implementation. DOT, via a December 2017 letter from Secretary Chao to 
all the Class I railroads, intercity passenger railroads, and state and 
local transit authorities, stressed the urgency and importance of 
safely implementing PTC systems in the upcoming year to meet the 
December 31, 2018 deadline. Given this, the agency does not appear to 
be focused on short line railroads' implementation at this time.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Susan Fleming
    Implementation Status. Ms. Fleming, you took a deep dive look into 
how consumer railroads are working to implement positive train control.
    Question 1. How concerned are you about the status of 
implementation by these railroads?
    Answer. We found that most of the 29 commuter railroads 
implementing PTC have reported progress in some of the areas of initial 
implementation that the Federal Railroad Administration (FRA) monitors, 
such as locomotive and wayside equipment installation, but the amount 
of progress reported varies across individual railroads. However, 
beyond the initial implementation activities, much work remains for the 
majority of commuter railroads to complete other key PTC activities 
that will enable them to complete implementation such as field testing 
and interoperability. Based on our analysis, some of the commuter 
railroads that told us they did not plan to seek an extension beyond 
2018 appear to be at risk of not meeting the requirements to qualify 
for an extension, let alone complete implementation before the end of 
2018.
    Commuter railroads unable to implement a PTC system by December 31, 
2018, may receive a maximum 2-year extension if they meet certain 
statutory criteria. Based on our analysis of the PTC schedules of the 
29 commuter railroads, we found that over half may not have sufficient 
time to complete activities needed to implement PTC by the end of 2018 
or to qualify for an extension of that deadline by meeting criteria 
based on initiating revenue service demonstration (RSD).
    GAO's analysis of commuter railroads' PTC scheduled milestones for 
two key activities necessary to meet the 2018 deadline or qualify for 
an RSD-based extension (one of the statutory options) found that as 
many as two-thirds of the 29 commuter railroads may not have allocated 
sufficient time to complete these milestones. Specifically, in 
comparing the commuter railroads' schedules to FRA's estimates of the 
time required to complete these milestones and the experiences of 
railroads that have already completed them, GAO's analysis found that 
from 7 to 19 commuter railroads may not complete the milestones before 
the 2018 implementation deadline or qualify for an extension.

    Question 2. What challenges led to this point? Why were some 
railroads able to make such progress and others were not?
    Answer. A number of factors can affect the progress of commuter 
railroads' implementation of PTC, including limited industry expertise 
and resources, or unexpected schedule changes. In addition, PTC 
implementation is a complex and lengthy process. It requires the 
integration of various components, many of which are new technologies 
that must be integrated with existing systems. About half of the 
commuter railroads we spoke with acknowledged that industrywide, there 
are a limited number of individuals with PTC technical expertise 
available to successfully implement the technology, which can affect 
the ability of railroads and contractors to meet planned schedules. In 
addition, some commuter railroads told us they faced unexpected delays 
in obtaining PTC equipment, such as radios, from the supplier. Some PTC 
equipment is only available from a single provider, which can lead to 
delays executing contracts and obtaining equipment.
    Unexpected issues with components or technology can also require 
additional time to complete certain activities, causing schedules to 
slip. Such issues could affect railroads currently on schedule as well 
as railroads pursuing aggressive schedules in an effort to overcome 
late starts or early setbacks. For example, representatives from one 
railroad said that despite strong organizational commitment to 
implementation and setting internal targets for progress, their PTC 
project schedule slipped many times over the course of implementation 
due to a variety of issues, including on-going software updates that 
caused delays while also straining the budget and burdening staff.
    For those railroads that have made more progress with 
implementation, we heard that early commitment from agency leadership 
and support from the board to implement PTC helped encourage progress 
throughout the project and enabled management to make tough decisions 
to constantly progress. Officials from one of these railroads told us 
they made difficult decisions that would enable them to move forward 
with the overall project.

    Question 3. Does implementation of positive train control by any of 
the Florida railroads raise particular concern for you?
    Answer. In January 2018, Sunrail and TriRail were both identified 
among the 13 commuter railroads FRA identified as at risk of not 
meeting the 2018 deadline and not completing requirements for a 
deadline extension. FRA made these determinations based on whether a 
railroad had installed at least 65 percent of all equipment as of the 
end of September 2017. Florida East Coast Railway/All Aboard Florida 
was not identified as at risk by FRA, but the railroad has had multiple 
fatal grade crossing accidents in the last year.
    Much uncertainty exists regarding railroads' ultimate 
implementation progress and their ability to meet the 2018 deadline or 
qualify for an extension. This uncertainty is due, in part, to the fact 
that PTC is a new way of operating and involves technologies that are 
more complex to implement than many other railroad capital projects. 
Furthermore, a number of factors can affect commuter railroads' planned 
and future progress, including unexpected setbacks installing PTC 
components and resources and capacity issues.

    DOT Oversight. Ms. Fleming, the Department of Transportation should 
be providing clear and consistent guidance to railroads, particularly 
as they near the deadline.
    Question 4. How is the Department doing at this task?
    Answer. We found that FRA monitors railroads' PTC implementation 
progress, but has not systematically communicated information to help 
them prepare for the 2018 deadline or to qualify for extensions. Since 
2015, FRA has assumed additional roles and responsibilities--primarily 
through the PTC Task Force and regional PTC specialists--to monitor 
railroads' implementation progress, review required documentation, and 
share information about implementation steps and activities. While the 
majority of the railroad representatives we met with said FRA officials 
were consistently available to discuss issues that arise during day-to-
day PTC implementation activities, the information conveyed by these 
officials has sometimes been inconsistent. Commuter railroads also 
expressed a need for additional clarification about the criteria for 
applying for an extension, and representatives from some commuter 
railroads we met with were unclear about the agency's approach to 
reviewing and granting extension requests.
    In addition, FRA has made limited use of implementation progress 
information to prioritize its efforts and mitigate risks. FRA has not 
fully leveraged the implementation progress data that railroads' submit 
to the agency to identify and develop a risk-based approach to 
prioritize agency actions. At present, it is unclear whether the 
agency's priorities are, for example, to help the largest commuter 
railroads meet the deadline or extension requirements, push those 
railroads that are very close to full implementation, or assist 
railroads that are in the earliest stages of their PTC project. By not 
effectively targeting actions to help mitigate risks posed by railroads 
most at risk of not meeting the PTC deadline or qualifying for an 
extension, FRA misses the opportunity to leverage its limited resources 
by providing direct assistance in the areas of greatest need.

    Question 5. What more could be done by the Department to assist 
commuter railroads--especially those that are falling behind?
    Answer. As the 2018 deadline rapidly approaches, the need for clear 
information that is systematically communicated to all railroads 
implementing PTC becomes even more critical. FRA cannot expect to 
provide information and guidance to railroads individually, and 
therefore, adopting a risk-based communication strategy could help it 
more efficiently share information in the coming year. Moreover, the 
information FRA collects on railroads' progress has not been used to 
inform the agency's resource allocation decisions. Using this 
information to better allocate resources could help position FRA to 
better meet its responsibility to monitor and oversee PTC 
implementation in the future. Given this, GAO recommended that FRA: 1) 
identify and adopt a method for systematically communicating 
information to railroads regarding the deadline extension criteria and 
process, and 2) develop an approach to use the information gathered to 
prioritize the allocation of resources to address the greatest risk.

    Grade Crossing Safety. My state continues to top the list for 
grade-crossing collisions and fatalities. In recent months, we have 
seen a renewed problem with grade crossing safety following the start 
of higher speed rail service.
    Question 6. What steps should we be taking to better address grade 
crossing safety?
    Answer. During the course of our PTC review, we did not conduct the 
work necessary to answer this question. GAO has ongoing work in the 
area of grade crossing safety, and anticipates issuing a final product 
in Fall 2018.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                         Hon. Barry J. DeWeese
    Question. The Committee is aware that some Class I railroads may 
require their tenant short line railroads to have PTC-equipped 
locomotives when operating any of the Class I's lines equipped with 
PTC, potentially prior to the applicable statutory or regulatory 
deadlines. Did any short line railroads that received Federal funding 
raise this issue to DOT OIG?
    Answer. OIG did not receive any tenant railroad responses 
indicating that host railroads had set additional deadlines for their 
PTC implementation; however, our line of questioning focused primarily 
on decisions related to the use and access of funding. During our 
information gathering, we did note three railroads that were not 
independently subject to the congressional requirement were 
implementing PTC because their host railroads were doing so. In 
addition, some tenant railroads mentioned that their host railroads' 
technical specifications and the need for interoperability would 
ultimately impact the types of equipment they purchase.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                         Hon. Barry J. DeWeese
    Funding for Positive Train Control. Mr. DeWeese, you found that the 
Federal Government has provided more than two billion dollars in 
support to help implement positive train control. Yet, some believe 
that much more is needed to help commuter railroads.
    Question 1. Is funding a challenge for commuter railroads? What 
kind of additional support might they need?
    Answer. Our recent audit identified the amount of Federal funding 
provided to implement positive train control; we did not assess future 
needs. While the commuter railroads we contacted did not identify 
funding as a challenge to meeting the December 2018 congressional 
deadline, they did express concern about costs that will arise after 
full PTC implementation. Those costs, as well as the potential for 
funding shortfalls, remain uncertain and will be key watch items going 
forward. We will continue to work with the Department and Congress to 
monitor funding implications that could impact railroads' deployment 
and sustainment of PTC.

    Grade Crossing Safety. My state continues to top the list for 
grade-crossing collisions and fatalities. In recent months, we have 
seen a renewed problem with grade crossing safety following the start 
of higher speed rail service.
    Question 2. What steps should we be taking to better address grade 
crossing safety?
    Answer. We share your concern. While our office has not studied 
this topic in recent years, we are currently planning an audit to 
assess the Department's progress in advancing grade crossing safety. We 
will reach out to your staff as we finalize our audit objectives.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Hon. Barry J. DeWeese
    Speed Limit Action Plans. Mr. DeWeese, the FAST Act requires 
passenger railroads to come up with speed limit action plans for any 
place there is a speed reduction of 20 miles-per-hour or greater. Speed 
limit action plans are meant to help prevent incidents like the Amtrak 
Cascade Train 501 derailment in DuPont, WA by creating numerous 
warnings for the engineer that they need to reduce their speed.
    Question 1. Do you know if the Department of Transportation 
approved Amtrak's speed action plan for the curve in DuPont, WA?
    Answer. At this time, we do not have information on the 
Department's approval process or the status of Amtrak's speed action 
plan for the curve in DuPont, WA.

    Highway-Rail Grade Crossing Safety. I would like to address the 
topic of safety issue, highway-rail grade crossings. The City of 
Lakewood sits on the new Point Defiance Bypass Rail line where the 
DuPont derailment occurred.
    The city has 7 grade crossings within its city limits. They are 
understandably concerned about safety at these crossings given that 
over 30 percent of rail related fatalities occur at grade crossings.
    Question 2. Mr. DeWeese, In November 2016, the FRA released their 
model for state highway-rail grade crossing action plans. The FAST Act 
requires the FRA to create a rule requiring state to submit their 
action plans. Can you update me on the status of this rule?
    Answer. While we have reviewed grade crossing safety in the past, 
our office has not studied this topic in recent years. In the next few 
months, we will initiate an audit that will assess FRA's progress in 
advancing grade crossing safety, and we will be in a better position to 
provide an update at that time. We will reach out to your staff as we 
finalize our audit approach.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                            Richard Anderson
    Question 1. As you noted, many commuter rail passengers ride on 
trains that use the Northeast Corridor or connect to Amtrak trains.
    a. Could you provide a comprehensive overview of Amtrak's 
interactions and planning to date with each commuter railroad that may 
not fully implement PTC by December 31, 2018 or qualify for an 
extension?
    Answer. Amtrak has regular communication with the commuter 
railroads that use our infrastructure or on which we are a tenant 
through a cross-departmental approach aimed at allowing us to 
understand and prepare for likely outcomes as implementation and 
installation of positive train control (PTC) progresses throughout the 
year. As progress is made in PTC implementation, we adjust our planning 
and options based on the needs of Amtrak and individual commuter 
railroads and maintain strong coordination across our 46 state network 
through focused oversight of our Assistant Vice President of 
Operations.
    More specifically, Amtrak's Engineering Department works with 
commuter railroads on a weekly and often daily basis. They discuss way-
side installation, boundary locations and testing of the PTC system. 
This is important since all responsible parties need to be involved in 
testing to allow our equipment and teams to communicate effectively.
    The Amtrak Mechanical Department works on a monthly or more 
frequent basis with the various commuter agencies to ensure there is 
regular progress on installation of relevant on-board hardware 
installed in the locomotives. Amtrak Operations also communicates 
monthly with the commuter agencies to monitor and update progress with 
implementation and installation of the overall PTC system.
    At this point in time, we are confident that most commuter agencies 
relevant to the Amtrak network will qualify for extensions.

    b. From both a safety and business perspective, could you speak in 
more detail to what you see as the impact of potential service cuts on 
the overall transportation network in the region?
    Answer. At this time, Amtrak continues to assess the readiness of 
its commuter tenants on the Northeast Corridor and is working closely 
with all agencies to progress forward with implementation. We are not 
yet prepared to make any definitive statements on the outcome of their 
efforts to implement PTC and any impacts on past service this year as 
much of the necessary work is scheduled to be achieved this fall.

    c. What information, if any, has FRA provided to you on how it 
expects to handle a tenant or connecting railroad not meeting the 
statutory deadline?
    Answer. Amtrak continues to have regular discussions with FRA on 
how hosts manage PTC implementation with tenants and connecting 
railroads. The FRA's PTC symposiums have helped facilitate 
communication between tenants and hosts as well as clarifying 
expectations.

    d. What guidance, if any, has FRA provided to you on how it expects 
Amtrak to handle a tenant or connecting railroad not meeting the 
statutory deadline?
    Answer. Amtrak continues to have regular discussions with FRA on 
how hosts manage PTC implementation with tenants and connecting 
railroads, but have not received official guidance on this matter.

    Question 2. As you know, Amtrak operates over host railroad track 
where a host railroad may not implement PTC by December 31, 2018, or 
qualify for an extension. Following-up on a commitment at the hearing, 
please provide a list of the services, routes, or lines which may cease 
at the end of the year due to a host railroad not fully implementing 
PTC or not meeting the statutory deadline, and please detail the 
likelihood and underlying issues relevant for the decision.
    Answer. There has been significant progress since the hearing on 
locations where Amtrak had concerns about a host's implementation 
schedule or ability to qualify for extensions or exemptions. Since the 
hearing, many of these concerns have been addressed and we have 
received significant information from hosts to confirm compliance or 
exemptions have been filed in accordance to the law.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                            Richard Anderson
    Question 1. Mr. Anderson, in your testimony you stated that ``well 
timed, well run service between New Orleans and Mobile is a winner''. I 
agree. You further stated that, ``the question for reintroduction of 
that service from CSX was $2 billion''. As you know, the Gulf Coast 
Working Group, created by Congress in the FAST Act, identified the 
preliminary capital cost estimates for restoring service to Orlando, FL 
to be $117,672,000, with annual operating cost estimates at $5,480,000 
for the long-distance route and $6,970,000 for a twice daily State-
supported route between New Orleans, LA and Mobile, AL. Amtrak was part 
of the working group and supported its conclusion.
    Congress, in S. Rept 115-138, the Appropriations Committee report 
accompanying S. 1655, the FY18 Senate Transportation, Housing, and 
Urban Development Appropriations Act, endorsed the findings of the Gulf 
Coast Working Group when it stated the following:

        Gulf Coast Rail Service.--Section 11304 of the FAST Act 
        required the Gulf Coast Working Group [GCWG], consisting of 
        FRA, Amtrak, the Southern Rail Commission [SRC], railroad 
        carriers, State and local governments, and others, to evaluate 
        all options for restoring passenger rail service in the gulf 
        coast region, select a preferred option for service, develop an 
        inventory and cost estimate of capital projects to restore 
        service, and identify Federal and non-Federal funding to 
        restore service. The GCWG report, released on July 17, 2017, 
        identified the preferred options as a daily long-distance route 
        that extends Amtrak's existing City of New Orleans service from 
        New Orleans, Louisiana to Orlando, Florida and a new daily 
        State-supported route from New Orleans, Louisiana to Mobile, 
        Alabama. The preliminary capital cost estimates for restoring 
        service is $117,672,000, with annual operating cost estimates 
        at $5,480,000 for the long-distance route and $4,000,000 for 
        the State-supported route. These cost estimates are dwarfed by 
        the $2,300,000,000 estimate previously determined by industry, 
        which also raised concerns with on-time performance [OTP] 
        requirements and delays at drawbridges. The Committee believes 
        the GCWG report more accurately reflects these concerns and is 
        a more realistic cost estimate, but directs Amtrak and DOT to 
        continue working with the host railroad and the Coast Guard to 
        refine cost estimates.

    a. Is your testimony in agreement with the Gulf Coast Working Group 
and Amtrak staff or is it supporting the CSX assessment?
    Answer. My testimony was a reference to the wide gap, as also noted 
by the Appropriations Committee report, between CSX's proposal and the 
GCWG report. Like the Appropriations Committee, Amtrak believes that 
the GCWG report is a more accurate and realistic assessment of the host 
railroad-related challenges and solutions.

    Question 2. Mr. Anderson, during the hearing, you further stated 
that Amtrak's ``preference'' and ``incremental cost rights'' are not 
properly enforced.
    a. Please describe the impact of lack of enforcement of these 
rights on restored service between New Orleans, LA and Mobile, AL.
    Answer. Lack of enforcement of Amtrak's rights, in particular 
preference over freight transportation, has led to a severe 
deterioration in the on time performance of Amtrak service. The largest 
cause of delay to Amtrak trains on host railroads is Freight Train 
Interference, typically caused by a freight railroad requiring an 
Amtrak passenger train to wait so that its freight trains can operate 
first. Host railroads often choose to delay Amtrak trains with hundreds 
of passengers on them in favor of their trains carrying coal, garbage, 
crude oil, empty freight cars, or any freight that the host chooses to 
prioritize. Very often, a host railroad will make Amtrak passengers 
follow the same slow freight train for more than 50 or even 100 miles.
    During FY 2017, Amtrak trains were delayed by freight trains on 
host railroads almost 100,000 times. These delays totaled more than one 
million minutes (or 17,500 hours). These delays, which continue to 
increase at an alarming rate, threaten the viability of major portions 
of Amtrak's network and therefore threaten Amtrak's capability to 
expand service at all, including in the New Orleans-Mobile corridor.
    Moreover, a New Orleans-Mobile service will not be successful if 
our customers, and your constituents, experience such delays on a 
regular basis.

    b. Please describe your plan for addressing this issue.
    Answer. Amtrak continues to exercise every available opportunity to 
collaborate with willing hosts to share data and otherwise work 
together to identify and address delays--whether due to Freight Train 
Interference or other factors. However, for such efforts to be fully 
successful, host railroads must be motivated to run Amtrak well. 
Unfortunately, this currently is not the case with some host railroads. 
Current law prevents Amtrak from taking action in response to host 
railroad violations of Amtrak's preference rights. Amtrak's FY2019 
Legislative and Grant Request to Congress includes a proposal to 
correct this problem by allowing Amtrak a private right of action with 
respect to preference, so that Amtrak can protect its rights just as 
any other company would if its rights were being violated.

    Question 3. Mr. Anderson: As you know, Senator Cochran and I, along 
with our colleagues from Louisiana and Alabama, are working to restore 
passenger rail service along the Gulf Coast. The Southern Rail 
Commission is currently pursuing a state-supported route between New 
Orleans, LA and Mobile, AL to restart service along the gulf coast. The 
long term goal is ultimately to add the long distance route to Orlando, 
FL.
    a. It is my understanding that Positive Train Control (PTC) will be 
in place between New Orleans, LA and Mobile, AL on time. Please confirm 
whether this is true and, if not, please provide specific information 
about remaining gaps in installing PTC along this corridor.
    Answer. The New Orleans to Mobile segment is not owned by Amtrak, 
but this is our understanding as well. The host railroad, CSX, should 
be able to provide an update on progress for implementation.

    b. It is also my understanding that PTC may not be installed by the 
deadline on track that is east of Mobile, AL and which may one day be 
part of the long distance route to Orlando, FL. Can you confirm that a 
state-supported route from New Orleans, LA to Mobile, AL would not be 
impacted by the status of PTC on track east of Mobile, AL?
    Answer. This segment is also not owned by Amtrak, but this is our 
understanding as well. The host railroad, CSX, should be able to 
provide an update on progress for implementation. You are correct that 
the status of PTC implementation east of Mobile will not impacts the 
potential State Support service we are seeking to advance with the SRC 
to the west.

    Question 4. Recently, Politico reported that a spokesman for the 
freight railroad Canadian National stated the railroad was scheduled to 
complete installation of PTC on time. The spokesman further stated that 
``the City of New Orleans corridor will be the first completed, and 
multiple subdivisions in the corridor are in revenue service 
demonstration.''
    a. Can you confirm that this is correct?
    Answer. This segment is not owned by Amtrak. The host railroad, 
Canadian National, should be able to provide an update on progress for 
implementation.

    b. If not, please provide describe the status of PTC on the City of 
New Orleans route and the impact upon Amtrak's revenue service on that 
route.
    Answer. This segment is not owned by Amtrak. The host railroad, 
Canadian National, should be able to provide an update on progress for 
implementation. While we are in regularly communication with Canadian 
National, they would be able to provide the most accurate and up-to-
date information on this route.

    c. Please provide information describing the status of PTC on 
Amtrak's Crescent route and the impact upon Amtrak's revenue service on 
that route.
    Answer. This segment is not owned by Amtrak, but Amtrak has 
completed interoperability testing on this route between Washington, DC 
and New Orleans. The Amtrak project schedule calls for beginning 
operations with PTC in the fall of 2018 after final software upgrades 
are ready.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Richard Anderson
    Positive Train Control. Mr. Anderson, Florida relies on Amtrak 
service to provide access to long-distance rail service for many 
cities.
    Question 1. What is the status of positive train control on routes 
you travel in Florida? When will it be implemented?
    Answer. There has been significant progress since the hearing on 
locations where Amtrak had concerns about a host's implementation 
schedule or ability to qualify for extensions or exemptions. Since the 
hearing, many of these concerns have been addressed and we have 
received significant information from hosts to confirm compliance or 
exemptions have been filed in accordance to the law. In Florida, we are 
working with both the South Florida Regional Transportation Authority 
and SunRail as they progress forward in their work to achieved 
Alternate Schedules for implementation from the FRA. Assuming that such 
schedules are granted, Amtrak is undertaking hazard analysis and risk 
mitigation plans for operations over the territory until PTC becomes 
operational.

    Grade Crossing Safety. Panel, my state continues to top the list 
for grade crossing collisions and fatalities. In recent months, we have 
seen a renewed problem with grade crossing safety following the start 
of higher speed rail service.
    Question 2. What steps should we be taking to better address grade 
crossing safety?
    Answer. We continue to look for opportunities to address grade 
crossing safety and we have long supported outreach programs. The most 
prominent program is ``Operation Lifesaver,'' a nonprofit public safety 
education and awareness organization dedicated to reducing collisions, 
fatalities and injuries at highway-rail crossings and trespassing on or 
near railroad tracks. However, more needs to be done and we still 
believe the safest grade crossing is the one that does not exist. 
Several of the host railroads have programs in place that financially 
incentivize communities to remove public grade crossings and we 
strongly believe that more funding and focus on upgrading those grade 
crossings that necessary with enhanced traffic control and safety 
features is justified. Similarly, where new public grade crossings are 
introduced it is imperative that active warning devices are installed.

    Washington State Crash. Mr. Anderson, the Amtrak derailment in 
Washington State is eerily similar to the 2015 derailment in 
Philadelphia. In the last transportation bill, Congress mandated that 
railroads evaluate curves where the speed drops in hopes of preventing 
a similar crash.
    Question 3. Did Amtrak evaluate the curve near DuPont, Washington 
prior to starting service? What actions did you take to address it?
    Answer. In light of the open and ongoing NTSB investigation we are 
unable to provide this information at this time. It is important to 
note that the NTSB has publicly released that had an automatic-braking 
system been operational, it would have applied the brakes to slow and 
stop the train.

    Question 4. Could a derailment like the one in Washington State 
happen in Florida or elsewhere? What steps are you taking to prevent 
that from happening?
    Answer. The possibility of a train derailment is present across the 
Nation's railroad network from a variety of possible risk areas. 
However, many of the recent accidents involving Amtrak trains have 
involved over-speed situations that Positive Train Control could have 
prevented. Thus, we believe PTC or the application of technology and 
operating practices that achieves PTC-equivalency must be standard for 
all Amtrak routes and that this technology will make the entire U.S. 
rail network safer for passengers, railroad employees, and communities. 
While some question the need for PTC on low-density territory, our 
recent experience has shown that over-speed relative to signal 
indications and permanent or temporary speed restrictions is a 
significant risk and this risk exists regardless of traffic levels on a 
given route. As the leader in the installation of PTC for decades, 
having already deployed systems across nearly all of tracks we control, 
we have strong corporate experience with both the benefits of having 
PTC installed and the risks associated with its absence.
    For the tracks we use but do not own or control, we are cooperating 
with our freight and commuter host railroads as they advance their 
obligations to complete PTC installations, which are required either 
because of the presence of passenger trains or certain hazardous 
material. Additionally, the various freight and commuter railroads that 
operate over Amtrak's infrastructure must equip their rolling stock 
with PTC for use on our infrastructure and we are working cooperatively 
with them to advance these tasks.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Richard Anderson
    Speed Limit Action Plans. Mr. Anderson, the FAST Act requires 
passenger railroads to come up with speed limit action plans for any 
place there is a speed reduction of 20 miles-per-hour or greater. Speed 
limit action plans are meant to help prevent incidents like the Amtrak 
Cascade Train 501 derailment in DuPont, WA by creating numerous 
warnings for the engineer that they need to reduce their speed.
    Question 1. Had Amtrak created a speed action plan for the curve in 
DuPont, WA, where the derailment occurred?
    Answer. In light of the open and ongoing NTSB investigation we are 
unable to provide information related to the 501 derailment. However, 
Amtrak did comply with the FAST Act requirements for speed limit action 
plans.

    Question 2. Can you explain what measures were in place to warn the 
engineer that he needed to reduce the speed of the train?
    Answer. The information publicly released by the NTSB confirmed 
that a 30 mph speed-limit sign was posted on the engineer's side of the 
train to remind engineers about the upcoming curve. It was posted two 
miles before the curve.

    Question 3. Can you identify what you are doing to learn from this 
derailment to update all your speed limit action plans?
    Answer. We have and will continue to review our speed limit action 
plans. The need for full implementation of Positive Train Control is 
critical. PTC will prevent over-speed derailments. PTC must be standard 
for all Amtrak routes and this technology will make the entire U.S. 
rail network safer for passengers, railroad employees, and communities. 
Amtrak is a leader in the installation of PTC, having already deployed 
systems across nearly all of tracks we control.
    For the tracks we use but do not own or control, we are cooperating 
with our freight and commuter host railroads as they advance their 
obligations to complete PTC installations, which are required either 
because of the presence of passenger trains or certain hazardous 
material. Additionally, the various freight and commuter railroads that 
operate over Amtrak's infrastructure must equip their rolling stock 
with PTC for use on our infrastructure and we are working cooperatively 
with them to advance these tasks.
    In addition, Amtrak established system wide qualifications 
standards for our train and engine personnel and is in the process of 
expanding our use of simulation for training and route qualification.

    Highway-Rail Grade Crossing Safety. I would like to address the 
topic of safety issue, highway-rail grade crossings. The City of 
Lakewood sits on the new Point Defiance Bypass Rail line where the 
DuPont derailment occurred.
    The city has 7 grade crossings within its city limits. They are 
understandably concerned about safety at these crossings given that 
over 30 percent of rail related fatalities occur at grade crossings.
    Question 4. Mr. Anderson, can you tell me how Amtrak is working to 
make highway-rail grade crossings safer?
    Answer. We continue to look for opportunities to address grade 
crossing safety and we have long supported outreach programs. The most 
prominent program is ``Operation Lifesaver,'' a nonprofit public safety 
education and awareness organization dedicated to reducing collisions, 
fatalities and injuries at highway-rail crossings and trespassing on or 
near railroad tracks. However, more needs to be done and we still 
believe the safest grade crossing is the one that does not exist. 
Several of the host railroads have programs in place that financially 
incentivize communities to remove public grade crossings and we 
strongly believe that more funding and focus on upgrading those grade 
crossings that necessary with enhanced traffic control and safety 
features is justified. Similarly, where new public grade crossings are 
introduced it is imperative that active warning devices are installed.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                            Richard Anderson
    Implementation of Positive Train Control. Mr. Anderson, under one 
scenario, Metro-North completely implements PTC by December 31, 2018. 
That's the only acceptable option in my book.
    Under a second scenario, Metro-North does just enough to get a 
series of extensions of the deadline to implement from the FRA--known 
technically as the ``alternative schedule.''
    I want to consider the impact of a third, nightmare scenario: 
Metro-North fails to qualify for any extension at all. In that 
scenario, several things would happen. Metro-North should be properly 
penalized. But Metro-North would not be the only railroad affected by 
its failure to comply with the law. Amtrak would be, too. If Metro-
North's track isn't PTC-compliant, I understand Amtrak will need to act 
accordingly. That means Amtrak service could completely cease on track 
in Connecticut from the New York border to New Haven. That could sever 
one of the country's key transportation arteries, leading to even more 
congestion on the highways and in the air up and down the Eastern 
Seaboard.
    In your testimony you envision this problem. You state, ``For any 
such route segments'' without PTC implemented or having failed to 
qualify for an ``alternative schedule,'' ``Amtrak will suspend 
operations until such time as the carrier becomes compliant with the 
law.''
    Question 1. Does this statement apply to Metro-North?
    Answer. At present, we believe that Metro-North will qualify for an 
extension but we recommend you seek confirmation of this status with 
them directly. As you know, Amtrak will conduct risk assessments for 
all routes which do not have operable PTC by December 31, 2018. The 
risk assessment outcome will result in developing operational and/or 
technological recommended enhancements on a route-by-route basis that 
we can deploy until PTC is operational. However, if Metro-North were to 
fail to qualify for an extension at all, Amtrak would not be able to 
operate over their infrastructure.

    Question 2. What would happen to the riders who depend on Amtrak 
service between New York and Boston if Metro-North fails to implement 
PTC by December 31, 2018, or qualify for any extension?
    Answer. Amtrak does not have a plan at this time since we have been 
informed by Metro-North that they expect to meet the deadline or file 
for an extension. However, this segment is not owned by Amtrak. The 
host railroad, Metro-North, should be able to provide an update on 
progress for implementation.

    Question 3. Are you confident that in 2019 you will be able to 
continue service on tracks you currently use between New York and 
Boston?
    Answer. Yes.

                                  [all]

</pre></body></html>
